APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(September 14, 2020) . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the District of Montana
Helena Division
(October 5, 2018) . . . . . . . . . . . . . App. 27
Appendix C Findings of Fact, Conclusions of Law
and Judgment in the United States
District Court for the District of
Montana Helena Division
(June 26, 2018) . . . . . . . . . . . . . . App. 40
Appendix D Opinion in the United States Court of
Appeals for the Ninth Circuit
(August 10, 2017) . . . . . . . . . . . App. 129
Appendix E Order in the United States District
Court for the District of Montana
Helena Division
(August 26, 2014) . . . . . . . . . . . App. 170
Appendix F Order in the United States Court of
Appeals for the Ninth Circuit
(October 18, 2017) . . . . . . . . . . . App. 193
Appendix G 42 U.S.C.S. § 9613 Excerpt . . . App. 194

ii
Appendix H RCRA Consent Decree East Helena
Plant Lodged Version: January 23,
1998 Excerpts . . . . . . . . . . . . . . App. 200
Appendix I Complaint in the United States
District Court for the District of
Montana Helena Division. . . . . App. 255

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-35934
D.C. No. 6:12-cv-00053-DLC
[Filed: September 14, 2020]
__________________________________________
ASARCO LLC, a Delaware corporation,
)
Plaintiff-Appellee,
)
)
v.
)
)
ATLANTIC RICHFIELD COMPANY,
)
LLC, a Delaware corporation,
)
Defendant-Appellant,
)
)
and
)
)
BRITISH PETROLEUM, PLC, a United
)
Kingdom Corporation; AMERICAN
)
CHEMET CORPORATION, a Montana
)
Corporation,
)
Defendants.
)
__________________________________________)
OPINION

App. 2
Appeal from the United States District Court
for the District of Montana
Dana L. Christensen, District Judge, Presiding
Argued and Submitted April 27, 2020
Seattle, Washington
Filed September 14, 2020
Before: M. Margaret McKeown, N. Randy Smith, and
Jacqueline H. Nguyen, Circuit Judges.
Opinion by Judge Nguyen
__________________________________________________
SUMMARY*
__________________________________________________
Environmental Law
The panel affirmed in part and vacated in part the
district court’s judgment, after a bench trial, in favor of
the plaintiff in a contribution action under
the Comprehensive Environmental Response,
Compensation, and Liability Act.
Plaintiff ASARCO LLC entered into a consent
decree with the Environmental Protection Agency to
clean up environmental contamination at several sites,
including a Superfund Site in East Helena, Montana.
Asarco, former operator of a lead smelting facility, then
brought a CERCLA contribution action against Atlantic
Richfield Co., successor in interest to the operator of a
zinc fuming plant The district court found that Asarco
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
had incurred $111.4 million in necessary response costs
for the cleanup of the Site and that Atlantic Richfield
was responsible for 25% of that sum.
Vacating and remanding in part, the panel held that
the district court erred in its determination of the
necessary response costs incurred by Asarco.
Specifically, the district court erred when it counted
the full settlement amount, including about $50 million
of funds that had not been, and might never be, spent
on the Site cleanup, as response costs subject to
contribution at this stage of the Site cleanup. The panel
remanded for further consideration of what response
costs were sufficiently concrete and non-speculative
such that they would be eligible for contribution under
CERCLA.
Affirming in part, the panel held that the district
court did not err in allocating responsibility for 25% of
the response costs to Atlantic Richfield. The panel held
that the district court properly exercised its discretion
in its consideration of appropriate equitable factors and
did not clearly err in its factual findings supporting its
allocation decision.
__________________________________________________
COUNSEL
Shannon Wells Stevenson (argued), Benjamin B.
Strawn, and Kellen N. Wittkop, Davis Graham &
Stubbs LLP, Denver, Colorado; Elisabeth S. Theodore
and Stephen K. Wirth, Arnold & Porter Kaye Scholer
LLP, Washington, D.C.; for Defendant-Appellant.

App. 4
Gregory Evans (argued), McGuireWoods LLP, Los
Angeles, California; Benjamin L. Hatch,
McGuireWoods LLP, Washington, D.C.; Kris A.
McLean, Kris A. McLean Law Firm PLLC, Missoula,
Montana; Rachel H. Parkin, Milodragovich Dale &
Steinbrenner P.C., Missoula, Montana; for
Plaintiff-Appellee.
__________________________________________________
OPINION
NGUYEN, Circuit Judge:
In June 2009, ASARCO LLC (“Asarco”) agreed to
settle with the government and enter into a consent
decree to clean up environmental contamination at
several sites, including a Superfund Site in East
Helena, Montana (the “Site”). Asarco then brought a
contribution action under the Comprehensive
Environmental Response, Compensation, and Liability
Act of 1980 (“CERCLA”), 42 U.S.C. §§ 9601–9675,
against Atlantic Richfield Company, LLC (“Atlantic
Richfield”). Following a bench trial, the district court
entered judgment in favor of Asarco, finding that
Asarco had incurred $111.4 million in necessary
response costs for the cleanup of the Site and that
Atlantic Richfield was responsible for twenty-five
percent of that sum. Atlantic Richfield appealed. We
have jurisdiction pursuant to 28 U.S.C. § 1291. We hold
that the district court erred in its determination of the
necessary response costs incurred by Asarco, but the
court did not err in allocating twenty-five percent
liability to Atlantic Richfield. We therefore vacate and
remand in part, and affirm in part.

App. 5
I. BACKGROUND
A. Operations at the Site
Asarco and its predecessors owned and operated a
lead smelting facility at the Site from 1888 to 2001.
Asarco’s lead smelting facility was the largest
operation at the Site. This operation recovered lead and
other metals by smelting a variety of foreign and
domestic concentrates, ores, fluxes, and other
non-ferrous, metalbearing materials and byproducts.
Those materials contained arsenic concentrations as
high as 190,000 parts per million (“ppm”). The smelting
operation produced slag as a waste product, which
contained small residual quantities of metals and
arsenic. It is undisputed that Asarco “released
significant amounts of arsenic into the environment”
from its smelting facility.
Atlantic Richfield is the successor in interest to
Anaconda, which leased a portion of the Site from
Asarco to construct and operate a zinc fuming plant.
Using a blast furnace fueled with coal, Anaconda
reprocessed slag that it purchased from Asarco to
recover zinc. Anaconda used and produced several
arsenic-bearing materials in its fuming operation,
albeit with a lower arsenic concentration than Asarco’s
primary materials. Anaconda operated the zinc fuming
plant from 1927 to 1972, at which point it sold the
plant to Asarco. Asarco then operated the zinc fuming
plant for another decade.
B. EPA Involvement and Remediation
In 1984, the Environmental Protection Agency
(“EPA”) added the Site to the CERCLA National

App. 6
Priorities List, targeting it for environmental
remediation. The primary environmental concern at
the Site was arsenic contamination of the groundwater.
In the years that followed, Asarco entered into a series
of agreements with the EPA to begin the process of
remediation.
In 1990, Asarco and the EPA finalized a settlement
agreement and consent decree in CERCLA litigation
concerning the contamination of the process ponds at
the Site. Pursuant to the consent decree, Asarco agreed
to undertake a cleanup of the process ponds, which it
substantially completed by 1997.
In 1998, Asarco and the EPA entered into another
settlement agreement and consent decree, this time
resolving claims brought by the EPA under the
Resource Conservation and Recovery Act and the Clean
Water Act. The settlement did not raise any claims
under CERCLA.
On August 9, 2005, Asarco filed a Chapter 11
bankruptcy petition. In connection with the bankruptcy
proceedings, the United States, the State of Montana,
and the State of Montana Department of
Environmental Quality all filed proofs of claim for
Asarco’s projected liability under CERCLA. Asarco, the
United States, and the State of Montana reached two
complementary settlement agreements and consent
decrees in February and June 2009, resolving Asarco’s
outstanding environmental liabilities at several
Montana sites, including the Site at issue in this case.
The June 2009 consent decree established a
custodial trust for the affected sites, and the Montana

App. 7
Environmental Trust Group (“METG”) was appointed
as the custodial trustee for the East Helena Site. The
June 2009 consent decree also designated the EPA as
the lead agency for the Site, placing it in charge of
selecting, approving, and authorizing all work
performed and funds expended by METG. Pursuant to
the June 2009 consent decree, Asarco paid
approximately $111.4 million1 for cleanup of the East
Helena Site—accounting for comprehensive damage
done to the Site by all responsible parties. That sum
included: (a) $99.294 million into the East Helena
Custodial Trust Cleanup Account for a groundwater
remedy;2 (b) $6,403,743 toward the establishment of
the Custodial Trust and the funding of the Custodial
Administrative Account to be used for trust
administration expenses; (c) $706,000 to the U.S.
Department of the Interior for natural resource
restoration and future oversight costs for the Site; and
(d) $5 million to the State of Montana for compensatory
natural resource damages at the Site.
METG has begun its remediation work at the Site.
So far, it has fully implemented three interim
measures to curb the spread of contaminants and
further environmental degradation at the Site. METG
also has implemented institutional controls for the Site
and the surrounding areas, designed to prevent

1

In total, Asarco paid $1.8 billion to settle environmental claims
related to hazardous waste in the bankruptcy proceedings.
2

This figure was based on estimates for a pump-and-treat system
recommended by the State of Montana’s experts, William Bucher
and Ann Maest.

App. 8
property owners from using their domestic water wells
to avoid contact with contaminated groundwater.
METG proposes one additional future project: capping
the portion of the slag pile at the Site that consists of
unfumed slag. METG has not instated and does not
plan to install a pump-and-treat system.
As of the most recent accounting available, METG
had spent a little less than half of the trust funds at its
disposal, leaving it with approximately $50 million for
further remediation efforts. Atlantic Richfield’s expert
estimated the ongoing costs for operations and
maintenance at $9.2 million, and METG estimated the
cost of covering the unfumed slag at $3.7 million.
Adding those sums to the dollar amount already
expended by METG, the total cleanup cost for the Site
would approximate $61.4 million. Asarco contends that
Atlantic Richfield’s expert vastly understates how
costly the cleanup would be. Asarco’s expert opined
that METG’s proposed remedies would be insufficient
to address the groundwater contamination and that
more substantial remediation work would be necessary.
C. Procedural History
In 2012, Asarco brought this contribution action
against Atlantic Richfield under CERCLA §§ 107 and
113. The district court granted summary judgment in
favor of Atlantic Richfield, finding the action barred by
the statute of limitations. Asarco appealed, and we
concluded that Asarco’s contribution claim was, in fact,
timely. See Asarco LLC v. Atlantic Richfield Co., 866
F.3d 1108 (9th Cir. 2017). We vacated the district
court’s summary judgment order and remanded for
further proceedings before the trial judge. Id.

App. 9
On remand, the district court conducted an
eight-day bench trial, weighted heavily toward expert
testimony. Following trial, the district court issued
detailed findings of fact and conclusions of law and
entered judgment in favor of Asarco. The court found
that Asarco had expended $111,403,743 in necessary
response costs for cleanup of the Site3 and that Atlantic
Richfield was liable for twenty-five percent of those
costs, i.e., $27,850,936. The court also granted an
additional $1 million award to Asarco, based on its
findings as to Atlantic Richfield’s failure to cooperate
with the authorities and its misrepresentations to the
EPA and to Asarco.4 Atlantic Richfield moved to alter
or amend the judgment, but the district court denied
the motion. This appeal timely followed.
II. ANALYSIS
A. The District Court Erred by Including
Speculative Future Costs in its Tabulation of
Necessary Response Costs Eligible for
Contribution Under CERCLA.
Atlantic Richfield argues that the district court
erred in finding that Asarco incurred $111.4 million in
necessary response costs for the environmental cleanup
of the Site, because that sum improperly included
(i) costs that had not yet been, and might never be,
incurred; and (ii) costs that were not necessary to

3

This figure is the amount paid by Asarco in connection with the
June 2009 consent decree.
4

Atlantic Richfield does not challenge on appeal the imposition of
this additional $1 million award.

App. 10
protect human health and the environment. Atlantic
Richfield contends those costs are unrecoverable under
CERCLA, and that the response costs eligible for
contribution should be limited to the $61.4 million that
it represents have been incurred so far to remediate the
Site.
We review for clear error the district court’s
findings of fact following a bench trial, and we review
de novo its conclusions of law and mixed questions of
law and fact. OneBeacon Ins. Co. v. Haas Indus., Inc.,
634 F.3d 1092, 1096 (9th Cir. 2011). We hold that the
district court erred when it counted the full settlement
amount—including about $50 million of funds that had
not been, and might never be, spent on the Site
cleanup—as response costs subject to contribution at
this stage of the Site cleanup. We therefore vacate and
remand for further consideration of what response
costs are sufficiently concrete and non-speculative such
that they would be eligible for contribution under
CERCLA.
The parties agree on the initial premise that,
pursuant to the CERCLA contribution regime, Asarco
is entitled to recover an allocated proportion of the
“necessary costs of response incurred . . . consistent
with the national contingency plan.” 42 U.S.C.
§ 9607(a)(4)(B). From that point, their positions
diverge.
Atlantic Richfield contends that those funds not yet
spent or earmarked for specific, imminent work cannot
qualify as costs “incurred.” It relies on cases that
prohibit recovery under CERCLA for future response
costs or the award of speculative damages unmoored to

App. 11
concrete expenses. See Stanton Rd. Assocs. v. Lohrey
Enters., 984 F.2d 1015, 1021–22 (9th Cir. 1993); In re
Dant & Russell, Inc., 951 F.2d 246, 249–50 (9th Cir.
1991). Atlantic Richfield asserts that METG no longer
expects to implement the costly pump-and-treat
remedy, instead planning to carry out cheaper remedial
actions that would leave a large portion of the
settlement funds untouched. It also cites to a reversion
provision in the settlement agreement, whereby
unused settlement funds would be redirected to
remediate other sites for which Atlantic Richfield has
no liability.
Asarco responds that the costs for which it seeks
contribution were actually “incurred.” It argues that
the entire sum paid in settlement, $111.4 million, was
intended to fund the environmental cleanup of the Site,
as evidenced by the fact that the reversion provision
does not allow the return of any funds to Asarco’s
hands. Based on its irrevocable payment, Asarco says
it “incurred” those response costs within the meaning
of the statute. Asarco attempts to distinguish the cases
cited by Atlantic Richfield, noting that they occurred in
different contexts and lacked the same type of firm
monetary commitment that Asarco undertook here.
And Asarco points to cases from other circuits allowing
recovery of future costs, arguing that precluding
recovery for such costs could undermine CERCLA’s
policy objective of incentivizing settlements and early,
accountable cleanup. See RSR Corp. v. Commercial
Metals Co., 496 F.3d 552, 558–60 (6th Cir. 2007); Am.
Cyanamid Co. v. Capuano, 381 F.3d 6, 26–27 (1st Cir.
2004); Action Mfg., Co. v. Simon Wrecking Co., 287 Fed.
App’x 171, 174–76 (3d Cir. 2008); PCS Nitrogen, Inc. v.

App. 12
Ross Dev. Corp., 104 F. Supp. 3d 729, 744 (D.S.C.
2015).
On this factual record, Atlantic Richfield has the
better argument. We have held that the full dollar
value of a settlement agreement to discharge CERCLA
liability is not automatically subject to contribution.
AmeriPride Servs. Inc. v. Texas E. Overseas Inc., 782
F.3d 474, 490 (9th Cir. 2015) (“[I]f a party who was
liable under § 9607(a) entered into a settlement
agreement to discharge its CERCLA liability to a third
party, it can seek contribution under § 9613(f)(1) only
for the settlement costs that were for necessary
response costs incurred consistent with the NCP.”). In
many cases, the full settlement amount may equate
with the necessary response costs incurred—but that
is not inherently so. Thus, funding a settlement
obligation, on its own, does not automatically render
the entire sum compensable in a contribution action,
even if that payment is irrevocable. A party seeking
contribution must still show that the settlement
amount represents “necessary response costs incurred
consistent with the NCP.” Id. Although the meaning of
“incur” is sufficiently broad that it does not require that
an expense already be paid, it is also not so broad that
it encompasses future expenses that are mere
potentialities. See Trimble v. Asarco, Inc., 232 F.3d 946,
958 (8th Cir. 2000) (“We do not dispute plaintiffs’ point
that a party may be found to have ‘incurred’ a cost
without having actually paid for it[;] . . . a finding that
a cost has been ‘incurred’ may be based upon an
existing legal obligation. However, the mere possibility,
even the certainty, that an obligation to pay will arise
in the future does not establish that a cost has been

App. 13
incurred, but rather establishes that a cost may be
incurred, or will be incurred.”), abrogated on other
grounds by Exxon Mobil Corp. v. Allapattah Servs.,
Inc., 545 U.S. 546 (2005); see also Chubb Custom Ins.
Co. v. Space Sys./Loral, Inc., 710 F.3d 946, 961 (9th
Cir. 2013) (explaining that courts apply the ordinary
meaning of the term “incur” in the CERCLA context,
“which is ‘[t]o acquire or come into,’ ‘[t]o become liable
or subject to as a result of one’s action,’ to ‘bring upon
oneself’” (quoting Am. Heritage Dictionary (4th ed.
2000)) (alterations in original)).
Reinforcing our focus on non-speculative costs
actually incurred, our circuit historically has refused to
award future response costs. Stanton Rd., 984 F.2d at
1021–22 (holding that “CERCLA prohibits awards of
future response costs” and finding error in the district
court’s order requiring defendants to place $1.1 million
in escrow for future cleanup costs); Dant & Russell, 951
F.2d at 249–50 (explaining that response costs not yet
incurred cannot be recovered under CERCLA, and
highlighting that “[s]ection 9607(a)(4)(B) permits an
action for response costs ‘incurred’—not ‘to be
incurred’”). Likewise, we have found “no suggestion in
the statute that Congress intended CERCLA to create
a general federal right of contribution for damages and
response costs that are not otherwise cognizable under
the statute.” AmeriPride, 782 F.3d at 490 (quoting Cty.
Line Inv. Co. v. Tinney, 933 F.2d 1508, 1517 (10th Cir.
1991)). Therefore, we conclude that speculative,
potential future response costs are not recoverable in a
CERCLA contribution action, even if the party seeking
contribution has already made an outlay for such costs
pursuant to a settlement. Instead, a declaratory

App. 14
judgment, whereby liability for future response costs
would be allocated at a set percentage across
responsible parties, is the proper mechanism for
recouping future response costs in the CERCLA
regime.5 See Boeing Co. v. Cascade Corp., 207 F.3d
1177, 1191 (9th Cir. 2000) (holding that declaratory
judgments are appropriate not only in the context of
cost recovery actions brought under 42 U.S.C. § 9607,
but also in CERCLA contribution actions brought
under 42 U.S.C. § 9613).
Here, based on the most recent accounting as of
trial, METG had spent only about $48.5 million of its
allocated funds, leaving it with another $50 million for
further cleanup efforts. Although the settlement figure
was based on the estimated cost of a pump-and-treat
remedy,6 METG does not plan to implement a
pump-and-treat remedy at this time. It considers a
pump-and-treat remedy too costly, potentially
ineffective, and risky in that it could affect the stability
of the arsenic-contaminated groundwater plume.
Instead, METG’s proposed final remedies are
meaningfully less costly—quoted to bring the full
cleanup costs for the Site to about $61.4 million.

5

We also do not intend to foreclose a settling party from seeking
contribution for costs not yet incurred in a future action, once
those costs have been incurred within the meaning of CERCLA, to
the extent otherwise permitted by law.
6

The settlement does not require that any particular remedial
measure be taken to clean up the Site. Therefore, the settlement
does not specifically mandate a pump-and-treat remedy, even
though it was priced with such a remedy in mind.

App. 15
Asarco challenges METG’s assessment and
proffered the expert testimony of Margaret Staub, who
emphasized that the original settlement contemplated
implementation of a pump-and-treat system at the
Site. Staub opined that the measures proposed by
METG likely would not restore the groundwater to
acceptable levels, and that, while she could not say
definitively what the final remedy would be,
“something at some point is going to have to be done.”
But Staub’s opinion, upon which the district court
relied, does not provide sufficiently concrete evidence
that the entire sum would likely be expended to
remediate the Site. Not only is Staub’s opinion steeped
in speculation to begin with, but there is a vast logical
leap from the broad conclusion that “something”
further will need to be done to remediate the Site, to
the specific quantification of the necessary response
costs for the Site at $111.4 million or greater.
In short, Asarco relies on conjecture rather than
firmly-grounded facts and figures. As noted, METG has
not paid for or assumed an obligation to pay for a
pump-and-treat remedy, nor has it earmarked any
funds for that purpose. At this stage, any such response
costs remain speculative. Further adding to the
uncertainty surrounding total response costs, the
settlement contains a reversion provision that redirects
any unused Site cleanup funds to other causes,
including the other contaminated properties subject to
the broader settlement. Although Asarco is liable for
the cleanup of all the covered properties, Atlantic
Richfield is not.

App. 16
Asarco’s argument, which the district court adopted,
strays from CERCLA’s legal framework. The district
court explained:
The Court . . . concludes that unless and until
the groundwater is restored to achieve
[maximum contaminant levels] and drinking
water standards, something more substantial
will need to be done. Whether there remain[]
sufficient funds in the trust to accomplish this
task, and whether a pump and treat system is
the ultimate solution, are not the controlling
questions. Regardless of the answer to those two
questions, and notwithstanding Atlantic
Richfield’s arguments to the contrary, the Court
is convinced that the balance of the approximate
$50 million in the trust will most likely be
expended to achieve the mandated remediation
results.
Working from that premise, the court found the full
$111.4 million settlement amount to be necessary
response costs eligible for contribution. While we do not
question the district court’s finding that further
remedial action may be necessary in the future, its
forecast was not adequately tethered to any concrete
evidence in the record.
If, as the district court concludes, “something more
substantial will need to be done,” a party in Asarco’s
position ultimately can recover the corresponding
response costs from its fellow responsible parties. But
until further information is known about the nature
and costs of that “something more,” those future costs
are not eligible for contribution. In the meantime, the

App. 17
contribution-seeker can pursue (i) contribution for
those necessary response costs that have been incurred
to date, and (ii) a declaratory judgment to establish
liability and a contribution allocation for those costs
that have not been incurred yet, but may be incurred in
the future.
We emphasize, however, that our holding is a
narrow one. We are presented with a cash-out
bankruptcy settlement, reached as part of a global
settlement of liability for several contaminated sites,
with a reversion provision that diverts unused funds to
other sites for which only one of the parties is
responsible. We likewise face the unusual scenario in
which the projected costs of the remediation process, as
well as the proposed means of remediation, have
fluctuated dramatically since the time the settlement
was reached; significantly, one of the core facets of the
initial remediation plan, a pump-and-treat remedy,
now appears extremely unlikely to come to fruition. On
this record, Asarco has failed to adequately support its
asserted response costs.
Finally, to the extent the parties disagree about
whether the costs of a pump-and-treat system (or other
yet-to-be-incurred costs) would be “necessary,” we need
not resolve the parties’ dispute. Because such costs
have not been incurred, they cannot be awarded even
if they satisfy the remaining requirements for
contribution eligibility. For these reasons, we vacate
the district court’s finding that the full $111.4 million
settlement amount was eligible for contribution and
remand for further consideration of what necessary

App. 18
response costs were actually incurred within the
meaning of CERCLA.
B. The District Court Did Not Err in Allocating
Responsibility for Twenty-Five Percent of the
Response Costs to Atlantic Richfield.
Atlantic Richfield argues that the district court
inflated its liability far beyond its actual environmental
impact and ascribed to it a share of the response costs
that bore little relation to the evidence presented at
trial. Specifically, Atlantic Richfield contends that the
district court failed to take account of the volume and
toxicity of the waste each party handled; failed to
explain adequately what factors it considered in
reaching its allocation; and arrived at an allocation
that meaningfully outpaced the level of contamination
it could have caused. We disagree, and we hold that the
district court did not err in devising an equitable
allocation of liability for the Site cleanup.
In a contribution action, CERCLA empowers a
district court to “allocate response costs among liable
parties using such equitable factors as the court
determines are appropriate.” 42 U.S.C. § 9613(f)(1). On
appeal, we then “review for an abuse of discretion the
equitable factors that a district court considers in
allocating CERCLA costs and review for clear error the
allocation according to the selected factors.” TDY
Holdings, LLC v. United States, 885 F.3d 1142,
1146–47 (9th Cir. 2018).
As an initial matter, we conclude that the district
court properly exercised its discretion by anchoring its

App. 19
analysis around the so-called “Gore factors.”7 See id. at
1147 (approving of the use of the Gore factors in
CERCLA costs allocation); United States v. Burlington
N. & Santa Fe Ry. Co., 520 F.3d 918, 940 n.26 (9th Cir.
2008) (same), rev’d on other grounds, 556 U.S. 599
(2009). The district court also acted well within its
discretion in its broader efforts to tabulate the parties’
historical responsibility for the contamination, its
choice to ground that assessment in the expert
testimony offered by the parties, and its concern with
the duration of each party’s operations at the Site.8 Nor
was it improper for the court to determine that it could
not and need not allocate response costs to a
mathematical certainty, and that it could apply general
principles of fairness and equity in deciding whether to

7

The Gore factors are: (i) the ability of the parties to demonstrate
that their contribution to a discharge, release, or disposal of a
hazardous waste can be distinguished; (ii) the amount of the
hazardous waste involved; (iii) the degree of toxicity of the
hazardous waste involved; (iv) the degree of involvement by the
parties in the generation, transportation, treatment, storage, or
disposal of the hazardous waste; (v) the degree of care exercised by
the parties with respect to the hazardous waste concerned, taking
into account the characteristics of such hazardous waste; and
(vi) the degree of cooperation by the parties with federal, state, or
local officials to prevent any harm to public health or the
environment. See TDY Holdings, 885 F.3d at 1146 n.1.
8

We are not persuaded by Atlantic Richfield’s argument that the
comparative duration of the parties’ operations is “irrelevant” to an
appropriate allocation. The number of years a polluter operates
can be tied to the amount of pollution it generates and its overall
responsibility for contamination. Atlantic Richfield contends that
other factors would be superior, but that does not render the
district court’s approach to be an abuse of discretion.

App. 20
err on the side of over- or under-compensation. The
district court was not required to adopt the particular
set of factors, or the weighting among them, for which
Atlantic Richfield advocated. Because we find no abuse
of discretion at this step of the analysis, the propriety
of the district court’s allocation decision turns on
whether it committed clear error in its allocation of
Atlantic Richfield’s responsibility. See TDY Holdings,
885 F.3d at 1146–47.
We conclude that the district court did not clearly
err in its factual findings supporting its allocation
decision. The district court, in a ninety-five page order,
made extensive findings about the historical use and
contamination of the Site by Asarco and Atlantic
Richfield. It described in detail each party’s operations
at the Site; their respective uses and releases of
arsenic, to the extent knowable from the historical
records; their efforts, and failures, to prevent
environmental contamination; and their interactions
with the government concerning accountability and
remediation. Although the district court’s discussion of
the nexus between its factual findings and the Gore
factors could have been clearer at times, the court’s
findings and overarching analysis were sufficiently
robust that we do not find reversible error on that basis
here.
The first Gore factor inquires into the ability of the
parties to demonstrate that their contribution to a
discharge, release, or disposal of a hazardous waste can
be distinguished. Id. at 1146 n.1. The district court
explained that the “sparse historical record”
complicated the task of distinguishing the parties’

App. 21
contributions, noting a lack of clarity as to “the precise
nature and amount of pollutants” historically emitted
by each operator. It noted that the deficiencies in
the record were partially attributable to Atlantic
Richfield’s longstanding denial of responsibility for
contamination at the Site. Nonetheless, the court found
that the record generally “revealed enough information
to understand the history of operations . . . at the Site,”
coupled with the aid of expert testimony, such that it
could make a rough assessment of the parties’
respective contributions.
The second and third Gore factors ask how much
hazardous waste was involved, as well as the degree of
toxicity of that waste. Id. The fourth Gore factor
considers the degree of involvement by the parties in
the generation, transportation, treatment, storage, or
disposal of the hazardous waste. Id. To this end, the
district court made detailed findings about the
historical operations of Asarco and Atlantic Richfield,
including the manners in which each used and released
arsenic at the Site. It recognized, as do both parties,
that “the majority of the groundwater contamination
METG is remediating at the Site was caused by
Asarco’s operations.” But the court noted that both
parties used vast quantities of arsenic-laden materials
in their everyday operations and generated substantial
amounts of arsenic-laden byproducts. Although the
court could not quantify all of Atlantic Richfield’s past
releases, given the large gaps in the historical record,
it noted that Atlantic Richfield released so much toxic
fly ash and coal dust that it received complaints from
the City of Helena. The court likewise made findings as
to the relative toxicity of arsenic in the various

App. 22
materials used by Asarco and Atlantic Richfield, to the
extent those toxicities could be ascertained.
The fifth Gore factor assesses the degree of care
exercised by the parties with respect to the hazardous
waste concerned. Id. The district court reviewed the
precautions taken by both Asarco and Atlantic
Richfield to protect against environmental
contamination, as well as the failures of certain
preventive measures taken by each party—such as
leakages in the protective infrastructure and the
careless handling of contaminated wash-down water.
The court further noted Asarco’s adoption of relatively
intensive preventive measures toward the later years
of its operation, including replacing Thornock Lake
with a massive steel holding tank, as well as broader
remediation efforts beginning in the 1990s.
The sixth Gore factor evaluates the degree of
cooperation by the parties with federal, state, or local
officials to prevent any harm to public health or the
environment. Id. As to this factor, the court explained
that Atlantic Richfield had repeatedly evaded
responsibility for any environmental contamination at
the Site, flagrantly misled the EPA regarding its
releases at the Site, and made ongoing
misrepresentations throughout the course of the
litigation. Atlantic Richfield contends the district
court’s misrepresentation findings are “irrelevant” to
its appeal of the twenty-five percent allocation because
the court separately awarded a $1 million uncertainty
premium pursuant to the sixth Gore factor. However,
it is not inconsistent for the district court to award an
uncertainty premium based on the egregiousness of its

App. 23
findings as to the sixth Gore factor, and also separately
to consider Atlantic Richfield’s non-cooperation when
weighing the equities in the context of reaching its
baseline allocation.
In addition to its core factual findings, the district
court considered the expert testimony proffered by the
parties in arriving at its allocation. Asarco’s expert
proposed three alternative liability allocation
strategies, which apportioned Atlantic Richfield’s
responsibility at twenty-five percent to forty-one
percent depending on the method. Atlantic Richfield’s
expert focused on challenging Atlantic Richfield’s
liability altogether and opined that Atlantic Richfield
should have zero responsibility for the Site cleanup.
The court reviewed the testimony of the parties’
dueling experts, discussing the merits and
shortcomings of each. The court found the opinions of
Asarco’s expert, Andy Davis, “to be compelling and
persuasive,” adding that he “was the only witness at
trial who was qualified by education, training,
experience, and the work he performed in this case, to
quantify the contribution of arsenic made by
Anaconda’s 45 years of operation at the Site.” By
contrast, the court found that Atlantic Richfield’s
expert, Brian Hansen, focused too much on Asarco’s
operations and tried so hard to minimize Anaconda’s
role that he failed to provide a useful quantification of
its contamination. The court further found that Hansen
failed to account for several material historical
documents, and “le[ft] the majority of expert Davis’s
opinions largely unchallenged.”

App. 24
The district court favored Davis’s most conservative
allocation, which ascribed twenty-five percent of the
total liability to Atlantic Richfield. It rejected Asarco’s
higher proposed allocations, as well as Atlantic
Richfield’s proposed zero percent allocation.9 Davis’s
conservative allocation, i.e., “Strategy III,” assigned
equal responsibility to Asarco and Atlantic Richfield for
discharges into the north plume and the Thornock
Pond and Lake area plume, adjusted for the respective
time periods the parties operated in each region, and
then adjusted for the square footage of the
contaminated groundwater in each area. The court
found this strategy appealing, because it accounted for
the parties’ differential time periods of ownership—
notably, a factor that favored Atlantic Richfield due to
its comparatively short-lived operations at the Site.
Particularly given the failure of Atlantic Richfield’s
expert to proffer a well-supported, sensible alternative

9

The district court also rejected three alternative allocations
suggested by Atlantic Richfield in its proposed amended post-trial
findings of fact and conclusions of law. Atlantic Richfield contests
the court’s cursory rejection of those alternatives. However,
Atlantic Richfield devoted nearly all of its energy at trial—and all
of its expert testimony—to challenging any attribution of
responsibility to Atlantic Richfield, so it provided minimal support
for these alternative allocations. Although the court’s rejection was
terse, it was sufficient under the circumstances—especially when
coupled with the district court’s explanation of the allocation it did
choose.

App. 25
allocation, the district court reasonably resorted to the
most conservative of Asarco’s proposed allocations.10
The district court acknowledged that all the
allocation strategies presented were imperfect and
explained that it would compensate for the
mathematical uncertainties by considering “such
equitable factors as the court determines are
appropriate,” per the framework of CERCLA. 42 U.S.C.
§ 9613(f)(1). Ultimately, the court used the Gore
factors—as well as the general equitable principle that
the cooperating, settling party should receive the
benefit of the doubt—to support its decision to adopt an
allocation that erred on the side of over-compensation
rather than under-compensation for the contamination
emitted by Atlantic Richfield. Because these equitable
factors weighed in Asarco’s favor, and the court found
Davis’s “Strategy III” to be the most compelling of the
proffered allocation strategies, it decided to stand by a
twenty-five percent allocation of responsibility to
Atlantic Richfield. Because the district court assessed
the record evidence and underlying equities with
sufficient rigor and care, we affirm.11

10

Moreover, that allocation aligned with the overarching theme of
the court’s factual findings, i.e., that Asarco bore responsibility for
the vast majority of the Site’s contamination, but Atlantic Richfield
was more than a de minimis polluter.
11

Atlantic Richfield further argues that a twenty-five percent
allocation exceeds its realistic share of the Site contamination. But
the district court was not required to allocate response costs
precisely along the lines of the parties’ emissions. Because
consideration of “equitable factors” is permissible, it is immaterial
if the court did not apportion response costs perfectly in line with

App. 26
Finally, Atlantic Richfield argues that the district
court’s decision provided an insufficient articulation of
the reasoning behind its allocation. We conclude that
the court below made a sufficient record to inform our
review. The court’s ninety-five page decision is
expansive and detailed, and it thoughtfully grapples
with a challenging case. A decision need not be
articulated with perfection to meet the standards we
have set forth in our case law. See Traxler v.
Multnomah County, 596 F.3d 1007, 1016 (9th Cir.
2016) (explaining that the district court must articulate
its reasoning in a manner sufficient to permit
meaningful appellate review, and remanding where the
record “d[id] not permit [the court] to infer a
rationale”). For these reasons, we affirm the district
court’s allocation decision.
Each party shall bear its own costs.
AFFIRMED IN PART, VACATED IN PART,
AND REMANDED.

emissions—especially where no party has been able to quantify
those emissions with precision.

App. 27

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION
CV 12-53-H-DLC
[Filed: October 5, 2018]
__________________________________________
ASARCO LLC, a Delaware corporation,
)
)
Plaintiff,
)
)
v.
)
)
ATLANTIC RICHFIELD COMPANY,
)
a Delaware Corporation,
)
)
Defendant.
)
__________________________________________)
ORDER
On June 26, 2018, following a bench trial, the Court
entered judgment in favor of Plaintiff ASARCO, LLC
(“Asarco”), and against Defendant Atlantic Richfield
Company (“Atlantic Richfield”). (Docs. 269, 270.) At
issue here are three matters: (1) Atlantic Richfield’s
motion to alter or amend the judgment (Doc. 277);
(2) the prejudgment interest rate to be applied to the
judgment in this case; and (3) the appropriateness of

App. 28
awarding Asarco’s costs and attorneys’ fees. The Court
considers each in turn.
I.

Motion to Alter or Amend

Atlantic Richfield asks the Court to reduce the total
amount of money allocated in the judgment from
$111,403,743 to $61,400,000. (Doc. 277.) If the Court
were to accept this position, Atlantic Richfield’s total
liability would decrease by approximately $13 million.
The Court has “considerable discretion in granting
or denying [a Rule 59(e)] motion.” McDowell v.
Calderon, 197 F.3d 1253, 1255 n.1 (9th Cir. 1999). “A
motion for reconsideration under Rule 59(e) ‘should not
be granted, absent highly unusual circumstances,
unless the district court is presented with newly
discovered evidence, committed clear error, or . . . there
is an intervening change in the controlling law.”’ Id.
(quoting 389 Orange St. Partners v. Arnold, 179 F.3d
656, 665 (9th Cir. 1999)). Atlantic Richfield argues that
the 59(e) standard is met here because the Court
committed manifest errors of law and fact in
determining the amount of the allocable judgment.
Atlantic Richfield contends that reconsideration is
appropriate because $50 million allocated in the
judgment may not ultimately be spent to clean up the
East Helena site. It claims that: (1) “Asarco failed to
prove that the Unspent Funds are necessary costs of
response”; (2) Asarco’s failure to bring a declaratory
judgment action is dispositive of Asarco’s entitlement
to funds that will be spent in the future; and (3) Asarco
and the Court have misread the relevant case law.
Although, as a preliminary matter, the Court disagrees

App. 29
that Atlantic Richfield’s arguments rise to Rule 59(e)’s
standard, it nonetheless addresses the merits of the
motion. Ultimately, the Court remains convinced that
the $111,403,743 is allocable as necessary to remedy
“an actual and real threat to human health or the
environment.” Carson Harbor Vill., Ltd. v. Unocal
Corp., 270 F.3d 863, 871 (9th Cir. 2001).
The Court found that Asarco met its burden of
showing that the full amount of the allocable judgment
comprises necessary response costs. (Doc. 269 FOF1 at
¶ 78.) When it found for Asarco following trial, the
Court thoroughly considered and rejected the same
argument that Atlantic Richfield presents now in its
motion to alter and amend the judgment.
As part of a 2009 consent decree, Asarco paid the
full amount of the allocable judgment, over $111.4
million, to address the environmental impacts caused
by all parties at the East Helena Site. (Doc. 269 at FOF
¶ 51.) Atlantic Richfield concedes that $61.4 million
has been properly claimed. Following an exhaustive
bench trial, the Court found that the remaining $50
million–which, again, Asarco has already paid–will be
spent to remedy the lingering significant
environmental damage caused by Asarco and other
parties, including Atlantic Richfield, at the East
Helena Site. (Doc. 269 at FOF ¶¶ 60-79.) Put simply,
there is still far too much arsenic in the water in East
Helena. Tellingly, even after $61.4 million in cleanup
costs, current institutional controls are focused on

1

“FOF” refers to the Court’s numbered Findings of Fact, and
“COL” refers to the Court’s Conclusions of Law.

App. 30
preventing people from using their wells. (Doc. 269 at
FOF ¶ 72.)
The Court considered the facts presented at trial
and expressly rejected the testimony of Atlantic
Richfield’s expert that final costs of cleanup should be
limited to $61.4 million. (Doc. 269 at FOF ¶¶ 75, 7778.) The Court determined that “unless and until the
groundwater is restored to achieve MCLs and drinking
water standards, something more substantial will need
to be done.” (Doc. 269 at FOF ¶ 78.) Accordingly, the
Court found that “the balance of the approximate $50
million . . . will most likely be expended to achieve the
mandated remediation results.” (Id.)
Atlantic Richfield’s other arguments in favor of Rule
59(e) reconsideration are also unavailing. Although
Asarco likely could have brought a declaratory
judgment action, here there is a sum certain that
Asarco has already paid and that is earmarked for
cleanup at the East Helena site. Again, the Court found
that all of the money Asarco paid will most likely be
spent to reduce the arsenic in the groundwater to safe
levels. (And, in fact, $111 million may not be enough.)
As Atlantic Richfield itself posits, the issue is whether
the money spent by Asarco consists solely of “necessary
costs of response.” 42 U.S.C. § 9607(a)(4)(B); see
AmeriPride Servs., Inc. v. Tex. E. Overseas, Inc., 782
F.3d 474, 490 (9th Cir. 2015).
The Court is similarly unmoved by Atlantic
Richfield’s argument that Asarco and the Court
misinterpret the relevant caselaw. Neither party has
pointed to binding precedent addressing the precise
circumstances presented here, and neither party needs

App. 31
to. Consistent with all the cases cited by both parties,
the question, again, is simply whether $111,403,743
comprises only costs necessary to remedy “an actual
and real threat to human health or the environment.”
Carson Harbor Vill., 270 F.3d at 871. That question
has been asked and answered, and the Court is
unconvinced that it erred as either a matter of law or
fact.
II.

Pre-judgment interest

In its Findings of Fact and Conclusions of Law, the
Court ordered the parties to “meet and confer about the
appropriate prejudgment interest calculation in this
case using the interest rate calculation provided in 26
U.S.C. § 9507(d)(3)(C).” (Doc. 269 at 95 n.71.) The
parties agree that, under the Superfund rate set forth
in § 9507(d)(3)(C), Atlantic Richfield would owe Asarco
$1,314,681.88 in prejudgment interest. Nonetheless,
they dispute whether the Superfund rate appropriately
applies. The Court determines that it does.
42 U.S.C. § 9507(d)(3)(C) provides that the
prejudgment interest rate “shall be the same rate as is
specified for interest on investments of the Hazardous
Substance Superfund . . . .” 42 U.S.C. § 9507(a)(4).
“Because § 9613(f) incorporates the liability provisions
of § 9607, the court is not free to exercise its discretion
in determining the methodology for calculating
prejudgment interest” in a contribution action brought
under the Comprehensive Environmental Response,
Compensation, and Liability Act of 1980 (“CERCLA”).
AmeriPride, 782 F.3d 474, 490-91 (9th Cir. 2015).

App. 32
Asarco argues that the time value of its money is
higher than that of the government’s money. Thus, it
contends, the Court should apply a higher interest rate
than applies to the Superfund. Asarco presents no
reasoned precedent in support of its position, which
appears to be wholly foreclosed by AmeriPride, if not by
statute. Thus, the Court determines that the
Superfund rate properly applies and orders Atlantic
Richfield to pay $1,314,681.88 in prejudgment interest.
III.

Costs and Fees

In its Findings of Fact and Conclusions of Law, the
Court concluded that Asarco was entitled to its costs
and reasonable attorneys’ fees incurred in identifying
Atlantic Richfield as a potentially responsible party.
(Doc. 269 at COL ¶¶ 71-77.) It accordingly ordered
Asarco to submit its claim for attorneys’ fees and costs
along with supporting documentation. Upon review of
the materials presented by the parties, the Court
determines that Asarco has not met its burden of
showing its entitlement to attorneys’ fees and that
most of the submitted costs are not reimbursable.
A. Attorneys’ Fees
As a general rule, attorneys’ fees are not recoverable
in a CERCLA contribution action. Key Tronic Corp. v.
United States, 511 U.S. 809, 819 (1994). However, the
Supreme Court has carved out a narrow exception for
“work that is closely tied to the actual cleanup,”
including “work performed in identifying other
[potentially responsible parties (‘PRPs’)].” Id. at 820. In
consideration of the significant misrepresentations
made to governmental authorities by Atlantic Richfield

App. 33
and its predecessor, the Anaconda Cooper Mining
Company, the Court reasoned that some of Asarco’s
attorneys’ fees were necessary to overcome those
misrepresentations and to identify Atlantic Richfield as
a potentially responsible party. However, upon review
of Asarco’s claim for attorneys’ fees and supporting
documentation, the Court has no choice but to conclude
that Asarco is not entitled to an award of attorneys’
fees.
To support its claim for $4,721,023.56 in attorneys’
fees, Asarco proffered a 6-paragraph declaration
stating that these fees “were reasonable and necessary
to identify Atlantic Richfield as a PRP at the Site and
to refute Atlantic Richfield and Anaconda’s untrue
representations to federal and state regulators.” (Doc.
274-1 at ¶ 5.) Asarco’s request is inadequate for two
reasons. First, it is impossible for Atlantic Richfield
and the Court to determine whether these fees are
“reasonable” because Asarco has not given even the
most basic information regarding hourly rates charged
by its attorneys and services performed. Second, it is
similarly unclear whether these fees meet the Key
Tronic exception, as there is no indication of when the
work was performed and what that work was.
Asarco may be entitled only to those fees that are
properly characterized as necessary response costs. Key
Tronic Corp., 511 U.S. at 819. While “[l]itigation costs
may indeed be a part of recovering funds that are
needed to advance the cleanup[,] . . . the ability to
recover litigation-related attorney’s fees does not
necessarily advance the pace of cleanup because it may
encourage ambitious litigation.” Fireman’s Fund Ins.

App. 34
Co. v. City of Lodi, 302 F.3d 928, 953 (9th Cir. 2002).
Accordingly, under Key Tronic, “the key inquiry for
courts to examine carefully is the exact type of legal
services covered by the fee.” Sealy Conn., Inc. v. Litton
Indus., Inc., 93 F. Supp. 2d 177, 190 (D. Conn. 2000).
The Court needs more than a declaration from counsel
to perform this necessary inquiry.
Asarco cites to three cases for the proposition that
the Court’s wide discretion authorizes an award of fees
solely on the basis of a conclusory declaration from
counsel. (Doc. 281 at 4-5 (citing Gluck v. Am. Protection
Indus., Inc., 619 F.2d 30, 32-33 (9th Cir. 1980); Mesa
Petroleum Co. v. Coniglio, 629 F.2d 1022, 1030 (5th Cir.
1980); National Ass’n for Mental Health, Inc. v.
Weinberger, 68 F.R.D. 387, 393 (D.D.C. 1975), rev’d on
other grounds, 561 F.2d 1021 (D.C. Cir. 1977).)
However, the Court does not have discretion to award
fees unless they fall under the Key Tronic exception,
and it cannot make that determination absent a
sufficient showing of proof.
Moreover, even assuming that the Court had the
discretion to award $4.6 million in fees without further
information, the Court would decline to exercise that
discretion in this instance. Atlantic Richfield has not
had an opportunity to review and respond to the details
of Asarco’s request, and the Court cannot verify either
the reasonableness of the award or Asarco’s threshold
entitlement to it. Indeed, Asarco states in its reply brief
that it incurred these fees “to identify, understand and
pursue Atlantic Richfield as a PRP in this case.” Doc.
281 at 3. Key Tronic does not allow litigation fees–fees
incurred in “understand[ing] and pursu[ing]” a party

App. 35
opponent. Thus, the Court will not award attorneys’
fees to Asarco.
B. Costs
Also at issue is Asarco’s entitlement to costs totaling
$924,808.49. As with the requested fees, Asarco has not
shown that the costs requested meet the Key Tronic
exception, although it has at least provided
itemizations of costs. Because the Court cannot
conclude that the narrow exception set forth in Key
Tronic is met here, the Court may award only those
costs outlined in 28 U.S.C. § 1920.
The bulk of Asarco’s request is $817,075.63 in what
it classifies as “other costs,” primarily expert fees paid
to Andy Davis. The Court placed great weight on
Davis’s testimony and reports, determining that “the
work of expert Davis in this case represents the only
truly comprehensive analysis to date of the
contribution that was made by Anaconda’s historical
operations at the Site to groundwater contamination.”
(Doc. 269 at FOF ¶ 181.) Although the Court remains
certain of both the importance of Davis’s work and the
reprehensibility of Atlantic Richfield’s and Anaconda’s
conduct, the Court cannot award Davis’s fees absent a
showing that they constitute a necessary response cost.
Rather, Davis’s expert costs were incurred after the
Amended Complaint naming Atlantic Richfield was
filed. Ostensibly, then, Davis’s services were a means
of proving Atlantic Richfield’s apportionable liability
rather than identifying Atlantic Richfield as potentially
responsible party. Asarco classifies all of Davis’s costs
as “expert work to identify [Atlantic Richfield] as a

App. 36
PRP & refute false representations,” (Doc. 275-5 at 24), but, as discussed above, something more is needed
to verify the accuracy of Asarco’s claim. Because the
Court simply cannot find the Key Tronic exception
satisfied on the basis of Asarco’s legal argument and
offer of proof, it cannot award Davis’s expert fees under
Key Tronic. See, e.g., Gussack Realty Co. v. Xerox Corp.,
224 F.3d 85, 92 (2nd Cir. 2000) (denying expert fees
when “Plaintiffs were able to and did identify Xerox as
a potentially responsible party without the expenditure
of any of the requested consultation services”). Nor can
it do so under 28 U.S.C. § 1920, which does not
authorize compensation for expert services. Because
the remainder of Asarco’s request for “other costs” is
similarly flawed, the Court cannot award $817,075.63
in “other costs.”
Atlantic Richfield also objects to Asarco’s request
for: (1) pro hac vice fees, (2) transcript fees, (3) fees and
disbursements for printing, (4) witness fees, and
(5) fees for exemplification and copies. The Court
briefly considers each category in turn.
(1)

Pro hac vice fees are not recoverable under
§ 1920, and the Court accordingly will not
award $1,760 requested. Kalitta Air LLC v.
Cent. Tex. Airborne Sys. Inc., 741 F.3d 955,
958 (9th Cir. 2013).

(2)

Transcript fees are recoverable only if they
are “necessarily obtained for use in the case.”
28 U.S.C. § 1920(2). The Local Rules
presume that transcripts are necessary if
used “at trial, after trial, or in supporting or
opposing a motion for summary judgment.”

App. 37
L.R. 54.1(b)(1)(B)(ii). Neither party’s
argument has altered that presumption.
Accordingly, the Court will disallow costs
associated with the transcripts and videos
that were not used in trial, after trial, or in
Asarco’s summary judgment briefing, which
are those of: Christopher Pfahl ($688.25),
Andy Davis ($934.20), Margaret Staub
($466.65), Paul Rosasco ($783.87), Brian
Hansen ($3,583.95 + $1,594.20), Monte
Brothers ($3,420.00 + $2,247.45), Thomas
Voltaggio ($1,988.00 + $1,223.50), Jon Nickel
($968.00), and Thomas Aldrich ($1,102.95).
The Court therefore will subtract $19,001.20
from Asarco’s request.
(3)

Asarco seeks $11,308.32 in printing costs,
including $2,992.88 in office equipment
rental. “Reasonable costs of reproducing
exhibits on the moving party’s will-offer
exhibit list are allowed. Otherwise the
moving party must establish the reasonable
necessity of reproducing the exhibit.” L.R.
54.1(b)(3). Asarco did not itemize its printing
costs in a manner that allows Atlantic
Richfield and the Court to analyze the
appropriateness of every printing fee
incurred. However, recognizing that it was
reasonably necessary for Asarco to reproduce
a great number of exhibits for trial purposes,
the Court determines that 25% of the
claimed printing costs incurred were
reasonably necessary for trial purposes.
Therefore, the Court subtracts $2,992.88 for

App. 38
equipment rental and $6,236.58 for printing
costs wrongfully claimed.
(4)

Asarco seeks $9,082.07 in witness fees.
“Costs and fees for witnesses paid under 28
U.S.C. § 1821 are allowed for each day a
witness testifies at trial. Otherwise, the
moving party must establish the witness’s
presence was required.” L.R. 54.1(b)(2). The
Court determines that Asarco did not
establish the necessity of multiple days of
witness fees for several witnesses and
accordingly subtracts $2,233.00.

(5)

Asarco seeks $38,780.93 for exemplification
and copies. “Fees for exemplification and
copying are permitted only for the physical
preparation and duplication of documents,
not for the intellectual effort involved in their
production.” Zuill v. Shanahan, 80 F.3d
1366, 1371 (9th Cir. 1996) (internal quotation
marks and citation omitted). Thus, the Court
subtracts $38,314.93 in consultants’ fees
improperly claimed.

All total, the Court determines that Asarco is not
entitled to $887,614.22 of the requested costs.
Accordingly, IT IS ORDERED that:
(1)

Atlantic Richfield’s motion to alter or amend
judgment (Doc. 277) is DENIED;

(2)

Atlantic Richfield shall pay to Asarco
$1,314,681.88 in prejudgment interest; and

App. 39
(3)

Atlantic Richfield shall pay to Asarco
$37,194.27 in costs.

DATED this 5th day of October, 2018.
/s/ Dana L. Christensen
Dana L. Christensen, Chief Judge
United States District Court

App. 40

APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION
CV 12-53-H-DLC
[Filed: June 26, 2018]
__________________________________________
ASARCO LLC, a Delaware corporation,
)
)
Plaintiff,
)
)
vs.
)
)
ATLANTIC RICHFIELD COMPANY, a
)
Delaware corporation,
)
)
Defendant.
)
__________________________________________)
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND JUDGMENT
INTRODUCTION
This is a civil action for contribution brought by
Plaintiff ASARCO LLC (“Asarco”) pursuant to
the Comprehensive Environmental Response,
Compensation, and Liability Act of 1980, as amended
(“CERCLA”), 42 U.S.C. § 9613, against Defendant
Atlantic Richfield Company (“Atlantic Richfield” or
“ARCO”) for costs and damages incurred by Asarco at

App. 41
a location in East Helena Montana, known as the East
Helena Site, a National Priorities List or “Superfund”
site (“East Helena Site” or “Site”). The parties are both
citizens of the State of Delaware. This Court has
subject matter jurisdiction based upon the existence of
a federal question, 28 U.S.C. § 1331. Personal
jurisdiction is not contested. Venue is proper in this
Court as the events occurred in East Helena, Montana.
D. Mont. L. R. 1.2(c)(4), 3.2(b).
The Court held a bench trial from May 29, 2018 to
June 7, 2018. Asarco was represented by Kris McLean,
Gregory Evans, and Rachel H. Parkin. Atlantic
Richfield was represented by Randy J. Cox, Kenzo
Kawanabe, and Benjamin B. Strawn. Approximately
160 exhibits were admitted and the subject of
testimony by 12 witnesses, including 3 expert
witnesses.1 Having carefully reviewed the evidence, the
applicable law, and the testimony and arguments of the
parties as presented at trial and in their written
submissions, the Court makes the following findings of
fact and conclusions of law pursuant to Federal Rule of
Civil Procedure 52.

1

The testimony of Asarco witness Antonio Toccafondo was
presented by a perpetuation deposition. The parties hi-lited the
transcript portions of this deposition for the Court’s reading. The
Court read these excerpts after hours outside the presence of
counsel.

App. 42
FINDINGS OF FACT
I.

THE
PARTIES
AND
HISTORICAL
OPERATIONS AT THE EAST HELENA
SITE

1. Plaintiff Asarco is a limited liability company
organized under the laws of the State of Delaware.
2. Asarco is the successor in interest to the
American Smelting and Refining Company. Asarco is
the resulting corporate entity that emerged from the
Chapter 11 bankruptcy reorganization of the American
Smelting and Refining Company in 2009.
3. Asarco and its predecessors owned a lead
smelting facility at the Site, which was in operation
from approximately 1888 until 2001. Asarco brought
various ores, concentrates, and other materials to the
site for smelting, which contained as much as 19%
arsenic (190,000 parts per million or “ppm”). It is
undisputed by Asarco that its lead smelting facility was
the largest operation at the site, and that its operations
caused significant groundwater contamination. Asarco
continued to own and manage the Site until it emerged
from bankruptcy in 2009.
4. Defendant Atlantic Richfield is a Delaware
corporation. Atlantic Richfield is the successor-ininterest to Anaconda, formerly named Anaconda
Copper Mining Company. Atlantic Richfield was also
referred to as ARCO throughout the proceedings in this
case.
5. On March 1, 1927, Asarco and Anaconda entered
into an Option Agreement whereby Anaconda agreed to

App. 43
purchase blast furnace slag produced by Asarco’s lead
smelting operation, which Anaconda intended to
process at the Site for the recovery of zinc fume.
6. On December 20, 1927, Asarco and Anaconda
entered into a Lease Agreement whereby Anaconda
leased a tract of land at the Site for the purposes of
constructing and operating a zinc fuming plant for the
recovery of zinc from the slag it purchased from Asarco.
7. Pursuant to these two Agreements, Anaconda
constructed and operated a zinc fuming plant on land
leased from Asarco at the site for 45 years, from 1927
to 1972. Anaconda’s zinc fuming operation was directly
adjacent to Asarco’s lead smelting operation.
8. Anaconda had two sources of slag at the site. One
source was molten slag which Anaconda conveyed from
Asarco’s lead smelter to its zinc fuming facility. The
second source was hardened, cold slag stockpiled on the
Site which Anaconda mined and transported to its zinc
fuming facility. Both sources of slag were then fumed
by Anaconda in its facility for the purposes of recovery
and sale of zinc. Anaconda placed this molten and cold
slag into its zinc fuming blast furnace, which heated
the slag to approximately 2,000 degrees Fahrenheit,
resulting in zinc fume. The molten and mined cold slag
which was transported, purchased and utilized by
Anaconda contained arsenic.
9. Anaconda used coal to fuel the blast furnace. Coal
contains 0.0006% (6 ppm) arsenic. The coal was
delivered to the facility by railcar. The coal arrived in
relatively small pieces and first needed to be dried
before it was used in the furnace. This process was

App. 44
accomplished through the use of a coal or kiln dryer.
The kiln dryer utilized a horizontal turning heater that
served to drive off the moisture in the coal. The dried
coal was then passed from the kiln dryer to a
pulverizer, which involved a milling process that
reduced the coal into fine pieces so that it could be
conveyed by high pressure air to the blast furnace.
10. As a protective measure, the blast furnace was
completely surrounded with water jackets. Cooling
water was pumped through the water jackets under
pressure to route the water around the furnace. In the
furnace, coal and air were injected into the molten slag
material, and as that oxygen made contact with the
zinc, it created zinc oxide dust, which was then
conveyed through a series of cooling flues into a large
building referred to as the bag house.
11. Once in the bag house, the zinc oxide dust was
collected on a row of large woolen bags. The remaining
air and particulates which were not collected on the
woolen bags were then released through vents in the
bag house into the atmosphere outside the bag house.
The woolen bags would be shaken to dislodge the
material into a series of augers, which would then
convey the white zinc oxide material to a series of other
augers and eventually into open-top railcars, and later
to close-top railcars.
12. Anaconda’s zinc fuming plant operated 24 hours
a day, 7 days a week, 355 days per year.
13. Anaconda sold the zinc fuming operation to
Asarco in 1972. Asarco then operated the zinc fuming

App. 45
plant for 10 more years, until 1982, at which time it
ceased operations.
14. Two other entities operated at the Site.
American Chemet Corporation (“ACC”), at various
points in time, conducted operations at the Site,
including a zinc oxide plant and a zinc fuming process,
and produced a number of products, including roasted
zinc dross, talc and copper oxides. Burlington Northern
Santa Fe (“BNSF”) operated railway lines on and near
the Site. BNSF and its predecessors transported ores
and other feed materials from mines and other
facilities to Asarco’s lead smelter beginning in 1888.
II.

THE SITE AND CLEANUP EFFORT

15. The Site is located in Lewis and Clark County in
the State of Montana. The Site is south of the City of
East Helena, and separated by US Highway 12. The
majority of the Site is at a higher elevation than the
City of East Helena. Prickly Pear Creek is a naturally
occurring stream that originates at a higher elevation
south of the Site, and travels in a northerly direction
along the eastern and northern boundaries of the Site,
under US Highway 12, through a portion of the City of
East Helena, and ultimately into Lake Helena.
16. In 1984, EPA added the Site to the National
Priorities List of sites under CERCLA that require
environmental remediation pursuant to federal law.
17. The groundwater underneath the Site is
contaminated with arsenic and selenium. Arsenic is the
primary contaminant of concern. Although passing
mention of selenium was made during the course of the
trial, neither party offered any testimony, expert or

App. 46
otherwise, or evidence regarding the presence or
absence of selenium in the groundwater, the source or
sources of any selenium contamination, what costs are
associated with the selenium contamination, or who
should bear responsibility for any such costs. Thus, the
focus of this order is the same as the focus at trial,
arsenic contamination in the groundwater.
18. Atlantic Richfield does not dispute that
Anaconda’s operations may have caused some
contamination at the site, but it does dispute that
Anaconda’s operations are the source of the arsenic
found in the polluted groundwater under the Site that
is the subject of the cleanup. In fact, as will be
explained later in these findings of fact, Anaconda and
its successor, Atlantic Richfield, have historically been
consistent and steadfast in denying any contribution of
arsenic to the groundwater from its operations at the
Site. In contrast, Asarco has never denied that its
operations at the Site contributed to the presence of
arsenic in the groundwater, which is evidenced by the
forthcoming approach it has taken with the State of
Montana and the Environmental Protection Agency
during the cleanup process. Thus, based on these
diametrically opposed positions, it is no surprise that
the focus of the cleanup effort has been on the Site
activities of Asarco, and not Anaconda/Atlantic
Richfield.
19. Asarco’s acceptance of responsibility at the Site
was manifested through three CERCLA consent
decrees and one Resource Conservation and Recovery
Act (“RCRA”) consent decree, which are described in
more detail below.

App. 47
A. The 1990 CERCLA Consent Decree
20. In 1990, the district court approved and entered
a Settlement and Consent Decree between Asarco and
EPA regarding the Site, which resolved claims EPA
brought against Asarco under CERCLA § 106 and
§ 107. The 1990 CERCLA Consent Decree concerned
only specific Site features, which were the process
water ponds and process water management systems,
some of which were associated with only Asarco’s
operations, and some of which were associated with the
operations of both Asarco and Anaconda (collectively,
the “Process Ponds”).
21. Specifically, Asarco was required to implement
certain remedial measures selected in the Record of
Decision (“ROD”) for the Process Ponds, which EPA
had issued on November 22, 1989.
22. The 1990 CERCLA Consent Decree covered four
Process Ponds: (1) Lower Lake; (2) the speiss
granulating pond and pit; (3) the acid plant water
treatment facility; and (4) former Thornock Pond or
Lake, and the associated process water management
systems. The operations of both Asarco and Anaconda
delivered wastewater to Thornock Pond or Lake and
Lower Lake. The speiss granulating pond and pit and
the acid plant water treatment facility were used solely
by Asarco.
23. Asarco was required to carry out the remedial
measures selected by EPA for the Process Ponds, in
accordance with the 1990 CERCLA Consent Decree
and Process Ponds ROD.

App. 48
24. Asarco completed substantially all of the
cleanup activities required under the 1990 CERCLA
Consent Decree by 1997.
B. The 1998 RCRA Consent Decree
25. Prior to 1998, Asarco and EPA engaged in
negotiations to resolve operational compliance issues at
Asarco facilities nationwide in a cooperative manner,
including at Asarco’s facilities in East Helena.
26. In 1998, Asarco and EPA entered into another
Settlement and Consent Decree relating to Asarco’s
facilities in East Helena (the “RCRA Decree”), which
resolved claims EPA brought against Asarco under
RCRA and the Clean Water Act, but did not include the
settlement of any claims under CERCLA.
27. Under the RCRA Decree, jurisdiction over the
cleanup at Asarco’s facilities was transferred from
EPA’s CERCLA program to its RCRA program.
28. The only portion of the cleanup that was not
transferred from the CERCLA program to the RCRA
program was the cleanup of certain off-Site
contaminated residential soils (e.g., yards, roads,
parks) and other undeveloped lands in the City of East
Helena, which were referred to as Operable Unit 2
(“OU2”).
C. Asarco’s Bankruptcy and the February
and June 2009 CERCLA Consent
Decrees
29. On August 9, 2005, Asarco filed a bankruptcy
petition under Chapter 11 of the United States

App. 49
Bankruptcy Code in the Bankruptcy Court for the
Southern District of Texas (the “bankruptcy court”).
30. In the bankruptcy, numerous governmental
entities filed proofs of claim regarding Asarco’s
outstanding environmental liabilities, including the
United States and State of Montana Department of
Environmental Quality, alleging joint and several
liability under CERCLA (“proofs of claim”). The proofs
of claim made various allegations and provided
placeholder claim demands, which were later
supplemented by expert reports. The allegations were
not restricted solely to Asarco owned properties, and
included claims for contamination to off-Site properties
not owned by Asarco.
31. In its initial proof of claim, the United States
made a claim against Asarco for “response costs and
costs of assessment of injuries to natural resources
under the Comprehensive Environmental Response,
Compensation, and Liability Act (‘CERCLA’), 42.
U.S.C. §§ 9601-9675, incurred by the United States . . .”
at sites including the East Helena Superfund Site.
32. The United States filed its Supplemental Proof
of Claim against Asarco for “response costs incurred
and to be incurred by the United States under
the Comprehensive Environmental Response,
Compensation and Liability Act (“CERCLA”), 42 U.S.C.
§§ 9601-9675 at various sites,” including the East
Helena Superfund Site.
33. The State of Montana Department of
Environmental Quality filed a Proof of Claim alleging
that “Asarco is liable under CERCLA . . . for all

App. 50
remediation expense” with respect to the East Helena
Superfund Site. Furthermore, the Department claimed
future remediation expense, including “a protective
contingent claim” “[t]o the extent Debtor does not
undertake remedial action as required under CERCLA
or RCRA and as directed by the United States, the
Department cost match would be an estimated
$14,300,000 in future remediation, operation, and
maintenance expense. Pursuant to CERCLA, the
Department would be entitled to recover $14,300,000
from Debtor.”
34. In addition to the United States’ claim and the
Montana Department of Environmental Quality’s claim
for the East Helena Site, the State of Montana also
submitted a Proof of Claim against Asarco in the
bankruptcy proceedings for CERCLA Natural Resource
Damages for an estimated $20 million.
35. Asarco understood that these Proofs of Claim
were CERCLA claims asserted “for future response
costs and injuries to natural resources going forward
. . . response costs for groundwater contamination.”
Asarco further understood that because the
governmental claims were CERCLA claims, that
“Asarco could be held responsible for all of the cleanup
costs, 100 percent, regardless of if there were other
PRPs on the site.”2
36. In support of the various claims, the State of
Montana submitted the expert reports of William H.
Bucher, P.E., and Ann Maest, Ph.D., which established

2

PRP is the acronym for potentially responsible party.

App. 51
that a $99 million pump-and-treat system was
necessary to remediate the off-site groundwater plume
underlying the City of East Helena.
37. Ann Maest, Ph.D., a geologist and geochemist,
served as an expert witness on behalf of the State of
Montana during approval proceedings related to the
CERCLA Decree and attested that since 2000, the
focus of the cleanup has been on restoration of
groundwater, with arsenic being the primary
contaminant.
38. On February 6, 2009, a Settlement and Consent
Decree between Asarco, the United States, and the
State of Montana was entered by the bankruptcy court
which resolved Asarco’s liabilities under CERCLA with
respect to OU2 (the off-Site residential soils and
undeveloped lands), but did not address contaminated
groundwater. Pursuant to this February 2009 CERCLA
Consent Decree, Asarco was required to pay
$13,209,783 to fund the remaining cleanup of OU2.
Again, this Decree covered only OU2, and expressly
stated it did not apply to any other aspect of the East
Helena Site, including groundwater.
39. Asarco, the United States, and the State of
Montana reached a second Settlement and Consent
Decree (the “June 2009 CERCLA Consent Decree”)
which resolved all of Asarco’s outstanding
environmental liabilities at several sites in Montana,
including the remaining liabilities under CERCLA at
the East Helena Site.
40. The June 2009 CERCLA Consent Decree
recognizes the previously entered February 2009

App. 52
CERCLA Decree, which it refers to as the “Separately
Settled East Helena Matters.” The June 2009 CERCLA
Consent Decree does not incorporate or cover the work
required under the February 2009 CERCLA Decree.
41. Asarco’s Director of Environmental Services,
Donald Robbins, submitted a declaration in support of
Asarco’s motion in the bankruptcy proceedings for an
order approving the June 2009 CERCLA Consent
Decree, and stated in his declaration that the two
major variable factors remaining at East Helena were
“the size of the groundwater plume; and the scope of
the remedy.”
42. Notice of this CERCLA Decree was published in
the Federal Register, and the EPA received public
comments.
43. On June 5, 2009, the CERCLA Consent Decree
and Settlement between Asarco, the United States, and
the State of Montana was entered by the bankruptcy
court. The June 2009 CERCLA Consent Decree
resolved all Asarco’s outstanding environmental
liabilities at several sites in Montana, which
collectively were referred to as the “Montana
Designated Properties.” The Montana Designated
Properties included the East Helena Site.
44. The June 2009 CERCLA Consent Decree
established a Custodial Trust for the Montana
Designated Properties. The Custodial Trust was to be
established on the effective date of Asarco’s Plan of
Reorganization, as approved by the bankruptcy court.
45. The Montana Environmental Trust Group
(“METG”) was appointed as the Custodial Trustee for

App. 53
the East Helena Site to administer the Custodial Trust
and Custodial Trust Accounts.
46. Asarco was required to “transfer all of their
right, interest in, and title to” the Montana Designated
Properties to the Custodial Trust.
47. The June 2009 CERCLA Decree established
separate “Custodial Trust Cleanup Accounts” for each
of the Montana Designated Properties. The purpose of
the Cleanup Accounts was to provide funding for future
“Environmental Actions” with respect to each Montana
Designated Property.
48. “Environmental Actions” is defined as “all
environmental activities related to the Montana
Designated Properties, including but not limited to
response or remedial actions, removal actions,
corrective action, closure, or post-closure care, natural
resource restoration, reclamation, investigations,
studies, remediation, interim actions, final actions,
emergency actions, water treatment, implementation
of engineered structures and controls, obtaining and
maintaining reasonable financial assurance,
monitoring, repair and replacement of engineered
structures, monitoring equipment and controls,
operation and maintenance, and implementation,
operation and maintenance of institutional controls,
coordination and integration of reuse and remedial
efforts and initiatives (including, without limitation,
multi-stakeholder communications), and, if
appropriate, long-term stewardship and perpetual
custodial care activities . . .” in addition to “. . . any and
all environmental activities related to the Designated
Properties...and activities related to releases of

App. 54
hazardous substances, hazardous waste, or hazardous
constituents from any portion of the Montana
Designated Properties, including all areas affected by
natural migration of such hazardous substances,
hazardous waste, or hazardous constituents from the
Montana Designated Properties.”
49. The June 2009 CERCLA Consent Decree
designated EPA as the “Lead Agency” for the East
Helena Site in charge of selecting, approving, and
authorizing all work performed and funds expended
from the Custodial Trust Cleanup Account for the East
Helena Site by METG.
50. Under the June 2009 CERCLA Consent Decree,
Asarco was required to pay a total of $138,300,000 to
fund all of the Custodial Trust Cleanup Accounts for
the Montana Designated Properties.
51. Asarco paid approximately $111.4 million to
address environmental impacts caused by all parties,
including Anaconda, at the East Helena Site. This
includes the following payments:
a. $99.294 million into the East Helena
Custodial Trust Cleanup Account for a
groundwater remedy to clean up the off-site
groundwater at the East Helena Site, which
was based upon the estimates for a pump
and treat remedy advanced by the State of
Montana’s experts, William H. Bucher, P.E.,
and Ann Maest, Ph.D.
b. $8.9 million to “establish the Custodial Trust
and to fund the Custodial Administrative
Account for the purposes of administration of

App. 55
the Custodial Trust,” of which the
proportionate share for the East Helena Site
would be $6,403,743.
c. $706,000 to fund United States Department
of the Interior natural resource restoration
and future oversight costs for the East
Helena Site.
d. $5 million to the State of Montana for the
East Helena Site in compensatory natural
resource damages (“NRD”).
52. Pursuant to the June 2009 CERCLA Consent
Decree, Asarco received contribution protection and a
covenant not to sue under CERCLA. Thus, Asarco’s
“outstanding obligations” were “fully resolved” under
CERCLA.
53. In the June 2009 CERCLA Consent Decree,
Asarco expressly reserved all claims past or future
against third parties “for any matter arising at or
relating in any manner to the Montana Sites and/or
claims addressed herein.”
54. Asarco’s Seventh Amended Plan of
Reorganization reserved Asarco’s rights and interests
in CERCLA contribution actions not discharged or
settled in bankruptcy.
55. On December 9, 2009, Asarco’s Seventh
Amended Plan of Reorganization became effective,
enabling disbursal of funds for environmental
settlements, including funds for the East Helena
settlements.

App. 56
56. Notwithstanding the fact that the initial proofs
of claim exceeded the amount paid by Asarco, Asarco
nevertheless fully funded the agreed upon settlement
amount in the June 2009 CERCLA Consent Decree at
one hundred cents on the dollar.
57. Asarco paid $1.8 billion to settle all allowed
environmental claims related to hazardous waste in the
bankruptcy proceedings.
58. Atlantic Richfield did not contribute to Asarco’s
settlement with the United States and the State of
Montana regarding the East Helena Site, and has paid
nothing to clean-up the East Helena Site despite
Anaconda’s operation of the zinc fuming facility for 45
years.
59. Asarco admitted that BNSF shared some
responsibility for its contamination at the Site. In the
bankruptcy proceeding, Asarco listed BNSF as a PRP
that Asarco could sue after bankruptcy. There was no
evidence presented at trial regarding the contribution
that BNSF’s operations made, if any, to the arsenic in
the groundwater at the Site. Regardless, in 2011,
Asarco conclusively resolved any contribution from
BNSF at the East Helena Site in a multi-site
settlement agreement, in which BNSF paid Asarco a
total of $675,000 as follows: $625,000 for
environmental costs associated with the Tri States
Lawsuit and $50,000 for all other claims and
environmental costs, at over 40 sites including East
Helena. In exchange for this consideration, Asarco

App. 57
released BNSF from contribution liability for numerous
sites, including East Helena.3
D. The Montana Environmental Trust
Group and East Helena Site Remedial
Work
60. METG administers and uses the trust account
to fund environmental actions at the Site. Asarco made
the payments described above in December, 2009, and
METG assumed responsibility for the remediation
work at the Site, under the direction of the EPA as the
Lead Agency, in consultation with the State of
Montana.
61. On January 17, 2012, the district court issued
the 2012 First Modification to Consent Decree (“2012
Modification”), which, among other things, amended
the 1998 RCRA Consent Decree to substitute METG for
Asarco.
62. The 2012 Modification deleted certain
requirements that Asarco was initially required to
perform under the 1998 RCRA Consent Decree,
including a supplemental environmental project and
stipulated penalties. METG is no longer required to
perform such obligations under the 1998 RCRA
Consent Decree, as carried forward by the 2012
Modification.

3

American Chemet Corporation was named as a Defendant in this
recovery action. Asarco subsequently moved to dismiss ACC as a
Defendant on March 27, 2014 (Doc. 127), and the Court ordered
ACC’s dismissal on March 31, 2014. (Doc. 128.) The details of the
settlement between Asarco and ACC are unknown to the Court.

App. 58
63. The 2012 Modification lists the exclusive
purposes of the Custodial Trust–one is “to manage
and/or fund implementation of future investigation and
cleanup activities approved by EPA with respect to the
Asarco Properties and contaminated groundwater.”
64. The 2012 Modification also consolidates all of
Asarco’s remaining obligations at the East Helena Site,
including remediation of the groundwater, under the
1990 CERCLA Consent Decree, the OU2 ROD, and the
MDEQ AOC with the remaining obligations of the 1998
RCRA Consent Decree.4
65. The 2012 Modification provides that “[b]ased
upon new information and/or changed circumstances,
EPA may determine or the Trustee of the Custodial
Trust may propose that certain tasks, including
investigatory work, engineering evaluations, or
procedure/methodology modifications, are necessary in
addition to or in lieu of the tasks included in any EPAapproved work plan.”5
66. Under the 2012 Modification, METG is not
limited to only doing work at the Site under the preexisting Consent Decrees, and has a number of duties
at the East Helena Site, including:
“. . . own the ASARCO Properties, carry out
administrative and property management functions
related to them, manage and invest funds

4

ROD is the acronym for Record of Decision, and AOC is the
acronym for Administrative Order of Consent.
5

Ex. 25 at 25-0033 (¶¶ 50-54).

App. 59
transferred by ASARCO to the Trustee of the
Custodial Trust under the Plan of Reorganization,
manage and/or fund implementation of future
investigation and cleanup activities approved by
EPA with respect to the ASARCO Properties and
contaminated groundwater, and ultimately to sell,
transfer or otherwise dispose and/or provide for the
long-term stewardship of all or part of the ASARCO
Properties, if possible, and engage in activities
related thereto consistent with the fiduciary
obligations of the Trustee of the Custodial Trust all
for the benefit of the Governments;”6
67. Since 2009, METG has used a portion of the
$99.294 million Asarco paid into the trust to fund a
series of environmental actions intended to address
and remediate contaminated water at the Site. METG’s
Site activities are the focus of any potential allocation
responsibility because it is the work being funded by
Asarco. Asarco does not seek reimbursement for any
remediation work it performed at the Site performed
prior to July 2009.
68. METG’s environmental actions to date consist of
three projects referred to as interim measures (“IMs”).
The general purpose of the IMs in this case “is to
prevent and minimize the spread of hazardous waste
and hazardous constituents while long term corrective
measures were being evaluated.”7 EPA approved

6

Ex. 25 at 25-0012 (Recitals).

7

Ex. 976-0037.

App. 60
METG’s planned IMs in 2012 and, since that time, all
three IMs have been fully implemented.
69. The three IMs are summarized as follows:
a. The first IM, referred to as the South Plant
Hydraulic Control IM, was implemented to
reduce migration of inorganic contaminants
in groundwater by changing the
hydrogeologic conditions at the southern end
of the Site, including lowering the
groundwater table, which also reduced the
velocity at which groundwater moves under
and away from the site. This IM has included
dewatering of Upper and Lower Lakes,
realignment of Prickly Pear Creek by moving
it eastward, removal of the Wilson Ditch
Diversion Dam and the Smelter Dam to
eliminate water impoundment, and removal
of reservoir sediments.
b. The second IM, referred to as the Source
Removal IM, was implemented to reduce the
mass loading of contaminants to
groundwater by reducing the volume of soil
with high concentrations of inorganic
contaminants that were subject to
infiltration or flow-through leaching to
groundwater. This was accomplished by
excavating the most highly contaminated
soils at the Site to prevent those soils from
serving as an ongoing source of arsenic
contamination to groundwater. This IM also
removed sediments from Lower Lake and
from the Upper Lake marsh area.

App. 61
c. The third IM, referred to as the ET Cover
System IM, involved the construction by
METG of a new cover of soil and vegetation
over the majority of the Site with the
exception of the slag pile and the former
Upper and Lower Lake areas, and was
implemented to further reduce the potential
for inorganic soil contaminants to leach to
groundwater by eliminating or reducing the
amount of infiltration through contaminated
materials. This IM provides for a clean
surface for runoff, and is designed to
eliminate human and wildlife exposure to
potentially contaminated soils, and prevent
windblown or storm water induced migration
of potentially contaminated soils. The ET
Cover System encompasses a 57 acre area of
the facility, which includes the area where
Anaconda’s zinc fuming plant and its process
water circuits were located.
70. While remediation work has been done under
the 1998 RCRA Consent Decree and the 2012
Modification, the work is supervised by EPA and has
been done consistent with and pursuant to CERCLA
standards, and as such the work is in substantial
compliance with the National Contingency Plan.
71. In addition to the three completed IMs described
above, METG proposes, as future remediation work, to
cap the portion of the slag pile at the Site that consists
of unfumed slag, which is slag that was not processed
a second time for metals recovery in Anaconda’s zinc

App. 62
fuming process, due to the potential for the unfumed
slag to leach arsenic to groundwater.
72. METG, working with local authorities, has
established a set of institutional controls for the Site
and surrounding areas. These institutional controls
will not reduce the arsenic in the groundwater, but
instead are intended to prevent property owners from
using their domestic water wells in an effort to prevent
contact with contaminated groundwater.
73. The EPA has determined that the remedial work
done to address source areas contributing to ground
water contamination “are expected to be protective of
human health and the environment upon completion”
and that “[i]n the interim, remedial activities
completed to date have adequately addressed all
exposure pathways that could result in unacceptable
risk . . . .”
74. Though METG’s remedial efforts have been
focused on groundwater cleanup, that work has not
been completed yet, and METG’s own consultant has
noted that the offsite arsenic plume will not achieve
MCLs (maximum contaminant levels) or achieve
drinking water standards within the next thirty years,
a fact confirmed by both Asarco’s and Atlantic
Richfield’s experts.
75. Based on the most recent accounting as of
September 30, 2017, METG has spent approximately
half of the trust funds, leaving METG with
approximately $50 million for remaining cleanup and

App. 63
groundwater remediation.8 METG has recommended
that the final remedies at the Site consist of the three
IMs, a speiss-dross slurry wall built by Asarco, the
cover for the unfumed portion of the slag pile, and the
previously described institutional controls. Atlantic
Richfield’s expert, Brian Hansen (“Hansen”) has
estimated that the ongoing costs for operations and
maintenance is $9.2 million, and METG has estimated
the cost of covering the unfumed slag at $3.7 million.
Thus, expert Hansen estimates that the final costs
subject to the CERCLA claim total $61,447,991. Expert
Hansen also predicts, without any basis, that EPA is
likely to adopt and approve METG’s proposed final
remedies.9
76. Atlantic Richfield contends that METG has
ruled out a pump-and-treat remedy, as not being cost
effective. METG also contends that a pump-and-treat
system would be technically ineffective and could affect
the stability of the arsenic-contaminated groundwater
plume, which extends from the Site in a northwesterly
direction into the City of East Helena.
77. Asarco’s expert, Margaret W. Staub (“Staub”),
disagrees with expert Hansen. Her disagreement is
based on the simple fact that the three IMs employed

8

9

Ex. 922.

Expert Hansen relies on a 2-page EPA Fact Sheet (Ex. 925) in
support of his opinion that EPA approval will be forthcoming. This
Fact Sheet is nothing more than a cursory summary of METG’s
efforts to date, and concludes with the statement: “Groundwater
remedy performance will be monitored for many years.” The Fact
Sheet is silent on the issue of EPA approval.

App. 64
by METG, in combination with the final remedies
described in paragraph 71 and 72 above, will not
address the elevated levels of arsenic and selenium
that exist in the groundwater plume that is migrating
under the City of East Helena, and will not restore this
groundwater to background levels or achieve MCLs and
drinking water standards within the next thirty years
as described in paragraph 74 above. Thus, expert Staub
reasons that the recommendation made years ago by
State of Montana experts Maest and Bucher (see
paragraph 51.a. above) that a pump-and-treat system
would be necessary to address arsenic and selenium
contamination in the off-site groundwater, will be the
most likely final remedial outcome.
78. Staub’s opinion is bolstered by the fact that this
was the remedy contemplated at the time of the
bankruptcy settlement and associated consent decrees,
and contemplated by the 2012 Modification, which
authorizes the EPA to modify and enlarge the Site
remediation work being performed by METG (see
paragraph 65 above). The Court adopts Staub’s
reasoning and concludes that unless and until the
groundwater is restored to achieve MCLs and drinking
water standards, something more substantial will need
to be done. Whether there remains sufficient funds in
the trust to accomplish this task, and whether a pump
and treat system is the ultimate solution, are not the
controlling questions. Regardless of the answer to those
two questions, and notwithstanding Atlantic Richfield’s
arguments to the contrary, the Court is convinced that
the balance of the approximate $50 million in the trust
will most likely be expended to achieve the mandated
remediation results.

App. 65
79. The Court now turns to an analysis of the
relative contributions of arsenic to the groundwater
caused by the respective operations of Asarco and
Anaconda which are the subject of the clean-up costs
incurred by Asarco pursuant to the June 2009
CERCLA Consent Decree.10
III.

ASARCO’S CONTRIBUTION OF ARSENIC
TO THE GROUNDWATER

80. Asarco concedes, and it was uncontroverted at
trial, that the majority of the groundwater
contamination METG is remediating at the Site was
caused by Asarco’s operations. Notwithstanding this
concession by Asarco, Atlantic Richfield’s case in chief

10

It is important to recognize that until the advent of federal and
state environmental laws in the early 1970s, mining and smelter
operations such as those involved in this case were largely
unregulated with the exception of regulations designed to
generally protect worker safety and address air pollution. In
hindsight, compared to today’s standards, the amount of pollution
generated by these types of facilities is difficult to fathom.
Pollutants were discharged to the air, groundwater, and naturally
occurring rivers, streams and lakes with little regard for the longterm consequences. The Court makes this observation to provide
context for the sparse historical record that exists in this case,
which does not include, prior to the 1970s and 1980s, very much in
the way of detailed information that would allow a fact finder to
determine the precise nature and amount of pollutants that were
released to the environment by Asarco’s and Anaconda’s
operations. Nevertheless, the Court is satisfied that discovery in
this case has revealed enough information to understand the
history of the operations of Asarco and Anaconda at the Site. And,
of greater importance, since the 1980s the Site has been the
subject of extensive environmental study and analysis, allowing us
to understand how these operations impacted the groundwater.

App. 66
was largely dedicated to proving the nature and extent
of Asarco’s pollution, and in the process, minimizing
Anaconda’s contribution of pollution.
81. Asarco’s lead smelter operation at the Site
recovered lead and other metals by smelting a variety
of foreign and domestic concentrates, ores, fluxes and
other non-ferrous, metal-bearing materials and
byproducts, referred to as feed stocks or feed materials.
Although Asarco’s smelting operation changed over
time, the components of its operation included: (a) raw
materials storage and handling; (b) a sintering plant;
(c) an acid plant; (d) a blast furnace; (e) a dross plant;
(f) a speiss handling area; and (g) a slag dump. In
addition, Asarco’s lead smelter operation utilized large
quantities of water, which were circulated through the
component operations utilizing several surface water
features, such as pits, ponds and ditches, and
underground water pipeline circuits.
82. In the early years of its operations, Asarco
smelted arsenic-bearing ores using an open roasting
process. These operations produced arsenic
contamination in various locations at the Site.
83. The smelter feed stocks were delivered to the
Site via railcar or truck. For a period of time, these feed
stocks were stored in two primary locations: the Upper
Ore Storage Area and the Lower Ore Storage Area. The
ores Asarco smelted contained as much as 19%
(190,000 ppm) arsenic. These materials were stored in
uncovered piles on concrete slabs or on the bare
ground, and were exposed to the elements, which
includes wind, rain and snow. Asarco also regularly

App. 67
performed high pressure washdowns throughout its
facilities, utilizing contaminated process waters.
84. Later, Asarco modified its process by building
furnaces. The first steps in Asarco’s handling process
involved sampling, crushing, blending, mixing, and
proportioning crude ore materials to prepare them for
the smelting process. Some of these materials were
then sent directly to the blast furnace for smelting, but
the majority of the feed materials were sent to the
sintering plant, where the materials were pulverized
and roasted on grates. This process reduced the sulfur
content in the materials, creating a product known as
sinter. The sinter, like the feed materials themselves,
contained arsenic. The gas and dust produced in the
sintering plant was either captured in a series of
hooding systems and vented to the atmosphere, or, in
more recent times, sent to Asarco’s acid plant. The
gases were converted to sulfuric acid, a marketable
product, which was captured, stored in tanks and
eventually shipped offsite. This process generated an
arsenic-bearing sludge that was dried on a pad located
near Lower Lake. The acid plant was a source of
groundwater contamination.
85. After the sinter was conveyed to the blast
furnace, it was mixed with coke–a form of coal used for
fuel–as well as other materials, such as scrap metal.
Asarco charged this mixture to its blast furnace and
heated it to a temperature of approximately 2000
degrees Fahrenheit, which created lead bullion and
slag. The lead bullion was then transferred from the
blast furnace in 5-ton lead pots to the dross plant for
further processing. Some spillage occurred from the 5-

App. 68
ton pots. This spilled material contained arsenic,
selenium, lead, and other constituents. At the dross
plant, the molten lead was cooled, which caused a
copper-bearing material known as dross to float to the
surface. Asarco then cooked the dross in a
reverberatory furnace to form copper-bearing materials
known as matte and speiss. The speiss contained as
much as 17% arsenic (170,000 ppm).
86. The lead smelting operation generated large
volumes of waste slag, which was deposited at the slag
dump located on the east-northeast portion of the Site.
As previously indicated, from 1927 until 1982, some of
the slag was processed at Anaconda’s, and later
Asarco’s, zinc fuming plant located at the Site.
87. Managing arsenic was a constant problem for
Asarco. There was an imbalance of arsenic at the site,
that is, because of the processes employed by Asarco,
there was more arsenic coming in to the Site than was
going out.
88. Asarco used large amounts of process waters
and four main process water ponds in its lead smelting
operations: (1) Lower Lake; (2) the speiss granulating
pond and pit; (3) the acid plant water treatment
facility; and (4) Thornock Pond or Lake. The process
ponds were connected to the lead smelting operations
by an underground piping network known as the
process water circuit.
89. The speiss granulating pond and pit are
considered to be the most significant source of arsenic
contamination to the groundwater at the Site because

App. 69
they were connected to Asarco’s process waters circuit
and to Lower Lake.
90. Lower Lake was a man-made process water
pond fed by Prickly Pear Creek. It was unlined, and
approximately 7 acres in surface area, and 11 million
gallons in volume.11
91. The acid plant water treatment facility was used
to settle particulates from the acid plant scrubber
blowdown water, which was recirculated to the
scrubbers or to the sinter plant. The components of the
acid plant treatment facility were a trough, settling
dumpsters and a concrete lined settling pond. The
settling pond was 68 feet long by 35 feet wide and 9
feet deep. Arsenic-bearing fluids migrated to the
groundwater as a result of this treatment process.
92. Thornock Lake was constructed by Asarco in
1971 as a collection and settling pond for lead smelter
process waters and storm water runoff. Thornock Lake
was originally about 70 feet long by 40 feet wide and 8
feet deep, with a capacity of approximately 100,000
gallons. In October 1986, Asarco replaced Thornock
Lake with a 100,000-gallon, 40-foot diameter steel
holding tank. Before Thornock Lake was constructed,
there was a natural depression in the same location
which was used for the same purposes. This was
referred to as Thornock Pond, or Pond 2.

11

In approximately 1990, Asarco replaced Lower Lake as an active
process pond with two 1-million gallon storage tanks. As part of
the remediation process, Lower Lake was subsequently de-watered
and the sediments in the lake have been removed.

App. 70
93. Asarco’s process water circuit was a system of
primarily underground pipes that conveyed water from
Lower Lake to various portions of Asarco’s smelting
process. Prior to 1975, the process water circuit
discharged directly to Prickly Pear Creek. Beginning in
1975, Asarco began discharging its process water into
Lower Lake. Asarco used the process water to wash
down various portions of its waters and to suppress
dust around the plant, including the slag pile. Plant
washdowns occurred on a daily basis. The process
water circuit also included a system of drains that
collected process waters and runoff from various parts
of Asarco’s operation and conveyed that water back into
the circuit. This process water circuit was old and
leaked, releasing process water into the ground below
the smelter. Based on pressure testing of the main
process water circuit pressure lines conducted in March
1988 and March 1989, the Comprehensive Remedial
Investigation and Feasibility Study for the Site
theoretically estimated that as much as 105,000 to 2.2
million gallons leaked from Asarco’s process water
circuit every year.12
94. The use by Asarco of arsenic-bearing materials
and water resulted in contamination to the
groundwater at the Site, again, a fact that Asarco has
not contested in this case. Expert Hansen estimated
that the concentrations of arsenic found in the soils and
sediments at the most contaminated parts of the site
are as follows:
• Speiss pond/pit - 14% arsenic (140,000 ppm)
12

Ex. 797-0180.

App. 71
• Thornock Lake - 12% arsenic (120,000 ppm)
• Lower Lake - 2.25% arsenic (22,500 ppm)
• Acid Plant - 1.16% arsenic (11,600 ppm)
95. Expert Hansen also estimated that the fluids
involved in Asarco’s use of the process ponds contained
the following concentrations of arsenic:
• Speiss pond/pit - 3,733 mg/L
• Acid plant - 2,867 mg/L
• Lower Lake - 200 mg/L
• Process fluids circuit - 60 mg/L
• Thornock Lake - 40 mg/L
96. There is a clear connection between Asarco’s
operations, which used arsenic-bearing materials and
waters, and the arsenic portions of the groundwater
plume mapped by METG. In fact, the majority of the
arsenic found in the groundwater plume can be
attributed to Asarco’s operations, a fact which Asarco
also does not contest. What is contested in this case is
Anaconda’s contribution of arsenic to the groundwater
plume that has been the subject of METG’s
remediation efforts. As will be developed later in these
findings of fact, Atlantic Richfield has steadfastly
maintained for decades that its zinc fuming operation
did not contribute any arsenic contaminants to the
groundwater at the Site. Thus, it comes as no surprise
to the Court that all of the studies and investigations
performed at this Site since the 1980s focus on Asarco’s
operations. However, as explained in the next section

App. 72
of these findings of fact, Anaconda’s zinc fuming
operation also contributed arsenic to the groundwater
plume.
IV.

ANACONDA’S
CONTRIBUTION
ARSENIC TO THE GROUNDWATER

OF

97. Anaconda operated a zinc fuming plant at the
Site for 45 years, from 1927 to 1972. During this period
of time, Anaconda had at least eleven different
discharge points at the East Helena Site where arsenic
releases occurred: (1) zinc dust from the bag house;
(2) zinc dust left on the ground by the flue; (3) the
unlined burning coal area; (4) the unlined slag pile
pond (Pond 3); (5) washdown waters; (6) unlined
Thornock Pond and Lake (Pond 2); (7) unlined Wilson
Ditch; (8) leaks in the pipe transporting process water
from Lower Lake to the furnace; (9) the unlined return
ditch to Lower Lake; (10) leaks from water jackets in
the furnace; and (11) unlined Lower Lake (Pond 1).
A. Zinc Dust Released From the Anaconda
Bag House
98. As previously explained, after the zinc fume
traveled from the blast furnace through the flues, it
was deposited at Anaconda’s bag house, where the zinc
particulates and dust collected on the outside of a long
row of large woolen bags.
99. The bags were routinely shaken so that the zinc
dust would drop off the bags into augers, and then was
deposited into uncovered railcars for shipment.

App. 73
100. Anaconda’s fume bag house had five
trapezoidal vents on the roof, which discharged zinc
fume containing arsenic to the atmosphere.
101. Anaconda’s bag house did not have a stack.
102. Throughout Anaconda’s tenure, bag house dust
was visible on the ground around the bag house, and
along the railroad tracks where fumed zinc was loaded
into open railcars.
103. In an internal Anaconda memorandum
documenting an OSHA visit and exit interview, dated
March 21, 1972, an Anaconda representative, in
summarizing comments made by an OSHA assistant
regional administrator, noted “[t]he fume loading area
still has a lot of material blowing around there,” and
“[i]t still is fairly dusty in the area [around the bag
house] due to the wind and openings.”13
104. In the same memorandum, referring to
comments made by another individual, an additional
source of dust was identified: “One problem there is the
loading of open rail cars . . .”14
105. In 1971, the Montana Department of Health
specifically noted, “the Anaconda Company baghouse
stacks were all putting out a very persistent particulate
discharge–it was blowing toward the west southwest
and was visible for about 3000 feet.”15
13

Ex. 103 at 103-0002.

14

Ex. 103 at 103-0003.

15

Ex. 425.

App. 74
106. In a letter dated June 1, 1970, the Montana
Health Department issued a notice to Anaconda that
the zinc fuming plant emissions violated health
standards, and threatened enforcement proceedings.
The letter was titled “Re: Dust Emissions from E.
Helena Plant,” and was addressed to Maurice
Villeneuve, Superintendent, Anaconda Slag Treating
Plant.16
107. According to Asarco’s expert, Dr. Andy Davis
(“Davis”), Anaconda’s zinc fume bag house dust had a
high arsenic concentration at 3500 milligrams per
kilogram. Expert Davis further testified that
Anaconda’s zinc fume emissions from the bag house
settled on the surrounding soils, as well as in open
ponds (Lower Lake and Thornock Pond and Lake) and
ditches which were filled with process water (Wilson
Ditch and the unlined return ditch), where it would
percolate into the groundwater and thereby contributed
appreciably to arsenic in the groundwater.
B. Zinc Dust Left on the Ground by the
Flue
108. A 1954 aerial photograph of the zinc fuming
plant shows what appears to be zinc fume which was
deposited on the ground around the flue.17
109. According to the testimony of expert Davis, soil
samples from the METG database show 3300 parts per

16

Ex. 109.

17

Exs. 517 and 520.

App. 75
kilogram of arsenic in the soil in the area where the
white dust is shown.
110. Jon Nickel, who began working at the zinc
fuming plant in 1973, one year after Asarco purchased
the zinc plant from Anaconda, testified to the practice
of removing zinc dust from the flue system with the use
of large hoe.
111. According to both experts Hansen and Davis,
Anaconda’s zinc dust contains 3500 milligrams per
kilogram of arsenic.
112. Expert Davis further testified that the arsenic
in this dust would percolate to the groundwater and
increase the groundwater contamination at the Site.
113. METG’s data shows that dissolved arsenic in
the groundwater was measured at 56 mg/L and 22
mg/L in the area close to the flue, which is as much as
three orders of magnitude above the MCL, or
maximum allowable amount of a contaminant in
drinking water.
C. Unlined Burning Coal Area
114. Anaconda’s zinc fuming furnace required a
heat source of approximately 1800 degrees Fahrenheit.
Coal was the exclusive fuel source for the zinc fuming
furnace. Before the coal was introduced into the
furnace, it was pulverized in a grinding facility in order
to create a particulate size that would ignite in the
furnace and create a heat source sufficient to fume the
zinc out of the slag. Anaconda routinely introduced 10
to 15 tons of pulverized coal and 57 tons of slag into the
furnace during each two-hour furnace cycle, and

App. 76
routinely used 140 tons of coal each day in its
operations. Anaconda estimated that they used 45,000
tons of coal per year, totaling 2.025 million tons of coal
over the 45 years of operations
115. From approximately 1927 until sometime in
the early 1960s, Anaconda’s coal fines that collected at
Thornock Pond were reportedly flushed out with a fire
hose and the discharge was carried by gravity flow
through a pipeline to the base of the slag dump.
116. The coal burning area can be seen in the 1954
aerial photograph at the top left of the slag pile.18
117. In a letter dated July 31, 1958 from the
superintendent of the zinc fuming plant to another
Anaconda employee, a photograph of this area is
provided, with the following written description:
In the coal drying process, extremely fine
particles of coal dust that passes through the
dust collecting system of the dryer are sprayed
with water and collected as a coal-water mixture
which flows to a settling pond outside the dryer
building. About twice each week, this pond is
flushed out with a fire hose and the discharge is
carried by gravity flow though a pipe line to the
base of the slag dump. This picture shows in the
distance the outlet of the pipe and the
accumulation of coal extending from the outlet to
the bottom of a dirt dike in the foreground. This
coal may be 5 to 6 feet deep in places and is
gradually covered by the approaching slag
18

Demonstrative Ex. 520.

App. 77
dump. Coal is burning where the slag has
reached the coal and also in the foreground
along the base of the dirt dike.19
118. As indicated in the previous paragraph, the
coal fines collected at the toe of the slag pile were
combustible, and after catching fire would have
generated coal ash or fly ash.
119. An Anaconda map designated this area as the
“burning coal area.”20
120. Anaconda knew of and acknowledged that
“underneath the top layer of fine ash is burning coal”
and that “this burning coal is a bad problem.”21
121. In addition, in an undated “Emission Inventory
Questionnaire”, prepared by Anaconda for the Montana
State Department of Health, Anaconda noted that it
collected 234 tons of fly ash from their plant per month,
which was “Mixed with slag and disposed on Dump.”22
122. The combustion of the coal fines in this area
generated readily-leachable coal ash in the vicinity of
open settling ponds such as Thornock Pond and Lake
and open ditches like Wilson Ditch and the return ditch
to Lower Lake.

19

Ex. 410 at 410-0003.

20

Ex. 755.

21

Ex. 410 at 410-0001, -0005; see also Ex. 104; Ex. 105 at 105-0002
(¶ 11).
22

Ex. 106 at 106-0009.

App. 78
123. Expert Davis testified that the burning coal
area was a contributing source to the arsenic plume.23
124. The plume map relied on by expert Hansen
shows a light yellow (1 mg/L) plume of arsenic
originating from the burning coal area.24 Expert
Hansen admitted during cross-examination at trial
that fly ash is a federally regulated substance because
of its toxicity.
125. Atlantic Richfield’s designated corporate
representative at trial, Richard Krablin (“Krablin”),
admitted that Anaconda burned coal, creating fly ash
which mobilizes the arsenic in the coal into a gas.
126. Anaconda released so much coal dust and
burning coal on a regular basis that they were asked by
the City Attorney for the City of East Helena to correct
the emissions in a letter dated July 11, 1947. The City
Attorney wrote that at a meeting of the city council,
petitions were presented containing the signatures of
numerous residents of the City of East Helena
“requesting that some action be taken to eliminate and
abate the condition created by coal smoke and dust
issuing from your plant.” He went on to state that “this
dust and smoke settles upon houses and other property
in the city, even penetrating into the interior of
buildings.”25

23

Demonstrative Exs. 516; 488 at 488-0037 and 488-0043; 488037-A.
24

Demonstrative Ex. 895 at 895-0020.

25

Ex. 435.

App. 79
D. Unlined Slag Pile Pond (Pond 3)
127. In the mid-1960s, Anaconda re-routed the coal
fines it had previously been dumping into an unlined
pond area, and began pumping the fines from the coal
house to the top of the slag pile, which they called Pond
3, as depicted in a schematic sketch admitted and
referenced at trial.26
128. This re-routed coal dust slurry was pumped to
Pond 3, located at the top of the slag pile.
129. Anaconda employee A.B. Kane, who was the
zinc fuming plant superintendent, wrote in a
Memorandum dated August 12, 1962 that “[f]or the last
12 days we have successfully pumped the coal dust
slurry to the top of the slag dump where it disappears
into the slag. We have had to move the end of the pipe
once during this time, when the voids in the slag dump
filled up with coal.”27
130. Anaconda continued pumping this effluent to
Pond 3 until it sold the fuming plant in 1972.
131. Expert Davis testified that this documented
discharge of coal slurry and fly ash to the slag pile
impacted groundwater with arsenic and other metals.
E. Washdowns
132. Anaconda introduced approximately 50 tons of
molten slag into its blast furnace per cycle, and added

26

27

Ex. 82.
Ex. 243.

App. 80
cold slag to bring each furnace charge to approximately
57 tons. A furnace cycle was completed approximately
every two hours, and visible effluent was released into
the atmosphere during the hot slag charging cycle.
Because the hot metals and slag accumulated in the
ladles and furnace, they would have to be removed
through regular tapping cycles. The furnace was
tapped approximately ten times per day.
133. During the process of introducing the slag into
the furnace, and especially during tapping cycles,
emissions and slag debris were deposited throughout
the furnace house. Anaconda did not employ a hood or
retention system.
134. So much effluent was released from the
tapping and charging of the furnace, that the Montana
Department of Health issued a Notice of Violation and
ordered Anaconda to take corrective action to reduce
air emission contaminants.28
135. Anaconda routinely pressure-washed the
furnace building, including the walls, floors, furnace,
and cooling flues, to remove the dust and debris that
resulted from the tapping and charging of the furnace.
136. This washdown process occurred at least three
times per day. No attempt was made to capture this
washdown water. Anaconda simply washed the dust
and debris out the furnace door where it was deposited
into the soils and leached into the groundwater.

28

Ex. 111 to the Deposition of Antonio Toccafondo.

App. 81
137. According to expert Davis, these washdown
waste waters contained very high levels of arsenic, and
would have migrated to Thornock Pond (Pond 2)
because it was near the furnace and the lowest
topographical point on the zinc plant property. This
latter point was confirmed by Atlantic Richfield’s
designated representative, Richard Krablin.
138. Expert Davis testified that Anaconda’s
uncontrolled and daily releases of washdown water
from the furnace contributed appreciably to arsenic in
the groundwater at East Helena.
F. Thornock Pond and Lake (Pond 2)
139. It was uncontroverted that the area
surrounding and including unlined Thornock Pond is a
topographic low, so runoff water from washdowns
emanating from the zinc fuming plant would settle in
this area.
140. As previously stated, washdown waters were
not controlled in any way.
141. Expert Davis testified that washdown water
containing coal dust, fume dust and/or slag from the
furnace with readily leachable arsenic and other metals
migrated to and settled in Thornock Pond (Pond 2).
142. Expert Davis also testified that Thornock Pond
received and stored water from the Anaconda
circulating cooling system, and coal slurry from the
coal pulverizer, and similar to the washdown water, the
arsenic in the zinc plant’s cooling water percolated to
and contaminated area groundwater.

App. 82
143. Anaconda pumped coal dust slurry from the
coal dryer building to Thornock Pond, further
contaminating Thornock Pond.
144. It is the opinion of expert Davis that Anaconda
discharged significant amounts of coal dust slimes and
coal slurry as well as contaminated process waters
containing arsenic and selenium into the unlined
Thornock Pond (Pond 2), and that these releases are a
major contributing source to the arsenic groundwater
plumes at the Site.
145. As previously indicated, Thornock Pond has
been identified as a key contributor to the arsenic
groundwater contamination at the Site.
G. Wilson Ditch
146. Wilson Ditch was initially used to transport
cooling water from Thornock Pond to Prickly Pear
Creek, and was a natural gravity drainage creek.
147. Arsenic-laden process waters would drain from
Thornock Pond into a flue that connected to a natural
ditch identified on the 1930 Sanborn maps as Wilson
Ditch.29 According to the same maps, Wilson Ditch then
drained to Prickly Pear Creek.30
148. An Anaconda plant sketch, believed to be dated
September 9, 1970, also shows zinc fuming plant
process water being discharged to Pond 2 (Thornock

29

Ex. 461-0004 and 461-0005.

30

Ex. 461-0004 and 461-0005..

App. 83
Pond) and then out through Wilson Ditch to Prickly
Pear Creek.31
149. Expert Davis testified that Anaconda’s process
water transported through the unlined Wilson Ditch
contributed to the groundwater contamination in the
area.
150. A letter from the Army Corps of Engineers to
Anaconda dated July 29, 1971, stated that Anaconda’s
facility was identified as the source of a discharge or
deposit of refuse matter into Prickly Pear Creek.32
H. Leaking Cooling Circuit Pipe
151. Anaconda pumped 2,000 gallons of water per
minute through its cooling water circuit up to 1964.
152. In 1964, Anaconda installed a new pump and
began pumping 5,000 gallons per minute of water
through its cooling water circuit, which continued at
this rate until the end of Anaconda’s operations in
1972.
153. The cooling water circuit leaked. Anaconda
documents indicate that approximately 60 million
gallons of cooling circuit water was lost each year
“through evaporation, leakage and general use where
it is not returnable.”33

31

Ex. 441.

32

Ex. 107.

33

Exs. 88, 447.

App. 84
154. Anaconda used a 12-inch, 600-foot steel pipe
and pump system to convey cooling water from Lower
Lake up to the zinc fuming plant.
155. In a February 1, 1965 internal Anaconda
Memorandum, A. B. Kane, superintendent of the zinc
fuming plant, noted that Anaconda planned to replace
this pipe in the next year after discovering the pipe
metal had become thin and was leaking in multiple
locations: “A new 12'' water line will be installed to
replace the 600' line that was put in when the plant
was built. We have found several leaks in the present
line and detected the metal is getting thin.”.34
156. Anaconda’s cooling water intake from the
pump at the base of this pipe was measured as
containing arsenic at 0.1933 ppm, which is also noted
as being above the public health service drinking water
standards in 1970.35
157. In addition, in a December 21, 1961 letter from
A. B. Kane, Anaconda noted that the cooling water
pump that had been used to pump water from Lower
Lake to the plant since 1927 had holes in it: “The
pumps were installed in 1927 when this plant was built
and had been used in Anaconda before that. They are
60 years old and quite worn out. Just recently we had
one of these pumps repaired and discovered that the

34

Ex. 99.

35

Ex. 422 at 422-0001.

App. 85
impeller had holes worn in it and the rings between the
impeller and the casing were worn.”36
158. It is the opinion of expert Davis that
Anaconda’s process water, which leaked from this
supply pipe, contained arsenic and migrated to the
groundwater at the Site.
I. The Unlined Return Ditch to Lower
Lake
159. Anaconda constructed and used a second
unlined ditch to return its cooling water from the zinc
fuming furnace to Lower Lake.
160. The water was pumped from the furnace area
in a pipe for a distance of approximately 50 feet, and
then was delivered back to Lower Lake through an
open ditch via gravity flow. The location of this return
ditch from the zinc fuming plant to Lower Lake was
marked on aerial photographs admitted at trial.37 The
return water was warmer in temperature than the
inflow water. Thus, as the marked aerial photographs
indicate, the return water was delivered to a different
location in Lower Lake than the intake cooling water
pipe and pumphouse.
161. Anaconda measured the flow in this ditch and
reported that water was pumped through this unlined

36

Ex. 92.

37

Ex. 451A; Ex. 451C.

App. 86
ditch at a rate of 3,200 gallons per minute as of
December 31, 1961. 38
162. Anaconda continuously used this unlined ditch
throughout its 45 years of operation.
163. Expert Davis testified that the return water
contained arsenic and percolated through the base of
this ditch during transit and ultimately reported to the
groundwater.
164. A sample taken from a well at the top of this
ditch marked as sample ZP-01 is noted as showing
“moderately high levels of arsenic and metals. Total
and dissolved arsenic range from a high of 42 mg/L and
16 mg/L, respectively.”39
165. The sample is also noted as being “contained in
an unlined ditch, and infiltrates into the ground prior
to discharge to Lower Lake.”40
166. Expert Hansen testified that the dissolved
arsenic level is the amount of arsenic that would
infiltrate through the soils and end up in the
groundwater.
J. Furnace Leaks From Water Jackets
167. Anaconda’s blast furnace was cooled by water
jackets, and the flue transporting materials from the
furnace to the bag house included a section of water
38

Ex. 92.

39

Ex. 415 at 415-0079 and 415-0195.

40

Ex. 415 at 415-0194.

App. 87
jackets located above the tapping platform, which led
from the furnace outlet into a brick section, where
water sprays were used to further cool the gases.
Anaconda pumped approximately 2,000 gallons of
water per minute from Lower Lake to cool its furnace
and flue jackets.
168. The exterior of Anaconda’s water jackets for
the fuming furnace and flues had ruptures and leaks
during its years of operation. In fact, in a September
12, 1966 letter, Anaconda reported, “. . . we were
plagued with many forced shutdowns because of water
jacket leaks, cooling water pump trouble and coal valve
failures.”41
169. In addition, Anaconda used open troughs as
part of their cooling loop at the top of the furnace
where cooling water was exposed to metals in the slag
and emissions in the air. The water in these open
troughs would have encountered spillage or emissions
from the smelting slag and contain arsenic from those
materials.
170. In an April 24, 1952 letter from the State of
Montana Industrial Accident Board to Anaconda, it
was noted in regards to the furnace that “[t]here was a
leak in the water wall that was allowing the cooling
water to enter the slag. This was causing boiling and
splattering of the slag as it was tapped from the
furnace.” This same letter noted that the area around
the coal dock and dryer was “extremely dusty and can

41

Ex. 100.

App. 88
stand to have a good deal of work done on it to make it
into a modern installation.”42
171. It is the opinion of expert Davis that
Anaconda’s cooling water came into contact with
arsenic and other metals through this process, and
when the cooling water leaked, it ran through unlined
ponds and ditches and migrated to groundwater
contributing appreciably to the arsenic contamination
of groundwater at the Site.
K. Lower Lake (Pond 1)
172. Lower Lake was unlined during Anaconda’s
operations.
173. Anaconda used Lower Lake water and
discharged its used cooling water back into Lower Lake
throughout all 45 years of its operations.
174. Lower Lake is a primary source of one of the
two major arsenic groundwater plumes at the Site.
175. Anaconda pumped an average of 1.15 million
gallons of cooling water per year to and from Lower
Lake.
176. Through this process, Lower Lake received
releases of arsenic and other metals from Anaconda’s
cooling water, which had come into contact with those
metals at various points in the cooling circuit as
described above.

42

Ex. 436 at 436-0001 (¶ 3).

App. 89
177. Expert Davis testified that Lower Lake
produced the hydraulic head that drove groundwater
and affiliated contamination to the north under the
slag pile and to the northwest under the City of East
Helena, and was a major contributing factor to the
arsenic plume in this area.
178. Based on the foregoing findings of fact, the
Court has determined that the operations of
Anaconda’s zinc fuming plant contributed arsenic to
the groundwater to an extent that a percentage of
allocation should be assigned to Atlantic Richfield for
the costs incurred by Asarco pursuant to the June 2009
CERCLA Consent Decree and Settlement.
V.

TESTIMONY OF THE EXPERTS

179. Before proceeding to the subject of allocation,
the Court will summarize the opinions of the two
primary experts in this case, and the manner in which
these opinions factor into the Court’s analysis.
180. As previously indicated, Asarco’s primary
expert is Dr. Andy Davis. Dr. Davis has a B.S. Degree
in Applied Biology from Liverpool Polytechnic, a M.S.
Degree in Environmental Sciences (Geochemistry) from
the University of Virginia, and a Ph.D. Degree in
Geology (Geochemistry) from the University of
Colorado. Atlantic Richfield’s primary expert is Brian
G. Hansen. Mr. Hansen has a B.S. Degree in Geology
from Fort Lewis College, and a M.E. Degree in
Geological Engineering from the Colorado School of
Mines. Both experts performed a considerable amount
of work in preparing their opinions in this case, and, of
interest, both experts have previously performed

App. 90
consulting work for the other party. Both have
extensive experience in addressing issues similar to
those involved in this matter, and both experts were
credible. However, their respective approaches to the
case differed in significant respects.
A. The Opinions of Dr. Davis
181. In general, expert Davis looked at the relative
contributions of both Asarco and Anaconda to the
groundwater contamination at the Site, and
determined what he believed to be three different
allocation strategies. Notwithstanding the fact that
years of environmental studies have been conducted at
this Site, many under the direction of the
Environmental Protection Agency, it is the Court’s
belief that the work of expert Davis in this case
represents the only truly comprehensive analysis to
date of the contribution that was made by Anaconda’s
historical operations at the Site to groundwater
contamination. His opinions were based upon a
thorough review of all the documents produced in
discovery, and the actual history of Anaconda’s
operations. Many of these documents, some of which
are described in Section IV above, were never provided
by Anaconda or Atlantic Richfield to the state and
federal regulators. Davis carefully analyzed and
mapped the arsenic plume as it is currently believed to
be configured, and for purposes of Anaconda’s
contribution of contaminants to the groundwater,
delineated two plumes, which he describes as the

App. 91
Northwest Plume (consisting of 3,530,000 sq. ft.) and
the North Plume (consisting of 5,660,000 sq. ft.). 43
182. Based on his analysis, Davis proposes the
following three allocation strategies for the Court’s
consideration, which are generally based on the
geographic areas (measured in square feet) of the
North and Northwest Plumes, as detailed in the
immediately preceding paragraph:44
Strategy

Allocation (%)
Anaconda/
Atlantic
Richfield

Asarco

I

34

66

II

41

59

III

25

75

183. Strategy I assumes that a pump-and-treat
system would be employed to address the arsenic
plume. Thus, five wells would be required at the
property boundary, one in the northwest plume and
four to capture the north plume. Davis assigns
responsibility to Anaconda or Atlantic Richfield for 50%
of the north plume, or 1,420,000 sq.ft., relating to
contributions from Lower Lake, and an additional
370,000 sq. ft., or 20% of the northwest plume for the
43

Demonstrative Exs. 488-0037, 488-0037A, 488-00037B, 48800038 and 488-00043.
44

Demonstrative Ex. 519.

App. 92
Thornock Pond and Lake area contributions, for a total
of 1,790,000 sq. ft. Out of the total 5,230,000 sq.ft. at
the Site, this results in a total allocation of 34% to
Anaconda or Atlantic Richfield, and 66% to Asarco.
Strategy I does not include any adjustment for the time
periods of ownership of the respective parties, and does
not consider any potential offsite remediation that may
be required by EPA.
184. Strategy II allocates equal responsibility for
discharges without consideration for the periods of
ownership over the entire plume area as opposed to the
site-specific contamination utilized in Strategy I. Under
this scenario, Davis assigns to Atlantic Richfield 50%
of the north plume, or 2,830,000 sq. ft., and 50% of the
Thornock Pond and Lake area plume, or 930,000 sq. ft.,
for a total of 3,760,000 sq. ft. This results in a total
allocation of 41% to Anaconda or Atlantic Richfield,
and 59% to Asarco.
185. Strategy III is similar to Strategy II, but
includes consideration of the respective periods of
ownership of the parties. Anaconda discharged arseniccontaminated water into Lower Lake for 45 years, from
1927 to 1972. Based on this period of use, Davis
attributes 30% percent, or 1,730,000 sq. ft. of the north
plume to Atlantic Richfield, corresponding to a 19%
allocation. Because the Thornock Pond and Lake area
was used by both Asarco and Atlantic Richfield, for 21
years, from 1951 to 1972, Davis concludes that Atlantic
Richfield is responsible for 19%, or 660,000 sq.ft., of the
northwest plume. In total, Atlantic Richfield is
responsible for 2,390,00 sq. ft., or in aggregate, 25% of

App. 93
the total plume. This results in a total allocation of 25%
to Anaconda or Atlantic Richfield, and 75% to Asarco.
186. Davis recommends Strategy II, because it is
uncertain whether EPA will require some form of
groundwater remediation at the Site, which is an
assumption in Strategy I. Davis disfavors Strategy III
because he thinks it underestimates Anaconda’s
releases of arsenic to the groundwater. In any event,
Davis argues that all three of these allocation
strategies are conservative and favor Atlantic Richfield,
because the focus of these three strategies is only on
the contamination from Lower Lake and the Thomock
Pond and Lake area, and excludes other sources of
groundwater contamination caused by Anaconda’s
operations detailed in Section IV above.
B. The Opinions of Mr. Hansen
187. Expert Hansen employed a different approach
in analyzing this case. Although he concedes that
Anaconda’s zinc fuming operations generated arsenicbearing contaminants, he concludes that METG’s
remediation efforts are directed to remediating only
Asarco’s contribution to the contaminated
groundwater, and that the remediation efforts made
before the June 2009 CERCLA Consent Decree and
Settlement addressed and alleviated any contribution
of arsenic made by Anaconda at the Site.
188. Hansen focuses on the operations of Asarco,
and endeavors to distinguish them from those of
Anaconda, thereby minimizing Anaconda’s
responsibility. For example, Hansen argues that it is
not scientifically possible for the concentrations of

App. 94
arsenic in the materials involved in Anaconda’s
operation, being coal and zinc fume, to have caused the
levels of contamination observed at the Site. Hansen
specifically refers to coal, the fuel used in the zinc
fuming operation, which has a concentration of 6 ppm
of arsenic, and zinc fume, which has a concentration of
3,500 ppm of arsenic, and concludes that these sources
of arsenic could not be the cause of the contamination
of 120,000 ppm of arsenic found in the sediments
underlying the Thornock Pond and Lake area. The logic
of this approach is superficially compelling, but ignores
the multiple sources of arsenic-bearing contaminants
that Anaconda contributed to this Site over the 45
years of its operations. In fact, it was clear to the Court
during expert Hansen’s cross-examination, that he had
failed to consider many of the historical documents
referenced in Section IV above that document
Anaconda’s discharge of arsenic to the atmosphere and
groundwater, including the extensive use by Anaconda
in its operations of arsenic-laden waters from Lower
Lake for 45 years.
189. Regardless, expert Hansen concludes that the
allocation percentage to be assigned to Atlantic
Richfield is zero.
VI.

ALLOCATION

190. One could characterize the conflicting opinions
of these two experts as leaving the Court with an “all
or nothing” scenario. However, as explained in
paragraphs 14, 45, 47 and 50 of the Conclusions of Law
section of this order, mathematical certainty in
determining the percentage of allocation is rarely
possible, with the court having broad discretion in

App. 95
allocating response costs among liable parties using
such equitable factors as the court deems appropriate
under the circumstances of the case. These equitable
factors will be addressed later in this order.
191. The Court has carefully considered all of the
evidence in this case, paying particular attention to the
opinion testimony of the two experts summarized in
Section V above. As between experts Hansen and
Davis, the Court finds the opinions of expert Davis to
be compelling and persuasive. Regarding the three
allocation strategies proposed by Davis, the Court
adopts Strategy III as the appropriate method of
allocation, for the simple reason that it is the only
strategy that includes the time periods of ownership,
which the Court determines to be one of the important
factors to be considered in determining allocation. It is
not enough to consider only Asarco’s contribution of
arsenic to this site, as urged by Atlantic Richfield.
Expert Davis was the only witness at trial who was
qualified by education, training, experience, and the
work he performed in this case, to quantify the
contribution of arsenic made by Anaconda’s 45 years of
operation at the Site. Atlantic Richfield’s strategy of
incessantly focusing on Asarco’s operations, while
ignoring or minimizing Anaconda’s operations, leaves
the majority of expert Davis’s opinions largely
unchallenged.45

45

To be fair, Atlantic Richfield does propose three alternative
allocation approaches in its proposed amended post-trial findings
of fact and conclusions of law (Doc. 267, ¶ 54). The Court has

App. 96
192. Therefore, the Court determines that Atlantic
Richfield’s equitable share of the response costs paid by
Asarco under the June 2009 CERCLA Consent Decree
and Settlement is 25%. The amount of the response
costs subject to this 25% allocation is addressed in the
Conclusions of Law, Section II below.
VII.

A NA C ONDA
MISLED
THE
E PA
REGARDING ITS RELEASES AT THE SITE

193. From 1987 to 1990, Anaconda received four
letters from the EPA either requesting information in
the form of a 104(e) letter, or putting Atlantic Richfield
on special notice of its liability for response costs under
CERCLA as a PRP at the Site.46
194. Mr. Krablin assisted Anaconda in responding
to the EPA’s CERCLA 104(e) requests. Although Mr.
Krablin is no longer employed by Atlantic Richfield, he
was present throughout the trial and seated at counsel
table as Atlantic Richfield’s corporate representative,
and during the time period in question, Krablin’s title
was an environmental engineer. Krablin was at the
Site only once during his entire career with Anaconda,
in 1971. He also testified twice during the trial, once in
Asarco’s case in chief, and later during Atlantic
Richfield’s case in chief. During cross-examination by
Asarco’s counsel, Krablin was at times evasive and his
answers were frequently non-responsive. The Court

considered the three options proposed by Atlantic Richfield in this
single paragraph in reaching its conclusion regarding the
appropriate percentage of allocation.
46

Exs. 184; 185; 408; and 419.

App. 97
was required on occasion to admonish Krablin to
directly answer questions. Krablin was also the
corporate representative who attested to Atlantic
Richfield’s discovery responses in this case.
195. On March 12, 1987, Anaconda received its first
letter from the EPA which requested information
pursuant to Section 104(e) of CERCLA, 42 U.S.C.
§ 6901(e).47
196. The March 12, 1987 letter sought, among other
things, the following information from Anaconda: “A
narrative explaining the facility’s operation throughout
your period of ownership/operation. Please document
all chemical constituents used in your treatment
process and disposal methods practiced for any wastes
or by-products. This should include copies of all
existing documents relating to the subjects listed
above.”48
197. In response, Anaconda failed to provide
documents to the EPA relating to Anaconda’s disposal
methods that were responsive to this request,
including: (a) a document describing particulate
discharge from the baghouse (Ex. 425); (b) a letter from
the U.S. Army Corps of Engineers regarding
Anaconda’s illegal discharges of waste to Prickly Pear
Creek (Ex. 107); (c) an internal Anaconda Company
Memorandum regarding emissions of coal dust (Ex.
173); (d) an internal Anaconda document that indicated
that Anaconda lost 60 million gallons of arsenic47

Ex. 184.

48

Ex. 184 at 184-0002.

App. 98
containing water through evaporation, leakage and
general use (Ex. 447); and (e) an internal Anaconda
Company document regarding leaks from the furnace
(Ex. 103).49
198. Anaconda also failed to disclose any
communications between Anaconda and the State of
Montana health officials regarding emissions of
pollution from the Anaconda zinc fuming facility, which
were responsive to the 104(e) letter.
199. The March 12, 1982, the 104(e) request also
asked Anaconda to identify the names of employees
who were interviewed for purposes of responding to the
request.50 In response, Anaconda stated that it did not
interview any of its former employees to find
information responsive to the May 12, 1987, 104(e)
request.51
200. On February 8, 1990, the EPA sent Anaconda
a follow-up 104(e) request which stated that “EPA is
trying to construct a data base of materials and
processes pertaining to the industrial activities that
took place and are taking place at the site. For the data
base to be complete and accurate, EPA needs complete
records of your industrial operations at East Helena.”
That request also sought “any records . . . of annual

49

All of the documents referenced in this section were in
Anaconda’s files and available for production to the EPA.
50

Ex. 184.

51

Ex. 407 at 407-0003.

App. 99
primary and fugitive emissions” from Anaconda’s
operations or the “best estimates” of such emissions.52
201. Anaconda responded to that letter on March
15, 1990. In that response, Anaconda falsely claimed
that: “Generally, annual emission records were not
available for the period of Anaconda Company’s
operations of the zinc fuming plant.”53
202. Anaconda had in its possession documents that
indicated Anaconda lost 60 million gallons of arseniccontaining water through evaporation, leakage and
general use annually, which were responsive to the
February 8, 1990 request, but Anaconda did not
disclose those documents to the EPA.
203. On February 23, 1990, the EPA sent Anaconda
a Special Notice Letter pursuant to CERCLA Section
122, 42 U.S.C, § 9622, which formally demanded that
Anaconda reimburse the EPA for all costs it incurred in
connection with response actions at the East Helena
Site.54
204. On April 25, 1990, Atlantic Richfield responded
to the Special Notice Letter. In that response, Atlantic
Richfield made the following misrepresentation:
“Cooling water was pumped from Lower Lake through
a closed transport piping system to non-contact cooling

52

Ex. 408 at 408-0001 and 408-0003.

53

Ex. 459 at 459-0003.

54

Ex.185.

App. 100
cells in the furnace and then discharged back to the
Lower Lake through a closed piping system.”55
205. Atlantic Richfield knew, at the time it sent its
April 25, 1990 letter, that the cooling water pumped
from Lower Lake was not discharged back to Lower
Lake through a closed piping system but was instead
discharged through an open and unlined ditch.
206. Atlantic Richfield never contacted the EPA to
correct this false statement.
207. On April 26, 1990, Atlantic Richfield sent the
EPA another letter containing two affidavits, one by
former Anaconda employee Walter H. Unger and
another by former Anaconda employee A.B. (Bert)
Kane, who was the former zinc plant superintendent.56
208. The Unger Affidavit contained the following
false and misleading statement: “The system was
designed so that no cooling water would escape from
the closed-loop system and so that no material would
be discharged into the cooling water. The heated water
was then returned to Lower Lake. The system was
designed such that the water that was being returned
to Lower Lake from the cooling system would contain
only those materials that were in the water when it
was removed from Lower Lake.”57

55

Ex. 113 at 113-0031.

56

Ex. 156.

57

Id. at Ex. 156-0003.

App. 101
209. The Kane Affidavit contained the following
false and misleading statement: “The water was kept
in its own piping system and was designed so that no
cooling water would escape from the system and so that
no material would be discharged into the cooling
water.”58 These two affidavits were the subject of
extensive testimony at trial. Krablin reviewed these
affidavits before they were submitted to the EPA.
During his cross-examination at trial, Krablin labored
to parse the words in these affidavits by attempting to
explain, on multiple occasions, that these affidavits
referred to the cooling system within the zinc fuming
plant itself, and did not refer to the overall cooling
water system, which involved the pumping of arseniccontaminated water from Lower Lake to the furnace
area, and the return of arsenic-laden process water
from the furnace area back to Lower Lake through a
lengthy, open, unlined ditch. In viewing these two
affidavits, and listening to the testimony of Krablin,
the Court has concluded that the intent of these
affidavits was to mislead the EPA into believing that
there was no loss of process water in connection with
Anaconda’s operations. As previously explained, the
process water came from, and returned to Lower Lake.
The pumps associated with this process leaked, the
pipeline from Lower Lake to the zinc fuming plant
furnace leaked, and the return open, unlined ditch to
Lower Lake obviously leaked water. This water
contained high levels of arsenic, and serves as one of
the primary sources of groundwater contamination
caused by Anaconda’s operations.

58

Id. at Ex. 156-0004.

App. 102
210. The Court was further confused and perplexed
by Krablin’s testimony on this subject when he
attempted to explain his conflicting answers regarding
the import of these two affidavits by contending that he
did not appreciate the distinction between an affidavit
and a declaration. In any event, during crossexamination, Krablin ultimately admitted that if
Unger and/or Kane represented in their affidavits that
it was a closed piping system, those representations
would have been false.
211. On May 15, 1990, the EPA sent a letter to
Atlantic Richfield explaining that it determined that
“ARCO is a potentially responsible party for the
Process Ponds Operable Unit at the East Helena
Site.”59
212. The May 15, 1990 letter from the EPA also
concluded that there were “elevated concentrations of
heavy metals in water being discharged from the zinc
fuming plant into Lower Lake.”60
213. On May 21, 1990, Atlantic Richfield responded
to the EPA and made the following misleading claim:
“Even assuming that the non-contact discharge water
contained elevated concentrations of metals, no
evidence exists that these metals were added by the
non-contact cooling water system. Rather, the
concentrations of metals discharged in the non-contact

59

Ex. 419 and 419-0002.

60

Ex. 419 at 419-0001.

App. 103
cooling water were the same as those in the withdrawal
from Lower Lake.”61
214. Anaconda and Atlantic Richfield made multiple
false and misleading statements to the EPA regarding
its discharges to and its use of cooling water from
Lower Lake.62
215. Based on Atlantic Richfield’s deliberate failure
to tell the EPA the truth about its operations, EPA
looked solely to Asarco to conduct remedial action at
the Site.63
216. Additionally, based on Atlantic Richfield’s
misrepresentations during the subsequent clean-up
investigations and issuance of environmental reports,
the EPA and later METG, focused on Asarco’s
operations, and overlooked the contributions of
Anaconda’s zinc fuming facility. This focus on Asarco’s
operations, and not Anaconda’s, to determine the
sources of contamination to the groundwater was
exacerbated by the fact that the zinc fuming facility
ceased operations in 1982. The subsequent
environmental investigations and reports were thus
focused on the only operational facility at the Site,
which was Asarco’s.
217. Atlantic Richfield also repeated those false
statements when responding to discovery in this case.

61

Ex. 186 at 186-0008.

62

Exs. 113 & 156.

63

Ex. 35 at 35-0019.

App. 104
In its December 23, 2013 response to Asarco’s Request
for Admission Number 5, Atlantic Richfield stated the
following: “the zinc fuming plant utilized a closed-loop,
non-contact cooling water system to control the
temperature of the furnace and reduce the temperature
of zinc oxides and other gases before entry to the
baghouse . . . . The cooling water system did not result
in contaminant loading to Lower Lake.”64
218. At the time Atlantic Richfield provided its
response to Asarco’s Request for Admission Number 5,
Atlantic Richfield had documents in its possession that
showed that Anaconda returned cooling water to Lower
Lake via an open ditch, not a closed-loop, non-contact
cooling water system.
219. Within days following the deposition of Richard
Krablin, Atlantic Richfield amended its response to
Asarco’s Request for Admission Number 5, as well as
other discovery responses by stating the following:
“certain information provided in deposition testimony
indicates that the closed-loop, non-contact cooling
water system described in Atlantic Richfield’s Previous
Responses was modified after construction, but prior to
December 21, 1961 to return cooling water from the
zinc fuming plant to Lower Lake via an open ditch
rather than a closed pipe.”65
220. The foregoing misrepresentations by Anaconda
constitute a lack of cooperation on the part of Anaconda
with the EPA, warranting consideration by the Court
64

Ex. 482 at 482-0006.

65

Ex. 487 at 487-0002 – 487-0003.

App. 105
of an uncertainty premium or error factor under the
sixth Gore Factor, which will be addressed in the
following Conclusions of Law.
CONCLUSIONS OF LAW
1. This Court has subject matter jurisdiction based
upon the exisence of a federal question, 28 U.S.C.
§ 1331, and Section 113(b) of CERCLA, 42 U.S.C
§ 9613(b).
2. CERCLA § 113(f) allows “[a] person who has
resolved its liability to the United States . . . for some
or all of a response action or for some or all of the costs
of such action in an administrative or judicially
approved settlement” to seek contribution from other
potentially responsible persons. 42 U.S.C.
§ 9613(f)(3)(B).
3. CERCLA has two primary policy goals: (1) to
encourage the “expeditious and efficient cleanup of
hazardous waste sites,” and (2) to ensure that those
responsible for hazardous waste contamination pay for
the cleanup. Asarco LLC v. Atl. Richfield Co., 866 F.3d
1108, 1115 (9th Cir. 2017). In keeping with these policy
goals, CERCLA § 113 provides for reimbursement of
costs incurred by a party that overpaid for its share of
the cleanup. Id. at 1115.
4. In analyzing the merits of a contribution claim
under § 113(f) of CERCLA, courts must conduct a twopart inquiry: “First, the court must determine whether
the defendant is ‘liable’ under CERCLA § 107(a);
Second, the court must allocate response costs among
liable parties in an equitable manner.” United States v.
Kramer, 644 F. Supp. 2d 479, 488-89 (D.N.J. 2008)

App. 106
(quoting Goodrich Corp. v. Town of Middlesbury, 311
F.3d 154, 168 (2d Cir. 2002)).
5. The burden of proof in a CERCLA case is a
preponderance of the evidence. Georgia-Pacific
Consumer Products LP v. NCR Corp., 980 F. Supp. 2d
821, 829 (W.D. Mich. 2013).
I.

ATLANTIC RICHFIELD’S
UNDER CERCLA § 107(a)

LIABILITY

6. In order to establish a prima facie case for
liability under CERCLA § 107(a), the plaintiff must
prove the following four elements:
a. The site on which the hazardous substances are
contained is a “facility” under CERCLA’s
definition of that term, Section 101(9), 42 U.S.C.
§ 9601(9);
b. A “release” or “threatened release” of any
“hazardous substance” from the facility has
occurred, Section 107(a), 42 U.S.C. § 9607(a)(4);
c. Such “release” or “threatened release” has
caused the plaintiff to incur response costs that
were “necessary” and “consistent with the
national contingency plan,” Section 107(a), 42
U.S.C. §§ 9607(a)(4) and (a)(4)(B); and
d. The defendant is within one of four classes of
“persons” subject to the liability provisions of
Section 107(a).
City of Colton v. Am. Promotional Events, Inc.-West,
614 F.3d 998, 1002-1003 (9th Cir. 2010).

App. 107
A. Anaconda’s Zinc Fuming Plant is a
“Facility” Under CERCLA
7. Under Section 101(9) of CERCLA, the term
“facility” means:
(A) any building, structure, installation,
equipment, pipe or pipeline (including any pipe
into a sewer or publicly owned treatment works),
well, pit, pond, lagoon, impoundment, ditch,
landfill, storage container, motor vehicle, rolling
stock, or aircraft, or (B) any site or area where a
hazardous substance has been deposited, stored,
disposed of, or placed, or otherwise come to be
located; but does not include any consumer
product in consumer use or any vessel.
8. The East Helena Superfund Site, including
Anaconda’s zinc fuming furnace, flues, bag house,
water pipes, process ponds, and other appurtenances,
is a “facility” within the meaning of Section 101(9) of
CERCLA, 42 U.S.C. § 9601(9).
B. Anaconda “Released” a “Hazardous
Substance” at the Site
9. A “release” means, in pertinent part, “any
spilling, leaking, pumping, pouring, emitting,
emptying, discharging, injecting, escaping, leaching,
dumping, or disposing into the environment . . .”
Section 101 (22) of CERCLA, 42 U.S.C. § 9601(22).
10. A “hazardous substance” is defined under
CERCLA to include arsenic. Section 101(14) of
CERCLA, 42 U.S.C. § 9601(14); 49 C.F.R. § 172.101,
App. A.

App. 108
11. Anaconda is responsible for disposals or
“releases” within the meaning of Section 101(22) of
CERCLA, 42 U.S.C. § 9601(22), into the environment
at or from the East Helena Site.
12. “Hazardous substances” within the meaning of
Section 101(14) of CERCLA, 42 U.S.C. § 9601(14),
including but not limited to arsenic, were disposed of,
placed, released, or otherwise became located at the
East Helena Site by and because of Anaconda and its
zinc fuming operations.
C. Anaconda’s “Release” at the Site Caused
Asarco to Incur “Necessary” Response
Costs Consistent with the National
Contingency Plan (“NCP”)
13. For a response cost claim, a plaintiff “need not
establish a direct causal connection between the
hazardous substance released by the Defendants and
the incurrence of response costs.” Coeur D’Alene Tribe
v. Asarco Inc., 280 F. Supp. 2d 1094, 1124 (D. Idaho
2003) (citing U.S. v. Alcan Aluminum Corp., 964 F.2d
252 (3rd Cir. 1992)).
14. Once a party is liable, it is required to share the
costs of response regardless of whether it is the sole
cause of those costs. Boeing v. Cascade, 207 F.3d 1177,
1185-1186 (9th Cir. 2000).
15. “A CERCLA contribution plaintiff is not
required to prove its case with ‘mathematical precision’
or ‘scientific certainty;’ rather, it must prove its right to
contribution by a preponderance of the evidence.”
Asarco LLC v. NL Industries, Inc., 106 F. Supp. 3d
1015, 1026 (E.D. Mo. 2015) (citations omitted).

App. 109
16. CERCLA liability may be inferred from the
totality of the circumstances; it need not be proven by
direct documentary evidence. NL Industries, Inc., 106
F. Supp. 3d at 1026; Georgia-Pacific Consumer
Products LP v. NCR Corp., 980 F. Supp. 2d 821, 829
(W.D. Mich. 2013) (citing Tosco Corp. v. Koch Indus.,
Inc., 216 F.3d 886, 892 (10th Cir. 2000)); Alcan., 964
F.2d 252 (holding that “virtually every court that has
considered this question has held that a CERCLA
plaintiff need not establish a direct causal connection
between the defendant’s hazardous substances and the
release or the plaintiffs incurrence of response costs.”)
17. The Court must construe the CERCLA statute
“liberally to avoid frustration of the beneficial
legislative purposes” of protecting and preserving
public health and the environment. NL Industries, Inc.,
106 F. Supp. 3d at 1026 (citing U.S. v. Mallinckrodt,
Inc., 2006 WL 3331220, at *3 (E.D. Mo. Nov. 15, 2006).
18. Asarco produced substantial and convincing
evidence establishing that releases occurred at the
Anaconda zinc fuming furnace and flues, at the
Anaconda bag house, at the Anaconda slag and coal
dumps, through leaking cooling water pipes, and at the
unlined process ponds and ditches utilized by
Anaconda for cooling and wash-down water, including
but not limited to Lower Lake, Thornock Pond and
Lake, and Wilson’s Ditch.
19. Asarco produced substantial and convincing
evidence establishing that these Anaconda releases
resulted in the migration of arsenic into the
groundwater, which directly contributed to the arsenic
plumes that are driving the East Helena Site cleanup.

App. 110
20. Because Asarco has established that there were
several plausible migration pathways via which arsenic
released by the Anaconda zinc fuming operations
migrated into the groundwater and contributed to the
arsenic plume that is driving the East Helena Site
cleanup, Asarco has met its burden on causation.
Atlantic Richfield has not presented any compelling
evidence that disproves Anaconda’s causation.
21. Response costs are considered necessary when
“an actual and real threat to human health or the
environment exist[s].” City of Colton, 614 F.3d at 1003
(citing Carson Harbor Village, Ltd v. Unocal Corp., 270
F.3d 863, 870-71 (9th Cir. 2001) (en banc)).
22. Response costs are considered consistent with
the NCP “if the action, when evaluated as a whole, is in
substantial compliance” with it. City of Colton, 614
F.3d at 1003; 40 C.F.R. § 300.700(c)(3)(i).
23. The NCP “is designed to make the party seeking
response costs choose a cost-effective course of action to
protect public health and the environment.” City of
Colton, 614 F.3d at 1003 (quoting Carson Harbor
Village LTD. v. County of Los Angeles, 433 F.3d 1260,
1265 (9th Cir.2006)).
24. Where costs are incurred pursuant to an
Administrative Order issued by the EPA or a Consent
Order between the plaintiff and the EPA, there is an
irrebuttable presumption that those costs are
consistent with the NCP. 40 C.F.R. § 300.700 (c)(3)(ii);
Central Me. Power Co. v. F.J. O’Connor Co., 838 F.
Supp. 641, 648 (D. Me. 1993); Action Mfg. Co. v. Simon
Wrecking Co., 2008 WL 2880324 (3rd Cir. 2008)

App. 111
(unpublished) (citing Bancamerica Commercial Corp.
v. Mosher Steel of Kansas, Inc., 100 F.3d 792, 796-97
(10th Cir. 1996)).66
25. Costs arising from RCRA compliance can be
recovered in a CERCLA action, and work performed
under a RCRA order or consent decree may still be
consistent with the NCP such that the associated costs
may therefore still be recoverable under CERCLA. U.S.
v. E.I. du Pont de Nemours & Co., 341 F. Supp. 2d 215,
235-37 (W.D.N.Y. 2004);
26. The EPA has stated that “even if a party takes
a cleanup action under an authority other than
CERCLA (e.g., RCRA corrective action), it may have a
right of cost recovery under CERCLA Section 107 if the
action was a necessary response to a release of
hazardous substances, and was performed consistent
with the NCP.” Nat’l Oil and Hazardous Substances
Pollution Contingency Plan, 55 Fed. Reg. 8666-01, 8796
(Mar. 8, 1990).
27. Asarco paid $111.4 million in response costs for
the East Helena Site pursuant to the June 2009
CERCLA Consent Decree, which constitutes a Consent
Order between the Plaintiff and the United States.
28. The response costs incurred by Asarco for the
East Helena Site pursuant to the June 2009 CERCLA

66

This issue was the subject of pretrial briefing by the parties. See
“Defendant Atlantic Richfield Company’s Point Brief Regarding
Asarco’s Burden of Proof on Response Costs” (Doc. 241), and
“Asarco’s Response in Opposition to Defendant Atlantic Richfield
Company’s Point Brief” (Doc. 256).

App. 112
Consent Decree, and the subsequent remediation
measures paid for out of those response costs and
implemented by the METG with the EPA’s oversight,
are necessary and consistent with the National
Contingency Plan.
29. The remediation at the Site, funded by the June
2009 CERCLA Consent Decree, is and has been
primarily focused on remediation of the groundwater
plumes. This work is necessary to remediate
Anaconda’s releases of arsenic into the groundwater.
30. Anaconda’s releases at the Site caused Asarco to
incur response costs that were necessary and
consistent with the National Contingency Plan.
D. Atlantic Richfield is Within the Classes
of Persons Subject to Section 107(a)
Liability
31. The term “person” means “an individual, firm,
corporation, association, partnership, consortium, joint
venture, commercial entity, United States Government,
State, municipality, commission, political subdivision
of a State, or any interstate body.” Section 101(21) of
CERCLA, 42 U.S.C. § 9601(21).
32. The four classes of persons subject to CERCLA’s
Section 107(a) liability provisions include, in pertinent
part: “(1) the owner and operator of . . . a facility,
(2) any person who at the time of disposal of any
hazardous substance owned or operated any facility at
which such hazardous substances were disposed of,
(3) any person who by contract, agreement, or
otherwise arranged for disposal or treatment, or
arranged with a transporter for transport for disposal

App. 113
or treatment, of hazardous substances owned or
possessed by such person, by any other party or entity,
at any facility or incineration vessel owned or operated
by another party or entity and containing such
hazardous substances, and (4) any person who accepts
or accepted any hazardous substances for transport to
disposal or treatment facilities, incineration vessels or
sites selected by such person, from which there is a
release, or a threatened release which causes the
incurrence of response costs, of a hazardous substance
. . . .” Section 107(a) of CERCLA, 42 U.S.C. § 9607(a)(14).
33. CERCLA imposes “strict liability for
environmental contamination” upon these four classes
of potentially responsible parties. BNSF v. U.S., 556
U.S. 599, 608 (2009).
34. A showing by a contribution plaintiff that a
defendant falls into just one of these categories is
sufficient to establish liability. Control Data Corp. v.
S.C.S.C. Corp., 53 F.3d 930, 934 (8th Cir. 1995).
35. Corporate successors to owners or operators of
a facility succeed to those entities’ CERCLA liabilities.
Atchison T. & S.F. Ry. v. Brown & Bryant, Inc., 159
F.3d 358, 361 (9th Cir. 1997).
36. Atlantic Richfield is a “person,” within the
meaning of Section 101(21) of CERCLA, 42 U.S.C.
§ 9601(21).
37. Anaconda is a former “owner” and/or “operator”
of a “facility” pursuant to Sections 101(9) and (20) and
107(a)(2) of CERCLA, 42 U.S.C. §§ 9601(9) and (20)
and 9607(a)(1) and (2).

App. 114
38. Anaconda is a person who is liable for owning
and/or operating facilities at or from which hazardous
substances were disposed under 42 U.S.C. § 9607(a)(2),
for arranging transport or disposal of hazardous
substances under 42 U.S.C. § 9607(a)(3), and for
transporting hazardous substances in or near the East
Helena Site under 42 U.S.C. § 9607(a)(4).
39. Atlantic Richfield, as Anaconda’s corporate
successor, assumes Anaconda’s CERCLA liability.
40. Because Asarco has established all of the
required elements of § 107(a) liability, Atlantic
Richfield is liable under § 107(a) of CERCLA, and
Asarco may seek contribution pursuant to § 113(f)(3)(B)
of CERCLA, 42 U.S.C. § 9613(f).
II.

ATLANTIC RICHFIELD’S EQUITABLE
SHARE OF CONTRIBUTION UNDER
CERCLA § 113(f)

41. Asarco has resolved its CERCLA liability for
response actions with the United States through the
June 2009 CERCLA Consent Decree, which included
any liability for the Site.
42. Asarco incurred $111,403,743 in response costs
that are consistent with the National Contingency Plan
pursuant to 42 U.S.C. § 9607(a)(4)(B).
43. Asarco has paid more than its equitable share of
costs at the Site.
44. Atlantic Richfield is liable under Section 113(f)
of CERCLA, 42 U.S.C. § 9613(f), for its equitable share

App. 115
of Anaconda’s contribution for the response costs paid
by Asarco under the CERCLA Decree.
45. Courts regularly approve contribution claims
made for future response costs, even where such costs
are uncertain. American Cyanamid Co. v. Capuano,
381 F.3d 6 (1st Cir. 2004) (allocating future response
costs and noting that the “fact that the monetary
judgment is entered based on an estimate . . . does not
on its own make that judgment unjust”); RSR Corp. v.
Commercial Metals Co., 496 F.3d 552 (6th Cir.2007)
(permitting a contribution claim for costs that included
future response costs); PCS Nitrogen, Inc. v. Ross
Development Corp., 104 F. Supp. 3d 729, 743 (D.S.C.
2015) (holding that “monetary relief for future response
costs may be available to [plaintiff] as part of its
§ 113(f)(1) claim”).
46. CERCLA mandates an equitable allocation. In
formulating an allocation for contribution, the court
may consider factors other than the actual amounts
contributed to the Site, including “such equitable
factors as the court determines are appropriate.”
Section 113(f) of CERCLA, 42 U.S.C. § 9613(f).
47. This is a “broad and loose standard” that gives
the district court wide discretion, and is the type of
decision particularly well suited for case-by-case
analysis. Browning-Ferris Indus. of Illinois, Inc. v. Ter
Maat, 195 F.3d 953, 957 (7th Cir. 1999); Environmental
Transp. Sys., Inc. v. Ensco, Inc., 969 F.2d 503, 572 (7th
Cir. 1992); Cadillac Fairview/ California, Inc. v. Dow
Chemical Co., 299 F.3d 1019, 1027 (9th Cir. 2002),
United States v. Shell Oil Co., 294 F.3d 1045, 1060 (9th
Cir. 2002) (decision only be reversed upon a finding of

App. 116
“abuse of the discretion to select factors, or for clear
error in the allocation according to those factors”).
48. The Court is encouraged to apply standards of
fairness and equity in awarding relief to the party that
has stepped forward and settled for the cleanup of a
contaminated site. See Alcan I, 964 F.2d at 264-266; see
also PCS Nitrogen Inc. v. Ashley II of Charleston LLC,
714 F.3d 161 (4th Cir. 2013) (holding that the plain
language of 42 U.S.C. § 9613 (f)(1) grants a court
significant discretion to choose which factors to
consider in determining equitable allocation of
liability).
49. The creation of contribution claims and the
reliance on equity stems from the fact that “[d]ue to
financial constraints and other impracticalities, the
EPA only focuses on a few financially viable PRPs to
shoulder the entire cost of the EPA’s remediation or
removal measures under CERCLA § 107(a).” Jason E.
Panzer, Apportioning CERCLA Liability: Cost Recovery
or Contribution, Where Does a PRP Stand?, 7
FORDHAM ENVTL. L. REV. 437 (1996). Thus, given
“[t]he combination of EPA’s lack of resources and its
ability to utilize joint and several liability militate
against EPA compilation of more comprehensive PRP
lists at each site.” Id. at 442, fn. 33 (citing Jerome M.
Organ, Superfund and the Settlement Decision:
Reflections on the Relationship Between Equity and
Efficiency, 62 GEO. WASH. L. REV. 1043, 1053-54
(1994) (“[I] t is not unusual for the EPA to identify the
minimum number of parties to commence an action.”).
“As a result[,] the burden of remediation falls on those
whom [the] EPA has identified.” Id.

App. 117
50. Mathematical precision in the allocation process
is not realistic and is not part of Asarco’s burden of
establishing the basis for its claim of an equitable
share to which it is entitled from Atlantic Richfield.
Kalamazoo River Study Group v. Rockwell lnt’l, Inc.,
107 F. Supp. 2d 817 (W.D. Mich. 2000).
51. As a plaintiff that entered into a court approved
settlement with the United States, Asarco is entitled to
the “benefit of the doubt as to the equitable factors and
factual uncertainty in allocating” responsibility for
cleanup costs. Goodrich Corp. v. Middlesbury, 311 F.3d
154,166 (2d Cir. 2002).
52. While courts may consider any factors they
deem relevant, they often use the so-called Gore
Factors to guide their allocation analysis. See
Burlington N. & Santa Fe Ry. Co., 520 F.3d 918, 940,
n.26 (9th Cir. 2008) (reversed on other grounds);
United States v. Consolidation Coal Co., 345 F.3d 409,
413–414 & n.1 (6th Cir. 2003); United States v.
Hercules, Inc., 247 F.3d 706, 718 (8th Cir. 2001), cert.
denied 515 U.S. 1158, 115 S. Ct. 2609, 132 L. Ed. 2d
853 (2001); Acushnet Co. v. Mohasco Corp., 191 F.3d
69, 81 (1st Cir. 1999); Centerior Serv. Co. v. Acme Scrap
Iron & Metal Corp., 153 F.3d 344, 354 (6th Cir. 1998);
In re Bell Petroleum Servs., 3 F.3d 889, 901 (5th Cir.
1993). The Gore factors include:
a. the ability of the parties to demonstrate that
their contribution to a discharge, release or
disposal of a hazardous waste can be
distinguished;
b. the amount of the hazardous waste involved;

App. 118
c. the degree of toxicity of the hazardous waste
involved;
d. the degree of involvement by the parties in the
generation, transportation, treatment, storage,
or disposal of the hazardous waste;
e. the degree of care exercised by the parties with
respect to the hazardous waste concerned,
taking into account the characteristics of such
hazardous waste; and
f. the degree of cooperation by the parties with
Federal, State, or local officials to prevent any
harm to public health or the environment.
TDY Holdings LLC v. U.S., 885 F.3d 1142, 1146, n. 1
(9th Cir. 2018); Matter of Bell Petroleum Services, Inc.,
3 F.3d 889, 899-900 (5th Cir. 1993).
53. More than any other factor, cooperation touches
directly upon CERCLA’s objective of prompt cleanup at
the expense of responsible parties. United States v.
Consolidation Coal Co., 184 F. Supp. 2d 723, 751 (S.D.
Ohio 2002), aff’d in part, and vacated in part, 345 F.3d
409 (6th Cir. 2003). With cooperation that goal is
realized, but without cooperation that goal of CERCLA
is thwarted. Ibid.
54. Courts have considered “[t]he degree of
cooperation with government officials to prevent any
harm to the public health or the environment as very
important to a contribution analysis.” Cent. Maine
Power, Co. v. F.J. O’Connor Co., 838 F. Supp. 641, 646
(D. Me. 1993).

App. 119
55. CERCLA § 104(e) provides the government with
the means to enforce cost recovery provisions in
CERCLA § 107 by enabling the EPA to obtain
information regarding those responsible for hazardous
waste disposal and their ability to pay for cleanup
costs.
56. Specifically, CERCLA § 104(e)(1) authorizes
information requests under CERCLA § 104(e)(2) for
purposes of “determining the need for response, or
choosing or taking any response action under this
subchapter or otherwise enforcing the provisions of this
subchapter.” 42 U.S.C. § 9604(e)(1).
57. Indeed, “[t]he EPA’s use of information request
letters is the cornerstone of the Superfund enforcement
program.” United States v. Ponderosa Fibres of
America, Inc., 178 F. Supp. 2d 157, 160 (N.D.N.Y.
2001).
58. A court’s consideration of “equitable factors” in
determining an allocation extends to applying an
“uncertainty premium” or “error factor” increasing a
defendant’s contribution where precise allocation or
final costs cannot be determined. See, e.g., Burlington
Northern and Santa Fe Ry. Co. v. U.S., 556 U.S. 599,
616-17 (2009) (approving allocation based upon
comparison of plaintiff and defendant’s surface area
use of the overall site, years of use of the site, and
volume of release on the property, and then increasing
allocable contribution of 6% by half so that defendant’s
allocable share was increased to 9% to account for
“calculation errors”); Action Mfg. Co. v. Simon
Wrecking Co., 2008 WL 2880324 (3rd Cir. 2008)
(unpublished) (noting with approval the district court’s

App. 120
use of an “uncertainty premium” which increased the
defendant’s allocable share by 50%, requiring it to pay
9.38% of the allocable costs rather than the 6.25% of
the allocable costs the district court determined the
defendant was actually responsible for).
59. In light of the foregoing, Atlantic Richfield’s
equitable share of the response costs is 25% of the
$111,403,743 million Asarco paid under the June 2009
CERCLA Consent Decree for the East Helena Site,
which is equal to $27,850,936.
60. Pursuant to the sixth Gore Factor, the degree of
cooperation by the parties with Federal, State, or local
officials, Anaconda and Atlantic Richfield’s ongoing
misrepresentations to the EPA, and to Asarco
throughout the course of this litigation, supports an
additional $1 million award.
III.

THE 1972 PURCHASE AGREEMENT DOES
NOT BAR ASARCO’S CLAIM

61. Under a Purchase and Sale agreement entered
by the parties on July 3, 1972 (“1972 Sales
Agreement”), Anaconda sold the zinc fuming plant to
Asarco, and at the same time terminated the lease of
the land from Asarco.67 Under the 1972 Sales
Agreement, Asarco agreed to purchase the zinc fuming
plant, including all facilities, materials, and documents
related to the operation. Anaconda agreed to leave all
operational documents with Asarco at the plant.68

67

Ex. 49.

68

Ex. 49-0002 to 49-0003.

App. 121
62. Article VIII of the 1972 Sales Agreement
contains the following provisions:
1. Except as provided in Paragraph 2 of this
Article, Anaconda with respect to the purchased
assets, agrees to indemnify and hold Asarco
harmless against any and all claims, liabilities,
damages, losses, costs or expenses whatsoever
arising out of or resulting from the ownership
and operation by Anaconda of the purchased
assets prior to the effective date, or any breach
of warranty or misrepresentation by Anaconda,
or the non-performance of any covenant or
obligation to be performed on the part of
Anaconda under this Agreement, or from any
misrepresentation or omission from any
certificate, instrument or paper delivered or to
be delivered by Anaconda to Asarco pursuant to
this Agreement or in connection with the
transactions herein contemplated.
2. Anaconda does not assume responsibility for
any liability or claim of any nature arising out of
the ownership or operation of the purchased
assets after the effective date which may be
asserted by any agency of the State of Montana
or of the United States pursuant to state or
federal laws or regulations relating to
environmental, health, or safety matters, nor
will Anaconda be liable for any cost or expense
incurred in order to affect compliance with any
such law or regulation.
3. Asarco hereby agrees to indemnify and hold
Anaconda harmless against any and all claims,

App. 122
liabilities, damages, losses, costs or expenses
whatsoever arising out of or resulting from the
ownership and operation by Asarco of the
purchased assets after the effective date, or
arising out of or resulting from any nonperformance of any covenant or obligation to be
performed on the part of Asarco under this
Agreement.69
63. Montana law governs interpretation of the 1972
Agreement.
64. If the terms of the contract are clear, the court
must determine the intent of the parties from the
wording of the contract alone. Rich v. Ellingson, 174
P.3d 491, 495 (Mont. 2007) (citing Wray v. State
Compensation Ins. Fund, 879 P.2d 725, 727 (Mont.
1994)).
65. The court must also consider the document as a
whole, giving effect to each part in interpreting it,
rather than attaching a meaning to a single word not
supported by the rest of the document. Mont. Code.
Ann. § 28-3-202.
66. Under the plain language of Article VIII, ¶¶ 1-3
of the 1972 Agreement, Asarco does not assume any
liability, environmental or otherwise, arising out of
Anaconda’s ownership and operation of the facility.70
69

70

Ex. 49-009

Atlantic Richfield urges the Court to consider parole evidence in
interpreting the indemnification paragraphs of the 1972
Agreement. Specifically, Atlantic Richfield refers to a meeting in
1988 between the EPA and Asarco, which was attended by an

App. 123
IV.

ASARCO’S CLAIMS ARE NOT BARRED BY
THE STATUTE OF LIMITATIONS

67. Under the “law of the case” doctrine, a court is
precluded from reexamining an issue previously
decided by the same court, or a higher court, in the
same case. U.S. v. Miller, 822 F.2d 828, 832 (9th
Cir.1987) (“The rule is that the mandate of an appeals
court precludes the district court on remand from
reconsidering matters which were either expressly or
implicitly disposed of upon appeal”).
68. On appeal following this Court’s grant of
summary judgment on statute of limitation grounds,
the Ninth Circuit expressly found that “Asarco has a
cognizable claim for contribution under CERCLA
§ 113(F)(3)(B) because it brought a timely action under
an agreement that resolved its liability.” Asarco LLC v.

Atlantic Richfield attorney, Mr. Spaanstra. According to an ARCO
letter memorializing this meeting, Asarco asked Mr. Spaanstra to
leave the meeting: “Basing that request in part on the fact that
certain private contractual indemnification relationships between
ASARCO and ARCO made ARCO’s presence superfluous and, for
reasons not enumerated, potentially counter-productive.” (Ex. 153.)
Atlantic Richfield argues that the reference to “certain private
contractual relationships” was in fact a reference to the 1972
Agreement, and an acknowledgment by Asarco that the agreement
somehow mitigated Atlantic Richfield’s obligations under
CERCLA. Aside from the fact that the letter is vague at best,
parole evidence is not admissible to modify the terms of an
unambiguous agreement. Having found the agreement
unambiguous, the Court need not resort to parole evidence, and
attaches no weight to the contents of Ex. 153. Mont. Code. Ann.
§ 28-3-303, see also Mary J. Baker Revocable Trust v. Cenex
Harvest St. Cooperatives, Inc. 164 P.3d 851 (Mont. 2007).

App. 124
Atlantic Richfield Co., 866 F.3d 1108, 1129 (9th Cir.
2017).
69. The Ninth Circuit further explained:
We hold that the 1998 RCRA Decree did not
resolve Asarco’s liability for at least some of its
response obligations under that agreement. It
therefore did not give rise to a right to
contribution under CERCLA § 113(f)(3)(B). By
contrast, the 2009 CERCLA Decree did resolve
Asarco’s liability, and Asarco has brought a
timely action for contribution under that
agreement. We therefore vacate the district
court’s grant of summary judgment and remand
for further proceedings consistent with this
opinion. On remand, the district court should
determine whether Asarco is entitled to any
financial contribution from Atlantic Richfield
and, if so, how much.
Id. (emphasis added).
70. The Ninth Circuit’s holding that Asarco brought
a timely contribution claim under CERCLA § 113(f) is
the law of the case, and precludes Atlantic Richfield’s
statute of limitations defense.
V.

ASARCO IS ENTITLED TO RECOVER ITS
ATTORNEY FEES AND COSTS

71. In 1987, the Environmental Protection Agency
and the State of Montana began investigating the
environmental impacts caused by Anaconda’s operation
of its zinc processing facility on Asarco’s property
during the period between 1927 and 1972.

App. 125
72. Anaconda and Atlantic Richfield avoided state
and federal environmental enforcement actions by,
among other conduct, submitting misleading, untrue
and incomplete responses to the EPA’s official
investigatory demands. As a result of Asarco’s
prosecution of this case, Anaconda’s and Atlantic
Richfield’s misconduct has been brought to light.
73. Asarco has incurred attorneys’ fees and costs in
prosecuting this case, which has revealed Anaconda’s
and Atlantic Richfield’s concealment and affirmative
misrepresentations regarding their environmental
impacts at the Site, and established that Atlantic
Richfield and Anaconda caused and contributed arsenic
contamination to the groundwater beneath the Site.
74. If there is a shortfall in available funds to
remediate the groundwater, through Asarco’s advocacy,
EPA and the State of Montana now have evidence and
a record with which to pursue Atlantic Richfield and
Anaconda under CERCLA.
75. A lawyers’ work that is closely tied to the actual
cleanup may constitute a necessary cost of response in
and of itself under the terms of CERCLA § 107(a)(4)(B).
Key Tronic Corp. v. United States, 511 U.S. 809, 820
(1994). Work performed in identifying other potentially
responsible parties falls into this category. Id.
76. The work Asarco’s attorneys have performed to
identify Atlantic Richfield as a potentially responsible
party is a necessary cost of a response.
77. Asarco is entitled to recover its costs and
reasonable attorneys’ fees for its work in refuting
Atlanta Richfield and Anaconda’s untrue

App. 126
representations to federal and state regulators. As a
result of this work, the EPA and the State of Montana
are positioned to pursue each company for any
necessary and additional environmental cleanup costs
related to the Site.
VI.

ASARCO IS ENTITLED TO RECOVER
PREJUDGMENT INTEREST

78. Section 107(a)(4) of CERCLA provides for the
recovery of prejudgment interest, which “shall accrue
from the later of (i) the date payment of a specified
amount is demanded in writing, or (ii) the date of the
expenditure concerned.” 42 U.S.C. § 9607(a)(4).
79. In calculating prejudgment interest, the district
court is entitled to look to “the judgment creditor’s
actual cost of borrowing money or to other reasonable
guideposts indicating a fair level of compensation.”
Bosnor, S.A. De C.V. v. Tug L.A. Barrios, 796 F.2d 776,
786 (5th Cir.1986).
80. On June 5, 2012, Asarco made a written demand
on Atlantic Richfield for payment under CERCLA,
through the filing of a complaint in this action (Doc. 1).
81. Asarco is entitled to recover prejudgment
interest on the amount of Atlantic Richfield’s
calculated equitable share of $28,850,936 ($27,850,936
+ $1 million) at a reasonable rate of return from June
5, 2012.
JUDGMENT
Pursuant to the foregoing Findings of Fact and
Conclusions of Law,

App. 127
IT IS HEREBY ORDERED that Judgment shall be
entered by the Clerk of Court in favor of Plaintiff
Asarco, LLC, and against Defendant Atlantic Richfield
Company as follows:
1. $27,850,936.00, representing Atlantic Richfield’s
equitable share of the response costs Asarco paid
under the June 2009 CERCLA Consent Decree;
2. $1,000,000.00, representing an uncertainty
premium or error factor under the sixth Gore
Factor;
3. Prejudgment interest, to be determined in
subsequent proceedings;71
4. Asarco’s costs of suit and reasonable attorneys’
fees, to be determined in subsequent
proceedings.

71

The Court of Appeals for the Tenth Circuit has explained:
“because interest determinations are compounded calculations, it
may be impossible for parties to provide accurate calculations prior
to the court’s allocation of response cost liability. In such instances,
parties may submit their interest calculations to the court
subsequent to that finding.” Bancamerica Commercial Corp. v.
Mosher Steel of Kansas, Inc., 100 F.3d 792, 802 (10th Cir.),
amended, 103 F.3d 80 (10th Cir. 1996). The Court acknowledges
that Asarco indicated in its Proposed Findings of Fact and
Conclusions of Law that prejudgment interest should be calculated
at 7.5% per annum, however, that percentage has no foundation
and requires documentation relating to the average rate of return
during the time period in question (2012-2018). (Doc. 268 at 75-76.)
Thus, the Court is unable to calculate the appropriate prejudgment
interest at this time. The parties shall meet and confer about the
appropriate prejudgment interest calculation in this case using the
interest rate calculation provided in 26 U.S.C. § 9507(d)(3)(C).

App. 128
5. Asarco shall submit to the Court by Friday, July
13, 2018, its claim for attorneys’ fees and costs,
with all supporting documentation, as well as
briefing and documentation on the prejudgment
interest rate to be applied to the judgment in
this case. Defendant shall filed its response
briefs by July 27, 2018.
DATED this 26th day of June, 2018.
/s/ Dana L. Christensen
Dana L. Christensen, Chief Judge
United States District Court

App. 129

APPENDIX D
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 14-35723
D.C. No. 6:12-cv-00053-DLC
[Filed: August 10, 2017]
__________________________________________
ASARCO LLC, a Delaware corporation,
)
Plaintiff-Appellant,
)
)
v.
)
)
ATLANTIC RICHFIELD COMPANY, a
)
Delaware corporation,
)
Defendant-Appellee.
)
__________________________________________)
OPINION
Appeal from the United States District Court
for the District of Montana
Dana L. Christensen, Chief Judge, Presiding
Argued and Submitted February 8, 2017
Seattle, Washington
Filed August 10, 2017

App. 130
Before: Raymond C. Fisher, Richard A. Paez,
and Consuelo M. Callahan, Circuit Judges.
Opinion by Judge Callahan
SUMMARY*
__________________________________________________
Environmental Law
The panel vacated the district court’s summary
judgment in favor of the defendant in a contribution
action under § 113(f) of the Comprehensive
Environmental Response, Compensation, and Liability
Act.
CERCLA § 113(f) provides that after a party has,
pursuant to a settlement agreement, resolved its
liability for a “response” action or the costs of such an
action, that party may seek contribution from any
person who is not a party to the settlement.
The panel held that a 1998 settlement agreement
under the Resource Conservation and Recovery Act
between the plaintiff and the United States did not
trigger the three-year statute of limitations for the
plaintiff to bring a CERCLA contribution action
concerning the East Helena Superfund Site. Agreeing
with the Third Circuit, and disagreeing with the
Second Circuit, the panel held that a settlement
agreement entered into under an authority other than
CERCLA may give rise to a CERCLA contribution
action. In addition, a “corrective measure” under RCRA
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 131
qualifies as a “response” action under CERCLA. The
plaintiff did not, however, “resolve its liability” under
the 1998 RCRA settlement agreement.
Nonetheless, a later, 2009 agreement, on which the
plaintiff based its present CERCLA contribution action,
did resolve the plaintiff’s liability. Because the plaintiff
filed the present action within the three-year
limitations period measured against entry of the 2009
agreement, it was timely. The panel remanded the case
for further proceedings to determine whether the
plaintiff was entitled to contribution for the response
costs it incurred under the 2009 agreement.
__________________________________________________
COUNSEL
Gregory Evans (argued), Laura G. Brys, and Daphne
Hsu, Integer Law Corporation, Los Angeles, California;
Linda R. Larson, Marten Law PLLC, Seattle,
Washington; for Plaintiff-Appellant.
Shannon Wells Stevenson (argued), William J. Duffy,
and Mave A. Gasaway, Davis Graham & Stubbs LLP,
Denver, Colorado; Elizabeth H. Temkin, Temkin
Wielga & Hardt LLP, Denver, Colorado; Randy J. Cox
and Randy J. Tanner, Boone Karlberg P.C., Missoula,
Montana; for Defendant-Appellee.
__________________________________________________
OPINION
CALLAHAN, Circuit Judge:
Section 113(f)(3)(B) of the Comprehensive
Environmental Response, Compensation, and Liability
Act of 1980 (“CERCLA”) allows persons who have taken

App. 132
actions to clean up hazardous waste sites to seek
monetary contribution from other parties who are also
responsible for the contamination. 42 U.S.C.
§ 9613(f)(3)(B). The provision provides that a person
that has “resolved its liability” for “some or all of a
response action or for some or all of the costs of such
action” pursuant to a settlement agreement with the
government “may seek contribution from any person
who is not party to a settlement.” Id. In other words, “a
[potentially responsible party] that pays money to
satisfy a settlement agreement . . . may pursue § 113(f)
contribution.” United States v. Atl. Research Corp., 551
U.S. 128, 139 (2007). CERCLA imposes a three-year
statute of limitations after entry of a judicially
approved settlement, during which a party may bring
a contribution action. 42 U.S.C. § 9613(g)(3).
This case presents three issues of first impression in
our circuit. First, we must decide whether a settlement
agreement entered into under an authority other than
CERCLA may give rise to a CERCLA contribution
action. Second, we must decide whether a “corrective
measure” under a different environmental statute, the
Resource Conservation and Recovery Act (“RCRA”),
qualifies as a “response” action under CERCLA. And
third, we must decide what it means for a party to
“resolve[] its liability” in a settlement agreement—a
prerequisite to bringing a § 113(f)(3)(B) contribution
action. Our answers to these legal questions guide our
inquiry into whether a 1998 settlement agreement
under RCRA (the “1998 RCRA Decree”) between
Appellant Asarco LLC (“Asarco”) and the United
States, which was approved and entered by a federal
district court, triggered the three-year statute of

App. 133
limitations for Asarco to bring a § 113(f)(3)(B)
contribution action.
In this contribution action against Appellee Atlantic
Richfield Company (“Atlantic Richfield”), the district
court answered the first two questions in the
affirmative but did not address the third. On Atlantic
Richfield’s motion for summary judgment, the district
court concluded that Asarco’s action accrued with entry
of the 1998 RCRA Decree. Because Asarco brought its
action in 2012—well beyond the three-year statute of
limitations under CERCLA—the district court
determined that its claim was time-barred.
We agree with the district court on the first two
issues but, as to the third, conclude that Asarco did not
“resolve[] its liability” under the 1998 RCRA Decree.
Asarco therefore could not have brought its
contribution action in 1998, and the statute of
limitations did not begin to run with entry of the 1998
RCRA Decree. By contrast, a later, 2009 agreement, on
which Asarco bases its present contribution action, did
resolve Asarco’s liability. And because Asarco filed that
action within the three-year limitations period
measured against entry of the 2009 agreement, it is
also timely. The district court therefore erred in
dismissing Asarco’s action on statute of limitations
grounds. Accordingly, we vacate the district court’s
judgment and remand for further proceedings to
determine whether Asarco is entitled to contribution
for the response costs it incurred under the 2009
agreement.

App. 134
I. Factual Background
The East Helena Superfund Site (the “Site”) is
located in and around an industrial area in Lewis and
Clark County, Montana. The Site includes the City of
East Helena, Asarco’s former lead smelter, and a
nearby zinc fuming plant that was operated by Atlantic
Richfield’s predecessor, Anaconda Mining Company
(“Anaconda”), and later by Asarco.
The Site has been a locus of industrial production
for more than a century, resulting in decades of
hazardous waste releases. The lead smelter, which
Asarco operated from 1888 until 2001, discharged toxic
compounds into the air, soil, and water, such as lead,
arsenic, and other heavy metals. Asarco alleges that
the zinc fuming plant, which Anaconda operated from
1927 to 1972, also contributed to the contamination.
Asarco purchased the zinc fuming plant in 1972 and
apparently ceased operations in 1982.1 In 1984, the
United States Environmental Protection Agency
(“EPA”) added the Site to the National Priorities List
under CERCLA.
In the late 1980s, EPA identified Asarco and
Anaconda as potentially responsible parties (“PRPs”)
under CERCLA, meaning—in CERCLA vernacular—
that they bore at least some responsibility for the
contamination. See 42 U.S.C. § 9607(a). EPA sought
remedial action only from Asarco, which resulted in
1

It is unclear whether the plant remains active. Asarco and
Atlantic Richfield both contend that the plant ceased operations in
1982, but the parties rely on authority from 1997, which states
that “Asarco continues to operate the zinc fuming plant.”

App. 135
three CERCLA settlements between Asarco and the
United States in the late 1980s and early 1990s. Those
early settlements are not at issue in this litigation.
In 1998, the United States brought claims against
Asarco for civil penalties and injunctive relief under
RCRA and the Clean Water Act (“CWA”). The
complaint alleged that Asarco had illegally disposed of
hazardous waste at the Site, and sought an order
requiring Asarco to, inter alia, “conduct corrective
action pursuant to Section 3008(h) of RCRA, 42 U.S.C.
§ 6928(h) . . . .” A “corrective action” under RCRA is a
type of “response measure” necessary to protect human
health or the environment, see 42 U.S.C. § 6928(h), and
is “designed to clean up contamination,” J. Stanton
Curry, James J. Hamula, Todd W. Rallison, The
Tug-of-War Between RCRA and CERCLA at
Contaminated Hazardous Waste Facilities, 23 Ariz. St.
L.J. 359, 369 (1991).
Asarco settled the case with the United States. The
settlement agreement was approved by the federal
district court in Montana, and entered on the court’s
docket as a consent decree. The 1998 RCRA Decree
assessed civil penalties against Asarco and also
required Asarco to take certain remedial actions to
address past violations. Those actions included
“[c]orrective [m]easures” to, inter alia, “remediate,
control, prevent, or mitigate the release, potential
release or movement of hazardous waste or hazardous
constituents into the environment or within or from
one media to another.”
Despite the 1998 RCRA Decree’s lofty goals, Asarco
failed to meet its cleanup obligations. Further

App. 136
complicating matters, in 2005 Asarco filed for Chapter
11 bankruptcy protection. The United States and
Montana filed proofs of claim in the bankruptcy
proceeding asserting joint and several liability claims
under CERCLA. On June 5, 2009, the bankruptcy court
entered a consent decree under CERCLA (the
“CERCLA Decree”) between Asarco, the United States,
and Montana. The CERCLA Decree established a
custodial trust for the Site, and turned over cleanup
responsibility to a trustee. As part of the agreement,
Asarco paid $99.294 million (plus other expenses),
which, inter alia, “fully resolved and satisfied” its
obligations under the 1998 RCRA Decree.2
II. Procedural Background
On June 5, 2012, Asarco brought an action against
Atlantic Richfield under CERCLA § 113(f)(3)(B),
seeking contribution for its financial liability under the
CERCLA Decree. Atlantic Richfield filed a motion for
summary judgment, arguing that Asarco’s action was
untimely because the three-year statute of limitations
under § 113 began running with the 1998 RCRA
Decree. Asarco countered that “RCRA, a statute that
does not authorize contribution claims, [cannot] trigger
the limitations period under another law, CERCLA.”
Asarco also argued that the CERCLA Decree created
“new” and “different” work obligations from the 1998
RCRA Decree, thereby triggering a new statute of
limitations period for at least the costs associated with
those new obligations.

2

Asarco also paid $5 million to Montana to settle a claim for
natural resource damages.

App. 137
The district court granted summary judgment for
Atlantic Richfield and dismissed the case. It concluded
that the plain language of CERCLA § 113(f)(3)(B)
requires only that a settlement agreement address a
“response action,” not that it be entered into under
CERCLA. The court also determined that Asarco had
incurred response costs under the 1998 RCRA Decree,
and therefore held that the 1998 RCRA Decree
provided the necessary predicate for a CERCLA
contribution action. Finally, the court rejected Asarco’s
argument that the CERCLA Decree contained matters
not addressed by the 1998 RCRA Decree. Accordingly,
it held that the CERCLA Decree did not reset the
statute of limitations for any response costs incurred
under that agreement, and deemed Asarco’s claim for
contribution untimely. Asarco appealed.
III. Statutory Context
Congress enacted CERCLA in 1980 with two goals
in mind: (i) to encourage the “‘expeditious and efficient
cleanup of hazardous waste sites,’” and (ii) to ensure
that those responsible for hazardous waste
contamination pay for the cleanup. Carson Harbor
Vill., Ltd. v. Unocal Corp., 270 F.3d 863, 880 (9th Cir.
2001) (en banc) (quoting Pritkin v. Dep’t of Energy, 254
F.3d 791, 795 (9th Cir. 2001)); see S. Rep. No. 96–848,
at 13 (1980). Hazardous waste sites—also known as
Superfund sites—contain toxic substances often
deposited by multiple entities. See 42 U.S.C.
§ 9607(a)(1)–(4). In order to spread responsibility
among those entities, Congress included a provision in
CERCLA providing for reimbursement of costs incurred
by the government or a liable PRP. Section 107(a)

App. 138
provides a cause of action for a “cost recovery” claim
against PRPs for a wide range of expenses, including
“‘any . . . necessary costs of response incurred’” that
result from a release of a hazardous substance.
Whittaker Corp. v. United States, 825 F.3d 1002, 1006
(9th Cir. 2016) (quoting 42 U.S.C. § 9607(a)).
“Response” is a term of art under CERCLA and
means “remove, removal, remedy, and remedial action.”
42 U.S.C. § 9601(25). Congress even gave those
defining terms their own definitions. A “removal”
means, inter alia, “the cleanup or removal of released3
hazardous substances from the environment” and any
actions that may be necessary “in the event of the
threat of release of hazardous substances into the
environment.” Id. § 9601(23). A “remedial action”
means, inter alia, “actions consistent with permanent
remedy taken instead of or in addition to removal
actions . . . to prevent or minimize the release of
hazardous substances so that they do not migrate to
cause substantial danger to present or future public
health or welfare or the environment.” Id. § 9601(24).
Put simply, a “response action” covers a broad array of
cleanup activities.
Section 107(a) is limited to recovery of response
costs the suing PRP itself directly incurred. See Atl.
Research, 551 U.S. at 139 (“[Section] 107(a) permits
3

With exceptions, a “release” under CERCLA means “any spilling,
leaking, pumping, pouring, emitting, emptying, discharging,
injecting, escaping, leaching, dumping, or disposing into the
environment (including the abandonment or discarding of barrels,
containers, and other closed receptacles containing any hazardous
substance or pollutant or contaminant) . . . .” 42 U.S.C. § 9601(22).

App. 139
recovery of cleanup costs but does not create a right to
contribution.”). At the time of enactment, CERCLA
included no express right to contribution for a PRP that
did not itself incur response costs, but that reimbursed
another party that did incur response costs. See Cooper
Indus., Inc. v. Aviall Servs., Inc., 543 U.S. 157, 162
(2004). Such a situation arises under two
circumstances: (i) where the PRP is the defendant in a
CERCLA § 106 or § 107(a) action and a money
judgment issues against it; or, as with the CERCLA
Decree in the matter before us, (ii) where the PRP pays
the United States’ or a State’s response costs pursuant
to a settlement agreement. See id. at 160–61; Atl.
Research, 551 U.S. at 138–39; Whittaker, 825 F.3d at
1006–07.
Congress added an express right to contribution
with the Superfund Amendments and Reauthorization
Act of 1986 (“1986 CERCLA Amendments”), Pub. L.
No. 99–499, to address these two circumstances. See
Atl. Research, 551 U.S. at 132. Section 113(f)(1)
captures the first, and provides that “[a]ny person may
seek contribution from any other person who is liable
or potentially liable under [§ 107(a)] of this title, during
or following any civil action . . . under [§ 106 or
§ 107(a)] of this title.” 42 U.S.C. § 9613(f)(1). Section
113(f)(1) is not at issue in the instant matter, but, as
discussed infra in Part IV.A, it is relevant to resolving
the first issue we must decide: whether the 1998 RCRA
Decree may give rise to a CERCLA contribution action.
Section 113(f)(3)(B), which is directly at issue, captures
the second scenario, and provides that

App. 140
[a] person who has resolved its liability to the
United States or a State for some or all of a
response action or for some or all of the costs of
such action in an administrative or judicially
approved settlement may seek contribution from
any person who is not party to a settlement [that
immunizes such person from a contribution
action].
Id. § 9613(f)(3)(B). In other words, “a PRP that pays
money to satisfy a settlement agreement or a court
judgment may pursue § 113(f) contribution.” Atl.
Research, 551 U.S. at 139; see Cooper, 543 U.S. at 163,
167 (recognizing that § 113(f)(1) and § 113(f)(3)(B) set
forth separate rights of contribution).
While § 107(a) cost recovery actions and § 113(f)
contribution actions offer “complementary yet distinct”
remedies, there is overlap between them. Atl. Research,
551 U.S. at 138, 139 n.6. For example, a PRP may
undertake its own response actions pursuant to a
settlement agreement with the government. See id.
That PRP will have incurred its own response costs,
meaning it is eligible for cost recovery under § 107(a),
but it has also settled with the government, giving rise
to a contribution action under § 113(f)(3)(B). The
question is whether both or only one of these avenues
of relief is available. Our circuit, and “every federal
court of appeals to have considered the question since
Atlantic Research,” has concluded that “a party who
may bring a contribution action for certain expenses
must use the contribution action [under § 113(f)(3)(B)],
even if a cost recovery action [under § 107(a)] would
otherwise be available.” Whittaker, 825 F.3d at 1007

App. 141
(emphasis in original); see, e.g., Bernstein v. Bankert,
733 F.3d 190, 206 (7th Cir. 2013) (party may not
pursue cost recovery claim where a contribution claim
is available); Solutia, Inc. v. McWane, Inc., 672 F.3d
1230, 1236–37 (11th Cir. 2012) (same); Morrison
Enters., LLC v. Dravo Corp., 638 F.3d 594, 603–04 (8th
Cir. 2011) (same); Agere Sys., Inc. v. Advanced Envtl.
Tech. Corp., 602 F.3d 204, 229 (3d Cir. 2010) (same);
Niagara Mohawk Power Corp. v. Chevron U.S.A., Inc.,
596 F.3d 112, 128 (2d Cir. 2010) (same); ITT Indus.,
Inc. v. BorgWarner, Inc., 506 F.3d 452, 458 (6th Cir.
2007) (same). Thus, a PRP that incurs its own response
costs pursuant to a settlement agreement may only
bring a claim for contribution.
Sections 107(a) and 113(f) have different statutes of
limitations periods. An action for “recovery of . . . costs”
under § 107(a) “must be commenced . . . within 6 years
after initiation of physical on-site construction of the
remedial action” or “within 3 years after the completion
of the removal action.” 42 U.S.C. § 9613(g)(2)(A), (B).
An action for contribution of “response costs or
damages” under § 113(f), by contrast, “may be
commenced” no more than “3 years after . . . the date of
. . . entry of a judicially approved settlement with
respect to such costs or damages.” Id. § 9613(g)(3)(B).4
The shorter three-year limitations period for

4

When comparing the limitations periods for §§ 107(a) and 113(f),
courts generally interpret the limitations period for § 107(a)
recovery actions to be a uniform six years, not six years or three
years. See, e.g., Florida Power Corp. v. FirstEnergy Corp., 810 F.3d
996, 1006 (6th Cir. 2015); Consol. Edison Co. v. UGI Utils., 423
F.3d 90, 98 (2d Cir. 2005).

App. 142
contribution actions is intended “to ensure that the
responsible parties get to the bargaining—and cleanup—table sooner rather than later.” RSR Corp. v.
Commercial Metals Co., 496 F.3d 552, 559 (6th Cir.
2007); see Whittaker, 825 F.3d at 1013 (Owens, J.,
concurring in part) (observing that § 113(f) was
intended to “‘bring[] all such responsible parties to the
bargaining table at an early date’” (quoting H.R. Rep.
(Energy and Commerce Committee) No. 99–253, pt. 1,
at 80 (1985),5 reprinted in 1986 U.S.C.C.A.N. 2835,
2862)).
IV. Discussion
Asarco’s action is untimely if it could have brought
a contribution action after judicial approval and entry
of the 1998 RCRA Decree. Such would be the case if
three conditions are met: (i) a non-CERCLA authority
5

With a wary eye trained on the potential pitfalls of gleaning
congressional intent from legislative history, we note that the
version of the bill to which H.R. Rep. No. 99-253 refers, H.R. 2817,
included a contribution provision substantially similar to the final
version included in the enacted statute. That bill, which was
introduced in the House of Representatives on June 20, 1985, and
which remained the same in relevant part when reported out of the
House Committee on Energy and Commerce, contained a
contribution provision stating in part:
Nothing in this subsection shall affect or modify in any
way the rights of . . . any person that has resolved its
liability to the United States or a State in a good-faith
settlement, to seek contribution or indemnification against
any persons who are not party to a settlement [with the
United States or a State in a judicially approved good-faith
settlement].
H.R. 2817, 99th Cong. § 113 (June 20, 1985).

App. 143
may give rise to a CERCLA contribution action,
(ii) Asarco took a response action or incurred response
costs under the 1998 RCRA Decree, and (iii) the 1998
RCRA Decree resolved Asarco’s liability for at least
some of those response actions or costs. The district
court analyzed the first two conditions but not the
third. We evaluate all three issues.
Our review of the district court’s grant of summary
judgment is de novo, as is our review of the court’s
determination that Asarco’s contribution claim under
the CERCLA Decree is barred by the statute of
limitations. Hernandez v. Spacelabs Med. Inc., 343 F.3d
1107, 1112 (9th Cir. 2003). Our review of the district
court’s interpretation of the RCRA and CERCLA
Decrees is also de novo, except that we defer to any
factual findings unless they are clearly erroneous. City
of Emeryville v. Robinson, 621 F.3d 1251, 1261 (9th Cir.
2010).
A. A Non-CERLCA Settlement Agreement May
Form the Basis for a CERCLA Contribution
Action
1.
We begin by considering whether § 113(f)(3)(B)
applies to non-CERCLA settlement agreements. “As in
any case of statutory construction our analysis begins
with the language of the statute.” Hughes Aircraft Co.
v. Jacobson, 525 U.S. 432, 438 (1999) (internal
quotation marks omitted). But it does not end there.
We must heed the “fundamental canon of statutory
construction that the words of a statute must be read
in their context and with a view to their place in the

App. 144
overall statutory scheme.” FDA v. Brown & Williamson
Tobacco Corp., 529 U.S. 120, 133 (2000) (internal
quotation marks omitted). “A statutory provision that
may seem ambiguous in isolation is often clarified by
the remainder of the statutory scheme . . . because only
one of the permissible meanings produces a substantive
effect that is compatible with the rest of the law.” Util.
Air Regulatory Grp. v. EPA, 134 S. Ct. 2427, 2442
(2014) (alteration in original and internal quotation
marks omitted).
The plain text of § 113(f)(3)(B) is unilluminating. A
“response” action is a defined term under CERCLA, but
it is unclear from the text of § 113(f)(3)(B) whether it is
a CERCLA-exclusive term. See 42 U.S.C. § 9601(25). In
the same vein, § 113(f)(3)(B) requires a PRP to enter
into a settlement agreement that is “administrative[ly]
or judicially approved,” but the text says nothing about
whether the agreement must settle CERCLA claims in
particular. See id. § 9613(f)(3)(B).
Expanding our analysis to the broader context of the
statute, we consider § 113(f)(3)(B)’s companion
provision, § 113(f)(1). That section expressly requires a
CERCLA predicate by providing that “[a]ny person may
seek contribution from any other person who is liable
or potentially liable under [§ 107(a)] of this title, during
or following any civil action under [§ 106] of this title or
under [§ 107(a)] of this title.” Id. § 9613(f)(1) (emphasis
added). “Where Congress includes particular language
in one section of a statute but omits it in another
section of the same Act, it is generally presumed that
Congress acts intentionally and purposely in the
disparate inclusion or exclusion.” Russello v. United

App. 145
States, 464 U.S. 16, 23 (1983) (internal quotation
marks omitted). Applying this principle here, Congress’
express requirement of a CERCLA predicate in
§ 113(f)(1) and its absence in § 113(f)(3)(B) is strong
evidence that Congress intended no such predicate in
the latter provision.
Our understanding of § 113(f)(3)(B) is consistent
with CERCLA’s broad remedial purpose. “In
ascertaining the meaning of an ambiguous [statutory]
term, we may use canons of statutory construction,
legislative history, and the statute’s overall purpose to
illuminate Congress’s intent.” Probert v. Family
Centered Servs. of Alaska, Inc., 651 F.3d 1007, 1011
(9th Cir. 2011) (internal quotation marks omitted).
With the 1986 CERCLA Amendments, Congress sought
to get parties to the negotiating table early to allocate
responsibility for cleaning up contaminated sites. H.R.
Rep. No. 99–253, pt. 1, at 80. Granting a settling party
a right to contribution from non-settling PRPs provides
a strong incentive to settle and initiate cleanup.
Congress gave no indication that it matters whether
the authority governing the settlement is CERCLA or
something else. Its focus was, instead, on cleaning up
hazardous waste sites. An interpretation that limits
the contribution right under § 113(f)(3)(B) to CERCLA
settlements would undercut private parties’ incentive
to settle (except, of course, where the agreement was
entered into under CERCLA), thereby thwarting
Congress’ objective and doing so without reaping any
perceptible benefit.
Our interpretation also aligns with EPA’s own view.
In Niagara Mohawk Power Corp. v. Chevron, U.S.A.,

App. 146
Inc., 596 F.3d 112 (2d Cir. 2010), EPA argued that
“‘settlement of federal and state law claims other than
those provided by CERCLA fits within § 113(f)(3)(B) as
long as the settlement involves a cleanup activity that
qualifies as a “response action” within the meaning of
CERCLA § 101(25), 42 U.S.C. § 9601(25).’” Id. at 126
n.15 (quoting Brief for the United States as Amicus
Curiae Supporting Appellant at 15). “[EPA’s] views, as
expressed in [its amicus] brief, are persuasive because
[its] reasoning is consistent with the statutory
language,” statutory context, and CERCLA’s overall
structure and purpose. See Van Asdale v. Int’l Game
Tech., 763 F.3d 1089, 1093 (9th Cir. 2014) (deferring to
the Secretary of Labor’s amicus brief). Its
interpretation therefore merits some deference. See
Skidmore v. Swift & Co., 323 U.S. 134, 140 (1944)
(deference to an agency’s interpretation depends on
“the thoroughness evident in its consideration, the
validity of its reasoning, its consistency with earlier
and later pronouncements, and all [other] factors which
give it power to persuade”); see also Fed. Exp. Corp. v.
Holowecki, 552 U.S. 389, 401–02 (2008) (according an
agency’s non-binding interpretation Skidmore
deference where the interpretation was “consistent
with the statutory framework” and the statute was
susceptible to “[n]o clearer alternatives”).
2.
Whether a non-CERLCA settlement agreement may
give rise to a contribution action has split the circuits.
In Trinity Industries, Inc. v. Chicago Bridge & Iron Co.,
735 F.3d 131 (3d Cir. 2013), the Third Circuit arrived
at the conclusion we adopt here in evaluating a

App. 147
settlement agreement entered into under state law,
reasoning that “Section 113(f)(3)(B) does not state that
the ‘response action’ in question must have been
initiated pursuant to CERCLA.” Id. at 136. Trinity
relied on that court’s prior holding in United States v.
Rohm & Haas Co., 2 F.3d 1265 (3d Cir. 1993),
overruled on other grounds by United States v. E.I.
Dupont De Nemours & Co., 432 F.3d 161 (3d Cir. 2005)
(en banc), where it held that CERCLA § 107(a)—which
provides a cause of action for recovery of response
costs—was available “even when the waste removal
[wa]s not undertaken pursuant to CERCLA.” Trinity,
735 F.3d at 136. In Rohm & Haas, as in the matter
before us, the remedial action was taken under RCRA.
2 F.3d at 1267. The court in Rohm & Haas noted that
§ 107(a) lacks any “CERCLA-specific requirement,” and
concluded that
given the similarity of the provisions of RCRA
and CERCLA authorizing EPA to order private
parties to conduct corrective activity, we fail to
perceive any reason why Congress might have
wished to make government oversight expenses
recoverable if the government invoked CERCLA
statutory authority, but not if it invoked RCRA.
Id. at 1275.
The Second Circuit has gone the other way. In
Consolidated Edison Co. of N.Y., Inc. v. UGI Utilities,
Inc., 423 F.3d 90, 95 (2d Cir. 2005), the court held that
§ 113(f)(3)(B) creates a “contribution right only when
liability for CERCLA claims . . . is resolved.” That case,
like Trinity, involved a party’s § 113(f)(3)(B)
contribution action to recoup costs spent pursuant to a

App. 148
settlement agreement under state law. Id. at 96. But
unlike Trinity, the Second Circuit read the term
“response action” to be a “CERCLA-specific term,” and
relied on a House of Representatives Committee report
for the 1986 CERCLA Amendments creating § 113. Id.
at 95–96. That report states that § 113 “‘clarifies and
confirms the right of a person held jointly and severally
liable under CERCLA to seek contribution from other
potentially liable parties.’” Id. (quoting H.R. Rep. No.
99–253, pt. 1, at 79) (emphasis in opinion).6
The Second Circuit’s approach is not persuasive and
may be shifting. First, the court misreads the pertinent
legislative history. Consolidated Edison relied on a
portion of the House report that is specific to § 113(f)(1)
for the proposition that Congress intended to require a
CERCLA predicate under § 113(f)(3)(B). See 423 F.3d
at 96; H.R. Rep. No. 99–253, pt. 1, at 79. But, as
previously noted, those two provisions diverge in a
crucial way: § 113(f)(1) expressly requires that a party
first be sued under CERCLA before bringing a
contribution action, whereas § 113(f)(3)(B) makes no
reference to CERCLA at all. Second, in a subsequent
case, Niagara Mohawk, the Second Circuit indicated
agreement with EPA’s position that a CERCLA-specific
settlement agreement is not necessary to maintain a
§ 113(f)(3)(B) contribution action. 596 F.3d at 126 n.15.
6

Several district courts—including one in the Ninth Circuit —have
agreed with the Second Circuit’s approach. See, e.g., Differential
Dev.-1994, Ltd. v. Harkrider Distrib. Co., 470 F. Supp. 2d 727,
739–43 (S.D. Tex. 2007); ASARCO, Inc. v. Union Pac. R.R. Co., No.
CV 04-2144-PHX-SRB, 2006 WL 173662, at *7–9 (D. Ariz. Jan. 24,
2006); City of Waukesha v. Viacom Int’l Inc., 404 F. Supp. 2d 1112,
1115 (E.D. Wis. 2005).

App. 149
While the court addressed a distinct issue, and so did
not have an opportunity to revisit its holding in
Consolidated Edison, it commented that EPA
“understandably takes issue with our holding in
Consolidated Edison.” Id.
We agree with the Third Circuit. Consideration of
CERCLA’s statutory context, structure, and broad
remedial purpose, combined with EPA’s reasonable
interpretation, lead us to the inexorable conclusion that
Congress did not intend to limit § 113(f)(3)(B) to
response actions and costs incurred under CERCLA
settlements. We therefore hold that a non-CERLCA
settlement agreement may form the necessary
predicate for a § 113(f)(3)(B) contribution action. We
turn next to considering whether the 1998 RCRA
Decree is such an agreement.
B. The 1998 RCRA Decree Required Asarco to
Take “Response” Actions
The second condition necessary for the 1998 RCRA
Decree to have triggered Asarco’s ability to bring a
§ 113(f)(3)(B) contribution action is that the agreement
required Asarco to take response actions or incur
response costs. Asarco suggests that the 1998 RCRA
Decree did not actually require any response actions,
but was instead focused on assessing penalties for
RCRA violations, such as noncompliance with RCRA’s
land disposal restrictions. Asarco argues that the
agreement “at best” only resolved “Asarco’s liability for
civil penalties stemming from alleged operating
violations.” The district court barely acknowledged this
issue.

App. 150
Asarco dramatically understates the scope of its
obligations under the Decree. The agreement clearly
required Asarco to take response actions to clean up
hazardous waste at the Site. Specifically, the 1998
RCRA Decree obligated Asarco to:
• Implement interim measures to “control or
abate[] . . . imminent threats to human
health and/or the environment”;
• Prevent or minimize the spread of hazardous
waste “while long-term corrective measure
alternatives are being evaluated”;
• Remove and dispose of contaminated soil and
sediment at the Site; and, more generally, to
• Fulfill the Decree’s “remedial objectives” and
“remedial activities”—specifically by
(i) implementing “corrective measures” to
“reduce levels of hazardous waste or
hazardous constituents to applicable
standards”; (ii) remediating “any
contamination in groundwater, surface water
and soils, and the ore storage areas”;
(iii) taking actions that “will result in the
remediation of contaminated media”; and
(iv) “provid[ing] the minimum level of
exposure to contaminants and the maximum
reduction in exposure.”
The agreement’s requirement that Asarco take
various “corrective measures” is particularly
noteworthy because RCRA expressly defines “corrective
action” as a type of “response” action: Under RCRA,
EPA “may issue an order requiring corrective action or

App. 151
such other response measure as [it] deems necessary to
protect human health or the environment.”7 42 U.S.C.
§ 6928(h) (emphasis added). In short, we hold that the
1998 RCRA Decree included response actions for
purposes of bringing a CERCLA § 113(f)(3)(B) action.
C. Asarco Did Not “Resolve Its Liability” Under
the 1998 RCRA Decree
The third condition necessary for the 1998 RCRA
Decree to have triggered Asarco’s ability to bring a
§ 113(f)(3)(B) contribution action is that the agreement
“resolved its liability to the United States or [Montana]
for some or all of” its response action or the “costs of
such action” in the 1998 RCRA Decree. See 42 U.S.C.
§ 9613(f)(3)(B). Asarco argues that it did not, and
therefore the statute of limitations to bring the instant
action did not expire three years later, in 2001.
1.
Atlantic Richfield contends that Asarco waived this
argument by not raising it in the district court, and
that we should therefore not consider it. Atlantic
Richfield is correct that Asarco failed to raise this
precise issue below. Waiver, however, is not an
absolute bar to our consideration of arguments on
appeal. See In re Mercury Interactive Corp. Sec. Litig.,
618 F.3d 988, 992 (9th Cir. 2010). We may reach an
otherwise waived issue in three circumstances: (i) to
prevent a miscarriage of justice or preserve the
integrity of the judicial process, (ii) when a new issue
7

We do not suggest that other authorities that lack the term
“response” could not support a § 113(f)(3)(B) contribution action.

App. 152
arises on appeal because of a change in the law, and
(iii) “‘when the issue presented is purely one of law and
either does not depend on the factual record developed
below, or the pertinent record has been fully
developed.’” Id. (quoting Bolker v. Comm’r, 760 F.2d
1039, 1042 (9th Cir. 1985)).
Determining whether Asarco “resolved its liability”
under the 1998 RCRA Decree falls into the first and
third categories. If Asarco did not, as it contends,
resolve its liability under the 1998 RCRA Decree, then
justice would not be served by upholding the district
court’s decision. The correct interpretation of the
phrase “resolved its liability” is also a pure question of
law. While deciding whether Asarco “resolved its
liability” requires application of the law to the
particular terms of the 1998 RCRA Decree, those terms
are not in dispute and the record requires no further
development. Moreover, deciding this issue will bring
certainty to the state of the law in the Ninth Circuit
and thereby “‘preserve the integrity of the judicial
process.’” Id. We therefore proceed to the merits.
2.
As we did in Part IV.A, supra, we begin our analysis
with the plain text of the statute. Hughes, 525 U.S. at
438. Where Congress has not defined specific statutory
terms, we look to their ordinary meanings. Carcieri v.
Salazar, 555 U.S. 379, 388 (2009). The commonly
understood meaning of “resolve” is “to deal with
successfully,” “reach a firm decision about,” or to “work
out the resolution of” something. Resolve, MerriamWebster Online Dictionary, https://www.merriamwebster.com/dictionary/resolve (last accessed July 13,

App. 153
2017). Black’s Law Dictionary similarly defines the
term to mean “to find an acceptable or even satisfactory
way of dealing with (a problem or difficulty).” Resolve,
Black’s Law Dictionary 1504 (10th ed. 2014). Implicit
in these definitions is an element of finality. If the
parties reach a “firm decision about” liability, then the
question of liability is not susceptible to further dispute
or negotiation. As the Seventh Circuit explained in
interpreting the same statutory provision, “[a]n issue
which is ‘resolved’ is an issue which is decided,
determined, or settled—finished, with no need to
revisit.” Bernstein, 733 F.3d at 211. “To meet the
statutory trigger for a contribution action under
§ 9613(f)(3)(B), the nature, extent, or amount of a
PRP’s liability must be decided, determined, or settled,
at least in part, by way of agreement with the EPA.” Id.
at 212 (emphasis in original).
But even if an agreement decides with finality the
scope of a PRP’s legal exposure and obligations, is its
liability “resolved” where the government reserves
certain rights, or where the party refuses to concede
liability? For example, the statutory provision setting
forth EPA’s settlement authority allows EPA to include
a covenant not to sue in a settlement agreement. 42
U.S.C. § 9622(f). But such covenant must be
conditioned on a PRP’s completed performance. Section
122(f)(3) provides that
[a] covenant not to sue concerning future
liability to the United States shall not take effect
until the President certifies that remedial action
has been completed in accordance with the

App. 154
requirements of this chapter at the facility that
is the subject of such covenant.
Id. § 9622(f)(3). EPA must therefore preserve its ability
to bring an enforcement action even after the
settlement agreement is executed. This requirement is
reflected in EPA’s model CERCLA consent decree,
which provides that “covenants not to sue are
conditioned upon the satisfactory performance by
Settling Defendants of their obligations under this
Consent Decree.” Superfund Program; Revised Model
CERCLA RD/RA Consent Decree, 60 Fed. Reg. 38,817,
38,833 (July 28, 1995). Similarly, EPA has, in the past,
included in settlement agreements releases from
liability that are conditioned on a PRP’s completed
performance. See, e.g., Bernstein, 733 F.3d at 212–13;
Florida Power Corp. v. FirstEnergy Corp., 810 F.3d
996, 1004 (6th Cir. 2015); RSR, 496 F.3d at 558.
Furthermore, parties often expressly refuse to concede
liability under a settlement agreement, even while
assuming obligations consistent with a finding of
liability.
The Sixth and Seventh Circuits have decided that
these reservations of rights tip the scales against a
finding that a party has resolved its liability. In
Bernstein, the Seventh Circuit held that settling PRPs
had not resolved their liability where (i) the agreement
expressly stated that the PRPs had not conceded
liability; (ii) EPA reserved its right to “seek legal [] or
equitable relief to enforce the terms of the
[agreement]”; and (iii) EPA only “conditionally
promised to release the [PRPs] from liability” upon the
PRPs’ “complete performance, as well as certification

App. 155
thereof.” 733 F.3d at 212–13 (emphasis in original). In
rejecting the PRPs’ argument that the agreement’s
covenant not to sue amounted to the requisite
resolution, the court reasoned that because the release
from liability was conditioned on completed
performance, the covenant could only take effect when
“performance was complete.” Id. at 212.
The Sixth Circuit conducted a similar analysis in
ITT Industries. 506 F.3d 452. The court found no
resolution of liability where (i) EPA reserved its right
to bring legal action for failure to comply with the
agreement or for past, present, or future response
costs; and (ii) the agreement expressly stated that the
PRP did not concede liability. Id. at 459–60. And more
recently, in Florida Power, the Sixth Circuit found no
resolution where (i) EPA reserved its right to bring a
CERCLA enforcement action for violations of the
agreement; (ii) the agreement expressly stated that the
PRP “shall have resolved [its] liability to EPA” only
“[f]ollowing satisfaction of the requirements of this
Consent Order”; (iii) the agreement provided that
“participation of [the PRP] in this Order shall not be
considered an admission of liability”; and (iv) the
agreement was not titled an “administrative
settlement.” 810 F.3d at 1004.
By comparison, in Hobart Corp. v. Waste
Management of Ohio, Inc., 758 F.3d 757 (6th Cir. 2014),
the Sixth Circuit held that a PRP had resolved its
liability where the agreement (i) stated that, “for
purposes of Section 113(f)(3)(B) . . . [the PRPs] have, as
of the Effective Date, resolved their liability to the
United States”; (ii) immunized the settling parties from

App. 156
contribution actions as of the Effective Date;
(iii) included the title, “Administrative Settlement
Agreement”; and (iv) contained a covenant prohibiting
EPA from suing under CERCLA “[i]n consideration of
the actions that will be performed and the payments
that will be made by [the PRPs] under the terms of
th[e] Settlement Agreement.” Id. at 768–69 (emphasis
added and omitted). Yet, as pointed out by the dissent
in Florida Power, the agreement in Hobart also
included a broad reservation of rights, specifying that
“nothing herein shall prevent U.S. EPA . . . from taking
other legal or equitable action as it deems appropriate
or necessary.” Florida Power, 810 F.3d at 1016
(Suhrheinrich, J., dissenting) (internal quotation
marks omitted). Similar provisions precluded a finding
that the parties had resolved their liability in ITT and
Florida Power, thus creating what appears to be an
inconsistent approach within the Sixth Circuit.
Further complicating the law in the Sixth Circuit is
an earlier case, RSR, in which the court held that the
PRP’s promise of future performance “resolved [its]
liability to the United States” because RSR “agree[d] to
assume all liability (vis-à-vis the United States) for
future remedial actions.” 496 F.3d at 558 (emphasis in
original). But, as noted again by the dissent in Florida
Power, the agreement at issue in RSR also included a
covenant not to sue conditioned on a Certification of
Completion of Remediation Action issued by EPA.
Florida Power, 810 F.3d at 1012 (Suhrheinrich, J.,
dissenting); see id. (contemplating that the covenant
might “not take effect until the remedial action was
complete”). The RSR court indicated that a promise of

App. 157
future performance in an agreement suffices to
constitute resolution of liability. See 496 F.3d at 558.
We adopt a meaning of the phrase “resolved its
liability” that falls somewhere in the middle of these
various cases. We conclude that a settlement
agreement must determine a PRP’s compliance
obligations with certainty and finality. See Bernstein,
733 F.3d at 211–12 (“An issue which is ‘resolved’ is an
issue which is decided, determined, or settled—
finished, with no need to revisit.”); see also Florida
Power, 810 F.3d at 1002–03. However, we disagree
with the Sixth and Seventh Circuits’ holdings in
Florida Power and Bernstein that the government must
divest itself of its ability to enforce an agreement’s
terms. If a covenant not to sue conditioned on
completed performance negated resolution of liability,
then it is unlikely that a settlement agreement could
ever resolve a party’s liability. That is because
CERCLA prevents a covenant not to sue from “tak[ing]
effect until the President certifies that remedial action
has been completed . . . .” 42 U.S.C. § 9622(f)(3); see 60
Fed. Reg. at 38,833 (model consent decree, conditioning
a covenant not to sue on completed performance).
Nor do we agree—as the court held in
Bernstein—that a release from liability conditioned on
completed performance defeats “resolution.” An
agreement may “resolve[]” a PRP’s liability once and
for all without hobbling the government’s ability to
enforce its terms if the PRP reneges. This reasoning
applies equally to a covenant not to sue conditioned on

App. 158
completed performance.8 It is also consistent with the
1986 CERCLA Amendments. A House of
Representatives Committee report expresses Congress’
intent to encourage settlements by creating a right to
contribution. H.R. Rep. 99–253, pt. 1, at 80. That same
report criticizes EPA’s inclusion of releases from
liability in settlement agreements. Id. at 102–03
(“[T]he Committee specifically notes its disapproval of
the releases granted in the settlements entered into in
the Seymore Recy[c]ling case and the Inmont case and
expects and intends that any compara[b]le releases
that might be presented for court approval would be
rejected as not in the public interest.”). Indeed, the
8

Bernstein held that an agreement containing a covenant not to
sue conditioned on completed performance could give rise to a
§ 113(f)(3)(B) contribution action after performance was completed.
733 F.3d at 204. The court reasoned that once the condition was
satisfied, the PRP had resolved its liability. Id. But such an
interpretation renders another part of § 113—the statute of
limitations provision—anomalous. The statute of limitations
provision requires a PRP to bring a contribution action “no more
than 3 years after . . . entry of a judicially approved settlement
. . . .” 42 U.S.C. § 9613(g)(3)(B) (emphasis added). Thus, under the
Seventh Circuit’s approach, a party’s contribution action could
accrue after the statute of limitations had already expired. For
example, if a settlement agreement included a covenant not to sue
conditioned on completed performance, and the cleanup took four
years, then—in the Seventh Circuit’s view—the PRP would be
precluded from ever bringing a contribution action, even though it
(eventually) satisfied the requirements for doing so. And this
would necessarily be the case because, as discussed, CERLCA
requires that a covenant not to sue be conditioned on completed
performance. See 42 U.S.C. § 9622(f)(3). Where possible, we avoid
construing statutes in a way that results in such internal
inconsistencies. Boise Cascade Corp. v. EPA, 942 F.2d 1427, 1432
(9th Cir. 1991).

App. 159
report goes one step further, expressing an intent to
“authorize[]” EPA “to include in an agreement . . . any
provisions allowing future enforcement action . . . that
[EPA] determines are necessary and appropriate to
assure protection of public health, welfare, and the
environment.” Id. at 102 (emphasis added). Having
sung the praises of settlements providing for a right of
contribution in one part of the report, it would make
little sense for Congress to encourage EPA to craft
settlements in a way that nullifies that right in
another.
Moreover, unlike the court in Florida Power, we
conclude that it matters not that a PRP refuses to
concede liability in a settlement agreement. Congress’
intent in enacting § 113(f)(3)(B) was to encourage
prompt settlements that establish PRPs’ cleanup
obligations with certainty and finality. A PRP’s refusal
to concede liability does not frustrate this objective so
long as the PRP commits to taking action. Indeed,
requiring a PRP to concede liability may discourage
PRPs from entering into settlements because doing so
could open the PRP to additional legal exposure. See 42
U.S.C. § 9607(a) (setting forth obligations of liable
PRPs).
In sum, an examination of § 113(f)(3)(B)’s plain
language, with due consideration for CERCLA’s
structure and purpose, leads us to the conclusion that
a PRP “resolve[s] its liability” to the government where
a settlement agreement decides with certainty and
finality a PRP’s obligations for at least some of its
response actions or costs as set forth in the agreement.
A covenant not to sue or release from liability

App. 160
conditioned on completed performance does not
undermine such a resolution, nor does a settling party’s
refusal to concede liability. Whether this test is met
depends on a case-by-case analysis of a particular
agreement’s terms.
3.
Turning to the 1998 RCRA Decree, we conclude that
it fails to resolve Asarco’s liability for any of its
response actions or costs. First, the Decree’s release
from liability covers none of the “corrective
measures”—i.e., response actions—mandated by the
agreement. Paragraph 209, under “Effect of Decree,”
states that
ASARCO’s payment of all civil penalties due,
and ASARCO’s commitments to pay all
stipulated penalties due and owing under this
Decree, and ASARCO’s commitment to fully and
successfully complete the requirements of this
Decree, shall constitute full satisfaction of the
claims for civil penalties for civil violations
alleged in the complaint of the United States
that occurred prior to the date of lodging of this
Decree, except as provided in this Paragraph
. . . . This release is conditioned upon the
complete and satisfactory performance by
ASARCO of its obligations under this Decree.
1998 RCRA Decree ¶ 209 (emphasis added). The
release is expressly limited to liability with regards to
the United States’ claims for civil penalties. Yet the
complaint that prompted the parties to reach the
agreement specifically sought both civil penalties and

App. 161
injunctive relief—only the latter of which could
“require ASARCO to conduct corrective action.”
Second, the 1998 RCRA Decree is replete with
references to Asarco’s continued legal exposure. For
example, in paragraph 122, under the header “Off-Site
Access,” the agreement states unequivocally that
“[n]othing in this section shall be construed to limit or
otherwise affect ASARCO’s liability and obligation to
perform corrective measures . . . .” Similarly, in setting
forth a limited covenant not to sue, paragraph 214
states that the
Decree shall not be construed as a covenant not
to sue, release, waiver or limitation of any
rights, remedies, powers and/or authorities, civil
or criminal, which EPA has under RCRA,
CERCLA, or any other statutory, regulatory, or
common law authority, except as provided in
Paragraph 209 above . . . .
Because paragraph 209 does not address—let alone
resolve—the United States’ claims for injunctive relief,
the covenant not to sue does not restrict the United
States’ authority to bring an action under CERCLA
§§ 106 or 107, which could result in additional response
obligations. 42 U.S.C. §§ 9606, 9607.
Lest there be any doubt, the Decree makes the point
at least three more times. Paragraph 216 states that
“except as specifically provided in Paragraph 209,”
compliance with the Decree “shall be no defense to any
action commenced” under federal or state law. 1998
RCRA Decree ¶ 216. And the next paragraph provides
that

App. 162
[e]xcept as expressly provided herein, nothing in
this Decree shall constitute or be construed as a
release from any claim, cause of action or
demand in law or equity, against any person,
firm, partnership, or corporation for any liability
it may have arising out of, or relating in any way
to, the generation, storage, treatment, handling,
transportation, release, management or disposal
of any hazardous wastes . . . found at, on, or
under, taken to or from, or migrating to, from or
through the [lead smelter and contiguous areas].
Id. ¶ 217 (emphasis added). Finally, paragraph 137
states that Asarco’s CERCLA liability for response
costs would not be released even if Asarco fully
complied with the Decree:
Notwithstanding compliance with the terms of
this Decree, ASARCO is not released from
liability, if any, for the costs of any response
actions taken or authorized by EPA under any
applicable statute, including CERCLA.
Simply put, the 1998 RCRA Decree did not just leave
open some of the United States’ enforcement options, it
preserved all of them. Because the Decree did not settle
definitively any of Asarco’s response obligations, it did
not “resolve[] [Asarco’s] liability.” See 42 U.S.C.
§ 9613(f)(3)(B). Accordingly, Asarco could not have
brought a contribution action pursuant to the 1998
RCRA Decree and the corresponding limitations period
did not run with that agreement.9
9

Asarco was not without recourse to seek reimbursement for costs
incurred under the RCRA Decree. As discussed in Part III, supra,

App. 163
D. Asarco “Resolved Its Liability” Under the
2009 CERCLA Decree
The district court held that Asarco’s contribution
claim for response costs incurred under the 2009
CERCLA Decree was time-barred based on the
erroneous conclusion that Asarco could have brought
its action under the 1998 RCRA Decree. Asarco argues
the district court erred because it brought its action no
more than three years after entry of the June 2009
CERCLA Decree, which it argues “resolved its liability”
for the first time, and therefore its action is timely. We
agree with Asarco.

where a § 113(f) contribution action is unavailable, a PRP may be
able to bring a § 107 “cost recovery” action against other PRPs to
recoup “any . . . necessary costs of response incurred” that result
from a release of a hazardous substance. 42 U.S.C. § 9607(a); see
Bernstein, 733 F.3d at 214. Put another way, a PRP that has taken
a response action but has not entered into a settlement agreement
that resolves its liability has satisfied the criteria for bringing a
§ 107 action. A § 107 action has at least three advantages and one
disadvantage compared to a § 113(f)(3)(B) action: (i) § 107(a) comes
with a longer statute of limitations period than § 113(f)(3)(B) (six
years versus three), (ii) it provides the possibility of joint and
several liability, and (iii) it comes with limited defenses—e.g., acts
of God, acts of war, and third-party omissions. See Burlington N.
& Santa Fe Ry. Co. v. United States, 556 U.S. 599, 614 (2009) (joint
and several liability is available under § 107 unless the harms
caused by multiple entities “are capable of apportionment”); NCR
Corp. v. George A. Whiting Paper Co., 768 F.3d 682, 690 (7th Cir.
2014) (discussing limited defenses under § 107); 42 U.S.C.
§ 9607(a)(4)(B) (listing defenses). On the other hand, a party that
is ineligible to bring a § 113(f) contribution action—and therefore
must resort to § 107(a)—does not enjoy protection from other
PRPs’ contribution actions. See 42 U.S.C. § 9613(f)(2).

App. 164
Asarco has a timely contribution claim under the
CERCLA Decree if three conditions are met. First,
Asarco must have brought its action within three years
after the date the settlement was judicially approved.
42 U.S.C. § 9613(g)(3)(B). Second, the CERCLA Decree
must cover response actions or costs of response. Id.
§ 9613(f)(3)(B). And third, the CERCLA Decree must
“resolve[]” Asarco’s liability for at least some response
actions or costs. Id.
Statute of limitations. Section 113(g)(3) requires
a party seeking contribution to bring its action no more
than “3 years after . . . the date of . . . entry of a
judicially approved settlement.” Id. § 9613(g)(3). The
bankruptcy court approved and entered the CERCLA
Decree on June 5, 2009. Asarco brought its contribution
action on June 5, 2012. In its denial of Atlantic
Richfield’s motion to dismiss, the district court held
that Asarco’s claim was timely. Dist. Ct. Dkt. 49, at
6–7. On appeal, Asarco reiterates that its action “was
filed within three years of a settlement that did in fact
resolve Asarco’s liability at the Site.” Conspicuously
absent from Atlantic Richfield’s brief is any contention
that the district court erred on this issue. We therefore
deem abandoned Atlantic Richfield’s argument that
Asarco’s claim is time-barred as measured against the
CERCLA Decree. See Collins v. City of San Diego, 841
F.2d 337, 339 (9th Cir. 1988) (issue abandoned where
not raised on appeal).
Even if Atlantic Richfield did not abandon this
claim, we would conclude Asarco’s claim is timely.
Under § 113(g)(3), the day of the event that triggers the
period is excluded for purposes of computing the

App. 165
period’s end date. See Asarco, LLC v. Union Pac. R.R.
Co., 765 F.3d 999, 1007–08 (9th Cir. 2014). Therefore,
the first day of the period would be June 6, 2009, and
the last day for filing would be June 5, 2012. See id. at
1007. Asarco met this deadline.
Response actions or costs. The CERCLA Decree
required Asarco to pay $99.294 million (plus other
expenses) into a custodial trust account to clean up the
East Helena Site. The account covers expenses for past
and future response actions, including, inter alia,
“remedial actions, removal actions, [and] corrective
action” at the Site. The CERCLA Decree also settled all
obligations under the 1998 RCRA Decree, which, as
described in Part IV.B, supra, itself addressed response
actions. It is therefore beyond cavil that the CERCLA
Decree covers “response” actions or costs of response.
Resolution of liability. Asarco argues that the
CERCLA Decree “unequivocally” resolved its liability
for all of its response costs at the Site. Atlantic
Richfield does not directly address this issue, but
instead asserts that the CERCLA Decree did not
“trigger a new limitations period for costs incurred
under the 1998 [RCRA] Consent Decree” because the
CERCLA Decree served only as a “funding mechanism”
for Asarco’s “preexisting commitments.” Atlantic
Richfield asserts that deeming Asarco’s contribution
claim timely would work an injustice by allowing
Asarco to incur cleanup obligations, sit on its rights
and do nothing for years, and then pursue a stale claim
through bankruptcy by virtue of its own indolence.
We agree with Asarco and hold that the CERCLA
Decree “resolved” its liability for all of its response

App. 166
costs at the Site.10 For example, the Decree sets forth a
covenant not to sue that is immediately effective and
covers all of Asarco’s response obligations. The
covenant provides, in relevant part, that
upon the Effective Date and Debtors’11 full
funding of all Custodial Trust Accounts . . . the
United States [and Montana] covenant[] not to
sue or assert any civil claims or civil causes of
action against[Asarco] . . . pursuant to Sections
106 and 107(a) of CERCLA, 42 U.S.C. §§ 9606,
9607(a), and RCRA, 42 U.S.C. § 6901, et seq.,
Sections 301(a), 309(b), and 311 of CWA, 33
U.S.C. §§ 1311(a), 1319(b), and 1321, or any
similar state law, including any liabilities or
obligations asserted in the United States’ [and
Montana’s] Proofs of Claim with respect to the
East Helena Site.

10

While the district court did not address whether the CERCLA
Decree resolved Asarco’s liability, we need not remand to the
district court for consideration of this issue in the first instance.
Whether the CERCLA Decree resolved Asarco’s liability is an
“issue fairly included within the question presented,” namely,
whether the district court erred in holding that Asarco could not
maintain a contribution action under the CERCLA Decree. See
Lewis v. Clarke, 137 S. Ct. 1285, 1293 n.3 (2017). It was also raised
before the district court, see Asarco Opp. to Mot. for Summary
Judgment, Dist. Ct. Dkt. 161, at 11 (“The CERCLA Decree
resolved Asarco’s CERCLA liability at East Helena for the first
time.”), requires no supplementation of the record, and is pressed
by Asarco on appeal. We therefore proceed to the merits and decide
whether the CERCLA Decree resolved Asarco’s liability. See Lewis,
137 S. Ct. at 1293 n.3.
11

Asarco is a “debtor” under the agreement.

App. 167
CERCLA Decree ¶¶ 28–29. Thus, so long as Asarco
funds the Custodial Trust Accounts,12 it is released
from liability for all response obligations under prior
settlements, including “corrective measures” under the
RCRA Decree.
Other parts of the Decree are similarly allencompassing. For example, the section setting forth
reservations of rights by the government is, in
pertinent part, limited to Asarco’s “future acts.” Under
that provision, the United States and Montana
“specifically reserve . . . liability for[, inter alia,]
response costs [and] response actions . . . under
CERCLA, RCRA, CWA, [the Montana Comprehensive
Environmental Cleanup and Responsibility Act] or any
other law for Debtors’ . . . future acts creating liability”
under those statutes “that occur after the Closing
Date.” CERCLA Decree ¶ 39 (emphasis added). The
section expressly does not reserve any rights to hold
Asarco liable under any legal authority with respect to
then-existing contamination beyond its payment
obligations under the agreement. See id.
The agreement also caps Asarco’s “total financial
obligations” for past contamination at the amount
specified in the agreement. CERCLA Decree ¶ 8.h.
While it leaves open the possibility that Asarco may
owe certain additional costs, those costs do not include
response costs. Id. In other words, Asarco’s financial

12

Asarco asserts that it has funded the custodial trust account,
and Atlantic Richfield’s brief concedes the point. We assume that
Asarco has complied with the CERCLA Decree’s payment
obligations with respect to the East Helena Site.

App. 168
liability was “resolved”—i.e., determined with
finality—under the agreement itself; the agreement did
not expose Asarco to future liability for past hazardous
waste releases.
The agreement also provides Asarco with protection
against contribution actions by non-settling parties, as
provided under CERCLA § 113(f)(2), 42 U.S.C.
§ 9613(f)(2). CERCLA Decree ¶ 43. Contribution
protection applies only to “[a] person who has resolved
its liability . . . in an administrative or judicially
approved settlement.” 42 U.S.C. § 9613(f)(2) (emphasis
added). The agreement’s incorporation of that provision
is further evidence that Asarco “resolved its liability”
under the agreement. See Hobart, 758 F.3d at 768–69
(incorporation of provision immunizing a settling PRP
from contribution weighed in favor of finding that the
agreement resolved its liability).
Finally, we consider Atlantic Richfield’s concern
that deeming Asarco’s contribution claim timely would
allow Asarco to benefit from its own alleged neglect
under the RCRA Decree. We sympathize with Atlantic
Richfield’s position but cannot agree with its
conclusion. Whether a right of contribution is available
does not depend on whose ox gets gored: the fact that
Asarco and not some other party was liable under the
RCRA Decree does not change the fact that that
agreement did not give rise to a right of contribution,
whereas the CERCLA Decree did.
In sum, the CERCLA Decree constitutes a “firm
decision about” Asarco’s liability that lends it the
requisite degree of finality. See Bernstein, 733 F.3d at
211 n.12. We therefore hold that Asarco has a

App. 169
cognizable claim for contribution under CERCLA
§ 113(f)(3)(B) because it brought a timely action under
an agreement that resolved its liability.13
V. Conclusion
We hold that the 1998 RCRA Decree did not resolve
Asarco’s liability for at least some of its response
obligations under that agreement. It therefore did not
give rise to a right to contribution under CERCLA
§ 113(f)(3)(B). By contrast, the 2009 CERCLA Decree
did resolve Asarco’s liability, and Asarco has brought a
timely action for contribution under that agreement.
We therefore vacate the district court’s grant of
summary judgment and remand for further
proceedings consistent with this opinion. On remand,
the district court should determine whether Asarco is
entitled to any financial contribution from Atlantic
Richfield and, if so, how much.
Costs are awarded to the Appellant.
VACATED and REMANDED.

13

We express no opinion on the scope of contribution and
protection rights where a settlement agreement, unlike this
CERCLA Decree, resolves a PRP’s liability only for some of its
response obligations. Cf. Whittaker, 825 F.3d at 1008 (a party may
not seek contribution for expenses that are not “at issue in the
triggering . . . settlement”).

App. 170

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION
CV 12-53-H-DLC
[Filed: August 26, 2014]
__________________________________________
ASARCO LLC, a Delaware corporation,
)
)
Plaintiff,
)
)
vs.
)
)
ATLANTIC RlCHFIELD COMPANY,
)
a Delaware corporation,
)
)
Defendant.
)
__________________________________________)
ORDER
Before the Court is Defendant Atlantic Richfield
Company’s (“Atlantic Richfield”) motion for summary
judgment, the resolution of which hinges on two issues.
First, does a consent decree ASARCO entered into with
the United States in 1998 trigger CERCLA’s 3-year
statute of limitations for contribution actions despite
the fact that the decree does not expressly address
CERCLA liability. This issue has not been addressed
by the Ninth Circuit Court of Appeals, and in the two

App. 171
circuits which have addressed this issue, the Second
and Third, conflicting conclusions were reached.
Second, to what extent does a 2009 consent decree
between ASARCO and the United States create new
cleanup costs or obligations not covered in the 1998
consent decree. For the reasons articulated herein, the
Court finds that the 1998 consent decree did trigger the
statute of limitations, and that the 2009 consent decree
extended ASARCO’s obligations no further than the
1998 decree. The Court grants summary judgment in
favor of Atlantic Richfield.
Factual Background
ASARCO operated a lead smelter at the East
Helena Site (“Site”) from 1888 until 2001. Atlantic
Richfield’s predecessor, the Anaconda Company,
constructed and operated a zinc fuming plant on land
leased from ASARCO at the site from 1927 to 1972.
ASARCO purchased the zinc plant from Anaconda in
1972 and continued to operate it until 1982. Operations
at the site released numerous hazardous substances,
causing the Environmental Protection Agency (“EPA”)
to add the site to the National Priorities List under
the Comprehensive Environmental Response,
Compensation, and Liability Act of 1980 (“CERCLA”),
more commonly known as “Superfund,” in 1984.
ASARCO and the EPA entered into several consent
decrees, including one dated May 5, 1998 (“1998
Decree”) that resolved claims EPA had brought against
ASARCO for multiple violations of the Resource
Conservation and Recovery Act (“RCRA”) and the
Clean Water Act (“CWA”). Under this Decree,
jurisdiction over all Site-related cleanup was

App. 172
transferred from the CERCLA program to the RCRA
program. While the contents and scope of this Decree
are addressed at length below, suffice it to say that the
Decree was comprehensive, and required ASARCO to
conduct a wide range of activities regarding the
contamination.
In 2005, ASARCO filed for Chapter 11 bankruptcy
protection. The United States and the State of Montana
(collectively referred to as “governments”) filed proofs
of claim in the bankruptcy proceeding for cleanup of
the Site. During the bankruptcy proceeding, ASARCO
and the governments entered two settlements
regarding the East Helena Site, the second of which
was a judicially approved consent decree entered into
in June of 2009 (“2009 Decree”). The June 2009 Decree
is the subject of the instant motion. It resolved
ASARCO’s environmental liabilities to the
governments at several sites, including East Helena,
and created a custodial trust and trust account for each
of the Montana properties. The 2009 Decree also
required ASARCO to transfer all property rights and
interests in the East Helena Site to the trust, and pay
$99.294 million into the trust account for that Site. The
Montana Environmental Trust Group (“METG”) was
appointed custodial trustee to oversee the trust and
trust account for the Site. The bankruptcy court
approved ASARCO’s plan of reorganization in
November of2009.
ASARCO filed its Complaint in this case in June of
2012, which it amended on September 11, 2012.
ASARCO seeks contribution pursuant to CERCLA for
the $99.294 million it paid under the 2009 Decree.

App. 173
Atlantic Richfield now seeks summary judgment,
arguing that CERCLA’s 3-year statute of limitations
for such contribution claims began to run upon entry of
the 1998 Decree, and that the 2009 Decree does not
create any specific or new obligations as to the East
Helena Site that were not covered in the 1998 Decree.
Summary Judgment Standard
Summary judgment is appropriate “if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as
a matter of law.” Fed. R.Civ. P. 56(a). The movant
bears the initial burden of informing the Court of the
basis for its motion and identifying those portions of
“the pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits, if
any, which it believes demonstrate the absence of a
genuine issue of material fact.” Celotex Corp. v. Catrett,
477 U.S. 317, 323 (1986) (internal quotation marks
omitted). The movant’s burden is satisfied when the
documentary evidence produced by the parties permits
only one conclusion. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 251-52 (1986). Where the moving party
has met its initial burden, the party opposing the
motion “may not rest upon the mere allegations or
denials of his pleading, but . . . must set forth specific
facts showing that there is a genuine issue for trial.”
Id. at 248 (internal quotation marks omitted).
Analysis
In response to widespread public outcry following
the Love Canal tragedy in Niagara Falls, New York,
Congress enacted CERCLA in 1980 to facilitate the

App. 174
prompt cleanup of hazardous waste sites. CERLCA is
a unique and powerful statute, imposing strict and
joint and several liability on countless parties for
contamination reaching back to the Nineteenth
Century. It grants the federal and state governments
broad power to effectively and efficiently remediate
hazardous contamination, and creates incentives for
parties to actively participate in removal and remedial
actions.
In 1986, Congress passed the Superfund
Amendments and Reauthorization Act (“SARA”), which
amended CERCLA and created mechanisms by which
parties that have taken certain specific affirmative
actions to address contamination can seek contribution
against other potentially liable parties. This motion
hinges on one such mechanism, CERCLA § 113(f)(3)(B),
which provides:
A person who has resolved its liability to the
United States or a State for some or all of a
response action or for some or all of the costs of
such an action in an administrative or judicially
approved settlement may seek contribution from
any person who is not party to a settlement
referred to in paragraph (2).
42 U.S.C. § 9613(f)(3)(B). Contribution claims based on
judicially approved settlements are subject to a 3-year
statute of limitations. 42 U.S.C. § 9613(g)(3)(B) (“No
action for contribution for any response costs or
damages may be commenced more than 3 years after
. . . entry of a judicially approved settlement with
respect to such costs or damages”).

App. 175
Neither the law nor common logic supports the
concept that a statute of limitations could run on a
claim that has not yet accrued. Atlantic Richfield’s
argument that the 3-year statute of limitations has run
is predicated on its assertion that the court’s approval
of the 1998 Decree – which admittedly makes no
express reference to CERCLA liability – gave rise to a
contribution claim under § 113(t)(3)(B).1 This is a
multi-faceted question that involves a novel question of
law that has yet to be resolved by the Ninth Circuit
and a fact specific inquiry as to the 1998 and 2009
Decrees.

1

Atlantic Richfield relies heavily on a paragraph contained in the
Court’s order of November 30, 2012, stating:
To the extent that [the 1990, 1998, and February 2009]
agreement[s] covered a portion of the costs for which
ASARCO seeks contribution here [based on the June 2009
Decree], the statute of limitations was triggered for those
specific costs when the agreement was entered. Three of
the four agreements were entered more than three years
before ASARCO filed this action. Thus, the statute of
limitation to seek contribution for the costs covered in the
1990. 1998, and February 2009 consent decrees had
expired.
(Doc. 49 at 5.) The Court declined to resolve any potential overlap
at the early stage of the litigation before the parties had the
benefit of complete discovery. At that time, none of the parties
raised the issue of whether the 1998 Decree even gave rise to a
CERCLA contribution claim, which is the dispositive legal issue
now before the Court. Thus, although the Court essentially reaches
the same conclusion as it did in November of 2012, it does so not
based on its 2010 statement, but on CERCLA’s plain text and
overarching purpose in light of the parties well crafted arguments.
and the guidance of other courts that have tackled the issue.

App. 176
The Court first considers whether CERCLA
§ 113(f)(3)(B) provides a contribution claim where a
party has not expressly settled its CERCLA liability.
While the Ninth Circuit has yet to address this issue,
as previously stated the Second and Third Circuits
have. Unfortunately, although not surprisingly given
the widely-shared opinion that CERCLA is not a model
of legislative draftsmanship,2 those courts have taken
opposing positions.
The Second Circuit interprets § 113(f)(3)(B) “to
create a contribution right only when liability for
CERCLA claims, rather than some broader category of
legal claims, is resolved.” Consolidated Edison Co. of
New York, Inc. v. UGI Utilities, Inc., 423 F.3d 90, 95
(2d Cir. 2005). In Consolidated Edison, Con Ed sued
UGI Utilities to recover costs it had incurred and would
incur in cleaning up several sites on which UGI
allegedly operated manufactured gas plants. Con Ed
alleged that UGI was liable for remedial costs under
CERCLA, as well as under New York State law. After
filing suit, Con Ed entered into a voluntary agreement
with the New York State Department of
Environmental Conservation (“NYDEC”), in which it
agreed to cleanup over 100 sites, including those
subject to its suit against UGI, as a means to resolve its
liability under state law. The court did not discuss the

2

As the Second Circuit stated in W.R. Grace & Co.-Conn. v. Zotos
Intern. Inc., “[u]nfortunately, CERCLA, which was enacted on the
eve of the lame-duck session of the 96th Congressional term, is
known neither for its concinnity nor its brevity.” 559 F.3d 85, 88
(2d Cir. 2009) (quoting several cases that pre-date § 113(f)(3)(B),
which was enacted in 1986 under SARA).

App. 177
issue at length, basing its holding on § 113(f)(3)(B)’s
requirement that the party seeking contribution must
have resolved its liability for “response action[s],”
which it characterized as a “CERCLA-specific term
describing an action to clean up a site or minimize the
release of contaminants in the future.” Id. at 95-96. The
court also looked to SARA’s legislative history, quoting
from the report of the House Committee on Energy and
Commerce that § 113 “‘clarifies and confirms the right
of a person held jointly and severally liable under
CERCLA to seek contribution from other potentially
liable parties.’” Id. at 96 (citing and quoting H.R.Rep.
No. 99-253(I), at 79 (1985) (emphasis added by the
court)). On those bases, the Court held that “section
113(f)(3)(B) does not permit contribution actions based
on the resolution of liability for state law – but not
CERCLA – claims.” Id.
Several years after its decision in Consolidated
Edison, the court revisited the issue of what type of
liability must be “resolved” for a party to bring a claim
under § 113(f)(3)(B) in W.R. Grace & Co.-Conn. v. Zotos
International, Inc., 559 F.3d 85 (2d Cir. 2009). Plaintiff
W.R. Grace acquired a site that ECI had used as a
landfill for wastes generated by one of its facilities that
manufactured organic compounds and hair care
products that it then sold to defendant Zotos and other
customers. In 1983, several years after acquiring the
site, W.K Grace entered into a consent order with the
NYDEC in which it agreed to reimburse the State for
response costs incurred in investigating the site, to
perform a remedial investigation and feasibility study,
and to remediate the site. In exchange, NYDEC agreed
to release W.K Grace from all New York State law

App. 178
claims “arising from the disposal of hazardous or
industrial waste at the Site” upon successful
completion of remediation. W.R. Grace, 559 F.3d at 87.
Grace remediated and maintained the site pursuant to
the agreement, and sued Zotos in 1998 seeking
contribution pursuant to CERCLA based on a theory of
arranger liability, and under New York law for the
costs incurred during the investigation and
remediation of the site. The district court concluded
that W.R. Grace was not entitled to reimbursement
pursuant to CERCLA § 113(f) because it was not a
party to either a civil suit or a settlement. On appeal,
W.R. Grace argued that it was permitted to seek
contribution under § 113(f)(3)(B) as the result of the
consent order.
The Second Circuit maintained its position, holding
that “‘the operative question in deciding whether
[Grace’s] claims arise under section 113(f)(3)(B) . . . is
whether [Grace] resolved its CERCLA liability before
bringing suit.’” Id. at 90-91 (citing Consolidated Edison,
423 F.3d at 96). The court did not engage in an analysis
or discussion of its reasoning beyond “the principles
enunciated in Consolidated Edison,” id. at 90, which
were limited to a sentence contained in the House’s
SARA Report and the determination that “response
action” is a “CERCLA-specific term,” Consolidated
Edison, 423 at 95-96. The court examined the text of
the consent order, including the release of state law
liability and the NYDEC’s reservation of its right to
bring an action “with respect to areas or resources that
may have been damaged as a result of the release or
mitigation of hazardous or industrial wastes from the
Site.” W.R. Grace, 559 F.3d at 91. It held that the

App. 179
consent order did not resolve Grace’s CERCLA liability,
and left open “the possibility that the DEC or the EPA
could, at some future point, assert CERCLA or other
claims.” Id. The court concluded that “[u]nder the
principles enunciated in Consolidated Edison . . . Grace
may not seek contribution under section 113(f)(3)(B).”
Id. at 90.
Although Consolidated Edison and W.R. Grace
clearly establish that within the Second Circuit
§ 113(f)(3)(B) does not give rise to a contribution claim
unless the administrative or judicially approved
settlement specifically resolves CERCLA liability, that
court’s most recent opinion touching upon this issue
casts doubt on the continued viability of that holding –
which it referred to as “the Consolidated Edison/W.R.
Grace problem.” Niagara Mohawk Power Corp. v.
Chevron U.S.A., Inc., 596 F.3d 112, 126 n. 15 (2d Cir.
2010). In Niagara Mohawk the panel included a
footnote in which it quoted the following passage from
an amicus brief filed by the EPA, which it
characterized as “understandably tak[ing] issue with
our holding in Consolidated Edison”:
The United States was not a party to
Consolidated Edison and believes it was not
correctly decided. Section 113(1)(3)(B) applies
where a PRP “has resolved its liability to . . . a
State for some or all of a response action or for
some or all of the costs of such action.” 42 U.S.C.
§ 9613(1)(3)(B). The settlement of federal and
state law claims other than those provided by
CERCLA fits within § 113(1)(3)(B) as long as the
settlement involves a cleanup activity that

App. 180
qualifies as a “response action” within the
meaning of CERCLA § 101(25), 42 U.S.C.
§ 9601(25).
Id. The court went on to comment that while “there is
a great deal of force to this argument given the
language of the statute,” it need not address the issue
because the consent order at issue in that case clearly
encompassed CERCLA liability. Id.
The Third Circuit expressly rejected the Second
Circuit’s interpretation of § 113(f)(3)(B) in Trinity
Industries. Inc. v. Chicago Bridge & Iron Co., 735 F.3d
131 (3d Cir. 2013), adopting a position that addresses
the Niagara Mohawk panel’s concern – and one that
this Court believes is truer to the express language of
that provision. Trinity sought § 113(1)(3)(B)
contribution based on a consent order absolving it of
liability under two Pennsylvania statutes. The court
held “[n]otwithstanding the rule adopted by the Court
of Appeals for the Second Circuit and by various
district courts . . . § 113(f)(3)(B) does not require
resolution of CERCLA liability in particular.” Id. at
136. The court first looked to the plain language of the
statute itself, finding that it “requires only the
existence of a settlement resolving liability to the
United States or a state ‘for some or all of a response
action.’ Section 113(f)(3)(B) does not state that the
‘response action’ in question must have been initiated
pursuant to CERCLA – a requirement that might
easily have been written into the provision.” Id. In
support of this conclusion, the court looked to its case
law in the context of CERCLA’s cost-recovery provision,
§ 107(a), citing United States v. Rohm Haas in which it

App. 181
held that if a government action qualifies as a “removal
action” under the definition contained in CERCLA, the
government’s costs are recoverable under the
unambiguous language of § 107, regardless of what
statutory authority was invoked by EPA in connection
with its actions. 2 F.3d 1265, 1274-75 (3d Cir. 1993)
(the court continued, stating “We find no support in the
text or legislative history of CERCLA for the suggestion
that identical oversight activity on the part of the
government should be considered a removal if the
government invokes CERCLA, but not a removal if
other statutory authority is invoked”). The court also
addressed the statement from the House Report relied
upon by the Consolidated Electric court, clarifying that
it “refers to contribution claims under § 113(f)(1), not
§ 113(f)(3)(B), as it is only through a civil action under
. . . [CERCLA § 113(f)(1)] that a PRP may be held
jointly and severally liable for response costs under
CERCLA.” Trinity Industries, 735 F.3d at 136 (internal
citations and quotation marks omitted). The Court
concluded that § 113(f)(3)(B) does not require that a
party have settled its liability under CERCLA in
particular to be eligible for contribution.” Id.
This Court agrees with the Third Circuit and the
Niagara Mohawk panel. The plain language of
§ 113(f)(3)(B) provides a contribution claim to parties
that have resolved their liability for “some or all of a
response action or for some or all of the costs of such
action in . . . [a] judicially approved settlement.”
42 U.S.C. § 9613(f)(3)(B) (emphasis added). The
Consolidated Edison court is correct that “response
action” is a highly significant term under CERCLA; it
has, despite its brevity, sparked an enormous volume

App. 182
of litigation, giving it an outsize role in contributing to
CERCLA’s reputation as “the lawyer employment act.”
However, the significance of that term within the
statute and the jurisprudence that has developed
around it does not somehow permit it to become
subsumed by that statute as Consolidated Edison
suggests. While the court in that case deemed the term
“CERCLA-specific,” Consolidated Edison, 423 F.3d at
95, its holding indicates it actually interpreted the
term “response action” to be CERCLA-exclusive. The
most logical and appropriate construction is simply to
apply CERCLA’s definition of the term “response,”
which encompasses the terms “remove, removal,
remedy, and remedial action . . . includ[ing]
enforcement activities related thereto.” 42 U.S.C.
§ 9601(25) [CERCLA § 101 (25)]. These terms are in
turn defined under CERCLA, which states:
The terms “remove” or “removal” means the
cleanup or removal of released hazardous
substances from the environment, such actions
as may be necessary taken in the event of the
threat of release of hazardous substances into
the environment, such actions as may be
necessary to monitor, assess, and evaluate the
release or threat of release of hazardous
substances, the disposal of removed material, or
the taking of such other actions as may be
necessary to prevent, minimize, or mitigate
damage to the public health or welfare or to the
environment, which may otherwise result from
a release or threat of release. The term includes,
in addition, without being limited to, security
fencing or other measures to limit access,

App. 183
provision of alternative water supplies,
temporary evacuation and housing of threatened
individuals not otherwise provided for, action
taken under section 9604(b) of this title, and any
emergency assistance which may be provided
under the Disaster Relief and Emergency
Assistance Act [42 U.S.C.A. § 5121 et seq.].
42 U.S.C.A. § 9601(23) [CERCLA § 101(23)]. And,
The terms “remedy” or “remedial action” means
those actions consistent with permanent remedy
taken instead of or in addition to removal
actions in the event of a release or threatened
release of a hazardous substance into the
environment, to prevent or minimize the release
of hazardous substances so that they do not
migrate to cause substantial danger to present
or future public health or welfare or the
environment. The term includes, but is not
limited to, such actions at the location of the
release as storage, confinement, perimeter
protection using dikes, trenches, or ditches, clay
cover, neutralization, cleanup of released
hazardous substances and associated
contaminated materials, recycling or reuse,
diversion, destruction, segregation of reactive
wastes, dredging or excavations, repair or
replacement of leaking containers, collection of
leachate and runoff, onsite treatment or
incineration, provision of alternative water
supplies, and any monitoring reasonably
required to assure that such actions protect the
public health and welfare and the environment.

App. 184
The term includes the costs of permanent
relocation of residents and businesses and
community facilities where the President
determines that, alone or in combination with
other measures, such relocation is more costeffective than and environmentally preferable to
the transportation, storage, treatment,
destruction, or secure disposition offsite of
hazardous substances, or may otherwise be
necessary to protect the public health or welfare;
the term includes offsite transport and offsite
storage, treatment, destruction, or secure
disposition of hazardous substances and
associated contaminated materials.
42 U.S.C.A. § 9601(24) [CERCLA § 101(24)]. The broad
sweep of what can constitute a “response action” is
immediately apparent. The Court thus interprets the
plain language of § 113(f)(3)(B) to give rise to a claim
for contribution after a party resolves some or all of its
liability to the United States or a State for any
“response action,” or the costs of such action, that falls
under the wide umbrella created by §§ 101(23)-(25).
If Congress intended to narrow the scope of
§ 113(1)(3)(B) to cover only settlements that expressly
resolve CERCLA liability, it could have done so, as it
did in § 113(1)(1). Under that provision, “Any person
may seek contribution from any other person who is
liable or potentially liable under section 107(a), during
or following any civil action under section 106 or under
section l07(a).” 42 U.S.C. § 9613(1)(1) (emphasis
added). The absence of any analogous qualifying
language in a provision that creates an alternate basis

App. 185
for a contribution claim – contained within the same
subsection – is telling. The Court declines to read into
§ 113(1)(3)(B) the limiting language that Congress
omitted and ASARCO urges, especially since doing so
would have the effect of precluding contribution for a
settlement that would otherwise qualify based on its
content, but that lacked express reference to CERCLA.
This would impede the statute’s dual primary
purposes, which “are axiomatic: (1) to encourage the
‘timely cleanup of hazardous waste sites;’ and (2) to
“place the cost of that cleanup on those responsible for
creating or maintaining the hazardous condition.’” W.R.
Grace, 599 F.3d 85,88 (quoting Consol. Edison, 423
F.3d at 94); see also Burlington Northern & Santa Fe
Ry. Co. v. U.S., 556 U.S. 599, 602 (2009) (“[CERCLA]
was designed to promote the timely cleanup of
hazardous waste sites and to ensure that the costs of
such cleanup efforts were bourne by those responsible
for the contamination”) (internal citations and
quotation marks omitted). Courts must “construe the
statute liberally in order to effect these congressional
concerns.” Schiavone v. Pearce, 79 F.3d 248, 253 (2d
Cir. 1996) (citing B.F. Goodrich v. Murtha, 958 F.2d
1192, 1198 (2d Cir. 1992). Contribution is perhaps the
primary tool by which parties effectuate CERCLA’s
second goal, and this Court will not limit that tool
given the plain language of §§ 113(f)(1) & (3)(B) and the
absence of any supporting evidence of congressional
intent. Finally, the Court concurs with the Third
Circuit that the passage from the House Report relied
upon by the Consolidated Edison court, H.R. Rep. No.
99-253(1) at 79 (1985), refers to § 113(f)(1), not to
subsection (f) as a whole, nor to (f)(3)(B) specifically.

App. 186
For these reasons, the Court holds that Section
§ 113(f)(3)(B) does not require resolution of CERCLA
liability in particular. Instead, that provision gives rise
to a contribution claim based upon a judicially
approved settlement that resolves a party’s liability for
some or all of a “response action,” as that term is
defined in §§ 101(23)-(25). As a result, such a
settlement starts the clock on the 3-year statute of
limitations imposed by § 113(g)(3)(B), which mirrors
the language of § 113(f)(3)(B) stating “[n]o action for
contribution for any response costs or damages may be
commenced more than 3 years after . . . entry of a
judicially approved settlement with respect to such
costs or damages.” 42 U.S.C. § 9613(g)(3)(B).
The Court now turns to the consent decrees in order
to determine (1) whether the 1998 Decree compelled
response actions or costs as defined under CERCLA,
and if so, (2) the precise extent to which the actions and
costs covered in the 2009 Decree overlap with those
covered in the 1998 decree. As the Court has previously
stated, the statute of limitations has not run on any
new costs covered in the June 5, 2009 consent decree.
(Doc. 49 at 5.); see also American Cyanamid Co. v.
Capuano, 381 F.3d 6, 15 (2d Cir. 2004) (“The entry of a
judicially approved settlement provides contribution
protection only regarding matters addressed in the
settlement and allows a settling PRP to seek
contribution within three years of that settlement for
costs incurred within the settlement”).
Upon review of the 1998 Consent Decree, the Court
has little difficulty concluding that virtually all of the
actions it compels fall into the broad statutory

App. 187
definition of either a “removal” and/or “a remedial”
action. The closer and more critical question is whether
the 2009 Decree contained any matters not addressed
in the 1998 Decree. “The test for determining the
extent of ‘covered matters’ is fact-intensive. ‘In
determining whether a claim is made regarding
matters not addressed in the settlement, a court must
consider various factors, including the particular
hazardous substance at issue in the settlement, the
location or site in question, the time frame covered by
the settlement, and the cost of the cleanup.” ASARCO
LLC v. Shore Terminals, 2012 WL 2050253, *7 (N.D.
Cal. 2012) (not reported in F.Supp.2d) (quoting United
States v. Pretty Products, inc., 780 F.Supp. 1488, 149495 n. 4 (S.D. Ohio 1991)).
Atlantic Richfield maintains its long held position
that the 1998 Decree established the actions that are to
be funded by the $99.294 million ASARCO paid under
the 2009 Decree, the purpose of which was to secure
the requisite funds prior to ASARCO’s discharge in
bankruptcy.3 Atlantic Richfield points to the
voluminous discovery materials generated in this case,
arguing that the 2009 Decree created no new or
additional cleanup obligations with respect to the East
Helena Site, but merely constituted a means of funding
pre-existing obligations. ASARCO argues that the 2009
Decree requires new actions and costs that fall outside

3

The Court is reassured that its holding in this case will not result
in an unfunded clean-up liability. Sufficient funds have been
dedicated to this site in the 2009 Decree, thereby addressing the
numerous hazardous substances that have plagued this property
and its surroundings since 1888.

App. 188
the parameters of the 1998 Decree, primarily related to
off-site remediation of groundwater contamination and
the broad powers and wide discretion given to the trust
it creates and funds.
The Court has scrutinized the extensive materials
submitted by both parties. However, the Decrees
themselves are clear and comprehensive. They are not
ambiguous, and no extrinsic evidence of intent or effect
is necessary or appropriate. The contents of those
documents compel the conclusion that the 1998 Decree
was comprehensive in scope, and that the 2009 Decree
memorialized and funded obligations originally
established in the 1998 Decree in the context of
bankruptcy proceedings. ASARCO fails to point to any
new actions that the 2009 Decree imposes with respect
to the East Helena Site.
ASARCO’s primary argument relates to its off-site
obligations. ASARCO relies heavily on a provision in
the “Background” section of the 1998 Decree which
states in full: “WHEREAS, the United States and
ASARCO have been engaged in national negotiations
to resolve major environmental compliance issues at
ASARCO facilities in a cooperative, innovative manner,
without the transaction costs associated with
protracted litigation.” (Doc. 156-12 at 6.) ASARCO
claims this is the express purpose of the Decree, and
places strong emphasis on the words “at ASARCO
facilities” in order to argue that the Decree was limited
in scope to include only ASARCO properties. Thus, as
its theory goes, contamination – including groundwater
contamination – migrating outside the boundaries of
ASARCO property falls outside the purpose of the 1998

App. 189
Decree. The Court will not interpret this prefatory
language in the introductory sentence of the Decree to
mean that everything that follows applies exclusively
to the East Helena land owned by ASARCO. Such an
conclusion is not warranted, particularly when viewed
in the context of the extensive provisions that follow,
many of which implicate contamination outside of the
circle ASARCO now wishes the Court to draw. The
subsection of the 1998 Decree dedicated to ASARCO’s
obligations as to corrective actions detail numerous
requirements related to investigation, studies, and
implementation of corrective measures, all of which
were imposed to prevent or mitigate the migration of
hazardous materials “at and/or from the Facility.”
(Doc. 156-12 at 26 (emphasis added).) Additionally, the
provisions detailing the possible “RFI work plan”
contain requirements that apply to the migration of
hazardous material “at or from the Facility,” and in at
least one instance “from the Facility.” (Id. at 33-34.)
The requirements of the corrective measures study
(“CMS”) are even more externally focused. The CMS is
to address “the entire Facility, including areas to which
hazardous waste or hazardous constituents have, or
may reasonably be expected to migrate beyond the
Facility boundaries.” (Doc. 156-12 at 38, ¶ 60.)
Specifically, ASARCO is to “identify, screen and
develop alternatives for removal, containment,
treatment, and/or other remediation of releases of
hazardous waste or hazardous constituents, at or
migrating from the facility.” (Id. at ¶ 62.) Thus, the
plain language of the 1998 Decree simply cannot
support ASARCO’s position on this point.

App. 190
ASARCO also contends that these “scattered
references to the performance of off-site remediation
activity” are limited to obligations to study and
investigate such activity, and not act, claiming that the
$99.24 million groundwater remediation project at the
heart of Montana’s subsequent CERCLA claim was
thus outside the parameters of the 1998 Decree. (Doc.
161 at 26.) However, the Decree describes the
painstaking process by which the EPA, ASARCO, and
the public at large will ultimately settle on what is to
be done after all the studies and investigations of
contamination at or from the Facility are completed.
(Doc. 156-12 at 43-46). After seemingly endless rounds
of comment, revision, and approval “ASARCO shall
commence work to implement the tasks required” by
the resulting document. (Id at 46, ¶ 82.) Thus, while
the precise contours of the specific remedial actions are
ultimately to be established through the exhaustive
process established in the 1998 Decree, the Decree
itself clearly addresses liability and remedial actions
pertaining not just to ASARCO’s Facility, but to
contamination that has migrated from that facility,
including to the groundwater (Doc. 156-12 at 40, ¶ C).
The 1998 Decree anticipates sweeping remedial actions
that ASARCO is obligated to undertake.
The Court now turns to the June 2009 Decree to
determine what response actions or costs (or, as the
parties refer to it generally, “new work”), if any, it
requires that were not covered in the 1998 Decree.
ASARCO’s main argument is based on the $99 million
pump-and-treat groundwater remedy executed by
METG pursuant to its authority under the 2009
Decree. This is the only “new” work that ASARCO

App. 191
contends is required under the 2009 Decree. However,
the Decree only requires the “payment of $99.294
million to fund future Environmental Actions and
certain future oversight costs of the Governments with
respect to the East Helena Designated Property.” (Doc.
159-4 at 19.) It makes no specific mention of how the
money is to be spent, and does not mention a pumpand-treat system. That is, the 2009 Decree does not
mention groundwater, nor does it require the Trust to
spend the $99.294 million on a pump-and-treat system.
Thus, the Court concludes from its reading of the two
consent decrees that the only work the Trust is
required to perform and fund under the 2009 Decree
are the pre-existing obligations ASARCO had yet to
complete under the previous agreements, including
primarily the 1998 Decree. Stated simply, there was no
“new” work created by the 2009 Decree.
Conclusion
Because ASARCO failed to file a claim for
contribution within three years of the 1998 consent
decree, its contribution action now before the Court is
time-barred pursuant to CERCLA Section 113(g)(3)(B).
The 2009 consent decree does not create any additional
work or liability as to the East Helena Site outside of
the 1998 consent decree, and ASARCO has failed to
raise any genuine issue for trial.
As a final matter, ASARCO has filed a motion to
strike materials referenced in and attached to Atlantic
Richfield’s reply brief on its motion for summary
judgment (Docs. 180-1, 180-2, 180-3). Because these
materials had no bearing on the Court’s decision on the

App. 192
motion for summary judgment, the motion to strike
will be denied as moot.
IT IS ORDERED that:
(1)

Plaintiff ASARCO’s motion to strike (Doc.
181) is DENIED as moot;

(2)

Defendant Atlantic Richfield’s motion for
summary judgment (Doc. 153) is GRANTED;

(3)

This case is DISMISSED, and the Clerk of
Court is directed to enter judgment in favor
of Defendant Atlantic Richfield Company.

Dated this 26th day of August, 2014.
/s/ Dana L. Christensen
Dana L. Christensen, Chief Judge
United States District Court

App. 193

APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 14-35723
D.C. No. 6:12-cv-00053-DLC
District of Montana, Helena
[Filed: October 18, 2017]
__________________________________________
ASARCO LLC, a Delaware corporation,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
ATLANTIC RICHFIELD COMPANY, a
)
Delaware corporation,
)
)
Defendant-Appellee.
)
__________________________________________)
ORDER
Before: FISHER, PAEZ, and CALLAHAN, Circuit
Judges.
Atlantic Richfield Company’s Petition for Panel
Rehearing or Rehearing En Banc is DENIED.

App. 194

APPENDIX G
42 U.S.C.S. § 9613
§ 9613. Civil proceedings
****
(f) Contribution.
(1)Contribution. Any person may seek contribution
from any other person who is liable or potentially
liable under section 107(a) [42 USCS § 9607(a)],
during or following any civil action under section
106 [42 USCS § 9606] or under section 107(a) [42
USCS § 9607(a)]. Such claims shall be brought in
accordance with this section and the Federal Rules
of Civil Procedure, and shall be governed by Federal
law. In resolving contribution claims, the court may
allocate response costs among liable parties using
such equitable factors as the court determines are
appropriate. Nothing in this subsection shall
diminish the right of any person to bring an action
for contribution in the absence of a civil action
under section 106 or section 107 [42 USCS § 9606 or
9607].
(2)Settlement. A person who has resolved its
liability to the United States or a State in an
administrative or judicially approved settlement
shall not be liable for claims for contribution
regarding matters addressed in the settlement.
Such settlement does not discharge any of the other
potentially liable persons unless its terms so

App. 195
provide, but it reduces the potential liability of the
others by the amount of the settlement.
(3)Persons not party to settlement.
(A)If the United States or a State has obtained
less than complete relief from a person who has
resolved its liability to the United States or the
State in an administrative or judicially approved
settlement, the United States or the State may
bring an action against any person who has not
so resolved its liability.
(B)A person who has resolved its liability to the
United States or a State for some or all of a
response action or for some or all of the costs of
such action in an administrative or judicially
approved settlement may seek contribution from
any person who is not party to a settlement
referred to in paragraph (2).
(C)In any action under this paragraph, the
rights of any person who has resolved its
liability to the United States or a State shall be
subordinate to the rights of the United States or
the State. Any contribution action brought under
this paragraph shall be governed by Federal law.
(g) Period in which action may be brought.
(1)Actions for natural resource damages. Except as
provided in paragraphs (3) and (4), no action may be
commenced for damages (as defined in section
101(6) [42 USCS § 9601(6)]) under this Act, unless
that action is commenced within 3 years after the
later of the following:

App. 196
(A)The date of the discovery of the loss and its
connection with the release in question.
(B)The date on which regulations are
promulgated under section 301(c) [42 USCS
§ 9651(c)].
With respect to any facility listed on the National
Priorities List (NPL), any Federal facility identified
under section 120 [42 USCS § 9620] (relating to
Federal facilities), or any vessel or facility at which
a remedial action under this Act is otherwise
scheduled, an action for damages under this Act
must be commenced within 3 years after the
completion of the remedial action (excluding
operation and maintenance activities) in lieu of the
dates referred to in subparagraph (A) or (B). In no
event may an action for damages under this Act
with respect to such a vessel or facility be
commenced (i) prior to 60 days after the Federal or
State natural resource trustee provides to the
President and the potentially responsible party a
notice of intent to file suit, or (ii) before selection of
the remedial action if the President is diligently
proceeding with a remedial investigation and
feasibility study under section 104(b) or section 120
[42 USCS § 9604(b) or § 9620] (relating to Federal
facilities). The limitation in the preceding sentence
on commencing an action before giving notice or
before selection of the remedial action does not
apply to actions filed on or before the enactment of
the Superfund Amendments and Reauthorization
Act of 1986 [enacted Oct. 17, 1986].

App. 197
(2)Actions for recovery of costs. An initial action for
recovery of the costs referred to in section 107 [42
USCS § 9607] must be commenced—
(A)for a removal action, within 3 years after
completion of the removal action, except that
such cost recovery action must be brought within
6 years after a determination to grant a waiver
under section 104(c)(1)(C) [42 USCS
§ 9604(c)(1)(C)] for continued response action;
and
(B)for a remedial action, within 6 years after
initiation of physical on-site construction of the
remedial action, except that, if the remedial
action is initiated within 3 years after the
completion of the removal action, costs incurred
in the removal action may be recovered in the
cost recovery action brought under this
subparagraph.
In any such action described in this subsection, the
court shall enter a declaratory judgment on liability
for response costs or damages that will be binding
on any subsequent action or actions to recover
further response costs or damages. A subsequent
action or actions under section 107 [42 USCS
§ 9607] for further response costs at the vessel or
facility may be maintained at any time during the
response action, but must be commenced no later
than 3 years after the date of completion of all
response action. Except as otherwise provided in
this paragraph, an action may be commenced under
section 107 [42 USCS § 9607] for recovery of costs
at any time after such costs have been incurred.

App. 198
(3)Contribution. No action for contribution for any
response costs or damages may be commenced more
than 3 years after—
(A)the date of judgment in any action under this
Act for recovery of such costs or damages, or
(B)the date of an administrative order under
section 122(g) [42 USCS § 9622(g)] (relating to
de minimis settlements) or 122(h) [42 USCS
§ 9622(h)] (relating to cost recovery settlements)
or entry of a judicially approved settlement with
respect to such costs or damages.
(4)Subrogation. No action based on rights
subrogated pursuant to this section by reason of
payment of a claim may be commenced under this
title [42 USCS §§ 9601 et seq.] more than 3 years
after the date of payment of such claim.
(5)Actions to recover indemnification payments.
Notwithstanding any other provision of this
subsection, where a payment pursuant to an
indemnification agreement with a response action
contractor is made under section 119 [42 USCS
§ 9619], an action under section 107 [42 USCS
§ 9607] for recovery of such indemnification
payment from a potentially responsible party may
be brought at any time before the expiration of 3
years from the date on which such payment is
made.
(6)Minors and incompetents. The time limitations
contained herein shall not begin to run—

App. 199
(A)against a minor until the earlier of the date
when such minor reaches 18 years of age or the
date on which a legal representative is duly
appointed for such minor, or
(B)against an incompetent person until the
earlier of the date on which such incompetent’s
incompetency ends or the date on which a legal
representative is duly appointed for such
incompetent.
****

App. 200

APPENDIX H
RCRA CONSENT DECREE
EAST HELENA PLANT
LODGED VERSION: JANUARY 23, 1998
COPIED TO:

Jon Nickel
John Cavanaugh
Terry Coble
John Shaw
Rich Marcus
Curt Dungey

Fern Daves
Clark Otterness
Bob Braico
Bill Thompson
John Ballantyne
Cathy Laughner

LOIS J. SCHIFFER
Assistant Attorney General
Environment and Natural Resources Division
United States Department of Justice
MICHAEL D. GOODSTEIN
Senior Attorney
Environmental Enforcement Section
Environment and Natural Resources Division
United States Department of Justice
P.O. Box 7611
Washington, D.C. 20044-7611
(202) 514-1111
JOHN N. MOSCATO
Trial Attorney
Environmental Enforcement Section
Environment and Natural Resources Division
United States Department of Justice

App. 201
999 18th Street, Suite 945
Denver, Colorado 80202
(303) 312-7346
SHERRY SCHEEL MATTEUCCI
United States Attorney
District of Montana
LORRAINE D. GALLINGER
Assistant United States Attorney
District of Montana
P.O. Box 1478
Billings, Montana 59103
(406) 657-6101
Attorneys for the United States
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
CONSENT DECREE
Civil Action No.: CV 98-3-H-CCL
_______________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff,
)
)
v.
)
)
ASARCO INCORPORATED,
)
)
Defendant.
)
_______________________________________)

App. 202
TABLE OF CONTENTS
I.

BACKGROUND. . . . . . . . . . . . . . . . . . . . . . . . 2

II.

JURISDICTION AND VENUE . . . . . . . . . . . 4

III.

BINDING EFFECT . . . . . . . . . . . . . . . . . . . . . 4

IV.

OBJECTIVES . . . . . . . . . . . . . . . . . . . . . . . . . 5

V.

DEFINITIONS . . . . . . . . . . . . . . . . . . . . . . . . 6

VI.

MATERIALS
MANAGEMENT
REQUIREMENTS. . . . . . . . . . . . . . . . . . . . . 14

VII.

CORRECTIVE ACTION AT EAST HELENA
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

VIII. EAST
HELENA
SUPPLEMENTAL
ENVIRONMENTAL PROJECT . . . . . . . . . . 60
IX.

COMMUNITY RELATIONS AT EAST
HELENA . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

X.

ENVIRONMENTAL MANAGEMENT AND
PROTECTION REQUIREMENTS . . . . . . . . 64

XI.

REPORTING . . . . . . . . . . . . . . . . . . . . . . . . . 79

XII.

PENALTY FOR PAST VIOLATIONS . . . . . 84

XIII. STIPULATED PENALTIES . . . . . . . . . . . . . 84
XIV. MANNER OF PAYMENT . . . . . . . . . . . . . . . 86
XV.

FORCE MAJEURE . . . . . . . . . . . . . . . . . . . . 87

XVI. DISPUTE RESOLUTION . . . . . . . . . . . . . . . 89
XVII. ACCESS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94

App. 203
XVIII. EFFECT OF DECREE . . . . . . . . . . . . . . . . . 95
XIX. COSTS OF SUIT . . . . . . . . . . . . . . . . . . . . . 100
XX.

NOTICES AND SUBMISSIONS . . . . . . . . 101

XXI. MODIFICATION . . . . . . . . . . . . . . . . . . . . . 104
XXII. PUBLIC COMMENT. . . . . . . . . . . . . . . . . . 105
XXIII. CONTINUING JURISDICTION OF THE
COURT. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 105
XXIV. TERMINATION . . . . . . . . . . . . . . . . . . . . . 105

App. 204
TABLE OF EXHIBITS
Exhibit 1: Memorandum dated April 26, 1989 to
Hazardous Waste Management Division
Directors
Exhibit 2: SEP Plan
Exhibit 3: List of ASARCO Facilities for EMS
Exhibit 4: AMS Standard
Exhibit 5: EMS Policy
Exhibit 6: EMS Document and Task Development
Plan Model
Exhibit 7: Environmental Metrics

App. 205
I.

BACKGROUND

WHEREAS, the United States and ASARCO have
been engaged in national negotiations to resolve major
environmental compliance issues at ASARCO facilities
in a cooperative, innovative manner, without the
transaction costs associated with protracted litigation;
WHEREAS, as a result of Phase I of these national
negotiations, an agreement has been reached embodied
in this consent decree and a related consent decree in
the District of Arizona which provides for resolution of
alleged claims by the United States against ASARCO
under the Federal Resource Conservation and Recovery
Act and the Federal Clean Water Act;
WHEREAS, the national agreement includes
implementation of compliance measures, corrective
action, and a supplemental environmental project at
the East Helena Lead Smelter Facility, environmental
protection and management measures at ASARCO’s
facilities nation-wide, and payment of civil penalties for
alleged past violations at the East Helena Lead
Smelter Facility under this consent decree; and,
implementation of an extensive compliance plan at
ASARCO’s Ray Mine in Arizona and payment of civil
penalties for alleged past violations under the decree in
the District of Arizona;
WHEREAS, as the national agreement is embodied
in two consent decrees the United States reserves the
right to withdraw its consent from this Decree based on
public comment received on either decree;
WHEREAS, concurrently with the lodging of this
Consent Decree, Plaintiff, the United States of America

App. 206
(“United States”), on behalf of the United States
Environmental Protection Agency (“EPA”), is filing a
complaint (the “Complaint”) against Defendant,
ASARCO Incorporated (“ASARCO”);
WHEREAS, ASARCO owns and operates a lead
smelting facility in East Helena, Montana (“East
Helena Facility” or “the Facility”);
WHEREAS, the United States’ claims are brought
pursuant to the Resource Conservation and Recovery
Act, as amended, 42 U.S.C. §§ 6901 et. seq. (“RCRA”)
and the Federal Clean Water Act (“CWA”), 33 U.S.C.
§ 1301 et. seq., and seek the imposition of civil
penalties and injunctive relief pursuant to the
authority of Section 3008(a), (g) and (h) of RCRA, 42
U.S.C. §§ 6928(a), (g) and (h), and Section 309 (b) and
(d) of the CWA, 33 U.S.C. § 1319(b) and (d);
WHEREAS, ASARCO disputes the allegations of
the Complaint, and its assent to this Consent Decree
shall not constitute or be construed as an admission of
liability; and
WHEREAS, the parties agree and the Court, by
entering this Decree, finds that settlement of this
matter, without protracted litigation, is fair,
reasonable, and in the public interest.
NOW THEREFORE, it is hereby ORDERED,
ADJUDGED, and DECREED as follows:

App. 207
*

*

*

[pp. 19]
VII.

CORRECTIVE ACTION AT EAST HELENA

Purpose
18. The purpose of this Part of the Decree is to
provide for the efficient and effective transfer of
responsibility for certain remedial activities at
ASARCO’s East Helena Facility from EPA’s CERCLA
program to its RCRA program. This transfer of lead
responsibility is based upon a determination by EPA
that the RCRA corrective action program is better
suited for application to this operating industrial
facility than is the CERCLA program since it can allow
the framing of remedial investigation steps and the
adoption of corrective measures in a manner tailored to
circumstances at this operating facility.
19. In conducting RCRA corrective action at this
facility, EPA intends to take full account of the
remedial investigation/feasibility study (“RI/FS”) and
remedial measures already undertaken at this facility
with respect to five “operable units”: the process ponds,
groundwater, surface water and soils, the slag pile and
the ore storage areas. To the extent that such work
fully addresses the requirements of the RCRA
corrective action program, no additional work on these
matters will be required. Should it be determined,
however, that additional work is required on any of
these matters, remedial investigations shall take full
account of all previously gathered information in a
manner which reflects the thoroughness and quality of
such information; and any corrective measures

App. 208
required shall take full account of all information
gathered, as well as the previously conducted and
ongoing work. In particular, EPA recognizes that the
facility has already implemented substantial remedial
measures with respect to its process ponds pursuant to
a record of decision (ROD) of November 22, 1989, and
that an RI/FS for the slag pile operable unit was
completed. Accordingly, the primary focus of further
remedial investigation and potential corrective
measures pursuant to this Decree will be on any
contamination in groundwater, surface water and soils,
and the ore storage areas.
20. A further purpose of this Part of the Decree is to
come to a conclusion in an expedited manner on
ASARCO’s proposed vehicle for disposition of certain
contaminated soil and sediment that have been
accumulated at the East Helena Facility as a result of
implementation of the process ponds ROD and other
excavation activities. ASARCO has submitted to EPA
an application for approval of a new onsite landfill for
disposition of the approximately 75,000 cubic yards of
contaminated soil and sediment presently at the site.
EPA plans to expeditiously complete its responsibilities
with regard to ASARCO’s proposal. EPA has
preliminarily determined that should ASARCO’s
proposal be approved prior to approval of corrective
measures pursuant to the corrective measures
implementation provisions below, the approved
proposal should qualify as an “interim measure” that,
by definition, will be consistent with the objectives of
any long-term remedy at the Facility.

App. 209
Basis For Corrective Action Jurisdiction
21. This Part of the Decree is based upon Section
3008 (h) of RCRA, 42 U.S.C. § 6928(h). ASARCO
admits that it accepted and stored without a RCRA
permit or interim status approximately 166 drums of
spent caustic waste in the period February-April 1996.
Approximately one-half of this spent caustic waste was
charged to the blast furnace. For purposes of this
Decree, ASARCO concedes that it should have had a
permit or interim status to receive this material under
hazardous waste manifest and, accordingly, EPA has
corrective action authority at the Facility.
Statement of Requirements
22. Through this Part of the Decree, ASARCO
agrees to:
a. Identify, and provide to EPA on request,
studies performed at, and data and information
collected regarding environmental conditions at the
Facility prior to the effective date of this Decree;
b. Review the effectiveness of any measures
which would meet the definition of interim measures,
performed at the Facility prior to the effective date of
this Decree and submit this information to EPA in
combination with the information required in
Subparagraph a. above in a report entitled Current
Conditions/Release Assessment;
c. Perform interim measures where possible and
appropriate, at the Facility;

App. 210
d. Perform a RCRA Facility Investigation (“RFI”)
to determine the full nature and extent of any and all
releases of hazardous wastes and/or hazardous
constituents at or from the Facility;
e. Perform a Corrective Measure Study (“CMS”)
to identify and evaluate alternatives which will prevent
or mitigate the continuing migration of or future
release of hazardous waste or hazardous constituents
at and/or from the Facility, and to restore
contaminated media to standards acceptable to EPA;
f. Implement all Corrective Measures (“CMI”)
chosen by EPA after review of the CMS and public
input, which will be chosen because they best prevent
or mitigate the continuing migration of or future
release of hazardous waste or hazardous constituents
at and/or from the Facility, and will result in the
remediation of contaminated media in a manner
protective of human health and the environment; and
g. Conduct such activities in accordance with
existing regulations and guidance, including, the
preamble to the regulations EPA proposed in 1990 to
promulgate as 40 C.F.R. Part 264, Subpart S, the CAP
and the ANPR; then applicable EPA regulations which
supersede presently existing EPA regulations or
guidance; or Montana regulations which have been
incorporated into the federally authorized program
which supersede existing EPA regulations or guidance.
Current Conditions/Release Assessment
23. Within one hundred twenty (120) days from the
effective date of this Part of the Decree, ASARCO shall
submit a current conditions and release assessment

App. 211
report (the “CC/RA Report”) for the Facility to EPA.
The purpose of the CC/RA Report is to assess the
completeness and quality of the existing data to be
used to define, in whole or in part, the nature and
extent of any hazardous waste and hazardous
constituent releases, if any, at, or migrating from, the
Facility.
24. The CC/RA Report shall:
a. list any and all sources of existing data which
might be used to define, in whole or in part, the nature
and extent of any hazardous waste or hazardous
constituent releases, if any, at, or migrating from, the
Facility, including whether a data quality analysis
exists for such data;
b. explain whether ASARCO believes that EPA
has a copy of each such source of data; and
c. for each source of data which ASARCO does
not believe EPA already has a copy of, identify:
(1) its then present location;
(2) the intended retention time by ASARCO;
(3) any privilege or confidentiality claims which
may attach, or would be asserted by ASARCO if
EPA were to request a copy of such source; and
(4) any other relevant information.
25. The CC/RA Report shall address existing
data quality issues, including:
a. summary of the quality of the existing data;

App. 212
b. identification of data ASARCO proposes not be
used in assessing site conditions based on data quality
concerns;
c. identification of the areas of the Facility for
which existing data are adequate to define releases and
supply information for identification and evaluation of
interim and corrective measures;
d. identification of the areas of the Facility for
which existing data are adequate to demonstrate that
there are, or have been, no releases of hazardous waste
and/or hazardous constituents from any source and
that no additional consideration is needed;
e. identification of the areas of the Facility for
which existing data are adequate to demonstrate that
remedial work is underway, or has been completed,
which, when completed, will remediate that area in a
manner, and to the degree, equivalent to the remedial
goals of the RCRA corrective action program;
f. identification of the areas of the Facility for
which existing data are not adequate for such
determinations; and
g. identification of additional Facility data needs,
including a discussion of whether such data should be
gathered as an interim measure, or through the RFI.
26. The CC/RA Report shall detail the nature and
extent of each known or legitimately suspected release
of hazardous waste and/or hazardous constituent,
whether the source is a solid and/or hazardous waste
management unit, or other source (such as a one time
release), and migration pathways of releases, at or

App. 213
from the Facility. A discussion of any significant
impacts quality assurance/quality control issues might
have on such releases should also be provided.
27. In the CC/RA Report, ASARCO shall describe
information regarding any existing interim measures
as follows:
a. the objectives, design, construction, operation
and maintenance requirements of any measures which
are, or may be used as, interim measures;
b. whether each is consistent with and may be
integrated into any long term corrective measures;
c. any changes/additions which would increase
their effectiveness; and
d. all additional or alternative interim measures
which might better stabilize the releases of hazardous
waste and hazardous constituents, at or migrating from
the Facility.
28. In the CC/RA Report, ASARCO shall describe
information regarding any final remedial actions as
follows:
a. the objectives, design, construction, operation
and maintenance requirements of any final remedial
measures;
b. whether each such measure is consistent with
and may be integrated into any long term corrective
measures; and

App. 214
c. any changes/additions which would increase
their effectiveness either as interim measures or
corrective measures.
29. The geographic area for study under this Part of
the Decree shall include the Facility plus any off-site
areas to which hazardous wastes or hazardous
constituents may have migrated.
30. EPA shall review the CC/RA Report and shall
notify ASARCO in writing which data, if any, not
already in EPA’s possession, ASARCO must submit.
Unless a different time frame for submittal is specified,
with justification therefor, ASARCO shall have thirty
(30) days to submit such additional information.
31. EPA shall then review the CC/RA Report, and
all data in its possession, and shall notify ASARCO in
writing which data EPA has determined are sufficient
for the purposes of this Part of the Decree.
32. Unless the CC/RA Report is not acceptable, EPA
shall provide written justification to support EPA’s
determination that any portion of the CC/RA Report is
incomplete.
33. ASARCO shall modify the CC/RA Report to
reflect any EPA comments, and shall resubmit it
within forty-five (45) days of receipt of EPA comments,
unless a different period is agreed to by ASARCO and
EPA.
Interim Measures and Stabilization
34. Interim measures, in addition to those which
may already be in place, shall, for the purposes of this

App. 215
Part of the Decree, be used whenever possible and
appropriate to achieve the goal of stabilization, which
is defined for purposes of this Part of the Decree to
mean the control or abatement of imminent threats to
human health and/or the environment, and prevention
or minimization of the spread of hazardous waste or
hazardous constituents while long-term corrective
measure alternatives are being evaluated.
35. EPA will review ASARCO’s CC/RA Report and
other relevant available information and select all
appropriate interim measures for implementation by
ASARCO. If deemed appropriate by EPA such selection
may be deferred until additional data is collected.
36. Upon written request of EPA, ASARCO shall
submit an interim measures work plan (“IM Work
Plan”) which is no less comprehensive than the IM
Work Plan described in the Final CAP, within sixty
(60) days of such request.
37. All IM Work Plans shall ensure that the interim
measures are designed to mitigate immediate or
potential threat(s) to human health and/or the
environment, and are consistent with the objectives of
and contribute to the performance of any long-term
remedies which may be required at the Facility.
38. All IM Work Plans shall discuss all changes
and/or additions which may significantly increase the
effectiveness of any existing interim measures as well
as additional or alternative interim measures which
would significantly increase the stabilization or
containment of releases of hazardous waste or

App. 216
hazardous constituents, if any, at or migrating from the
Facility.
39. Each IM Work Plan shall also include the
following sections:
a. Public Involvement Plan;
b. Data Collection Quality Assurance;
c. Data Management; and
d. Interim Measure Construction Quality
Assurance.
40. Concurrent with the submission of an IM Work
Plan, ASARCO shall submit to EPA a Health and
Safety Plan (“HSP”) using the Final CAP as a
guideline. The HSP shall conform to applicable health
and safety regulations. EPA will not approve the HSP
but will review to confirm that all necessary elements
are included and that the plan provides for protection
of human health.
RCRA Facility Investigation (RFI)
41. If, after reviewing the Final CC/RA Report EPA
determines that an RFI is necessary, within one
hundred and twenty (120) days of receipt of EPA’s
determination, ASARCO shall submit to EPA for
review and approval a Work Plan for RCRA Facility
Investigation (“RFI Work Plan”); provided, however,
that if at least one IM Work Plan has been required
pursuant to this Part of the Decree, the period for
submission shall be within two hundred ten (210) days
following ASARCO’s receipt of EPA’s determination.
Any RFI Workplan shall use the CAP as a guideline

App. 217
and incorporate any elements noted in the CAP as
appropriate for facility-specific conditions unless
superseding regulations or guidance significantly
modify or eliminate any such elements.
42. Relevant EPA guidance may include, but is not
limited to the “RCRA Facility Investigation (RFI)
Guidance” (Interim Final, May 1989, EPA 530/SW-89031 (OSWER Directive 9502.00-6D)); “RCRA GroundWater Monitoring Technical Enforcement Guidance
Document” (OSWER Directive 9950.1, September
1986); and the Final CAP.
43. The RFI Work Plan shall document the
procedures ASARCO will use in conducting
investigations necessary to:
a. characterize the source(s) of hazardous waste
or hazardous constituent releases or potential releases
of any hazardous waste or hazardous constituent;
b. identify and determine the nature, extent, and
the rate of migration of releases of hazardous wastes or
hazardous constituents at or from the Facility;
c. determine the likely routes of migration of
releases of hazardous waste or hazardous constituents,
if any, at or from the Facility including
characterization of the geology and hydrology of the
Facility;
d. determine the degree and extent of, or threat
of, migration of releases of hazardous waste and
hazardous constituents at or from the Facility;
e. identify actual and potential receptors;

App. 218
f. support the development of corrective measure
alternatives; and
g. be definitive enough to support the selection
of corrective measures.
44. In addition to the work required under
paragraph 43.e. immediately above, the RFI Work Plan
may describe the methods to be used to gather
information to support a risk assessment of the
conditions at the Facility, and to conduct an
assessment of risk to identified receptors and their
environment.
45. The RFI Work Plan shall address all areas of the
Facility, and any contamination which has, or can be
expected to have, migrated from the Facility.
46. The RFI Work Plan shall list all Areas to be
Investigated.
47. The RFI Work Plan shall describe the
investigation to be done at each Area to be
Investigated, including an investigation of the complete
lateral and vertical extent of any releases of hazardous
waste or hazardous constituents from such areas.
48. The RFI Work Plan shall define the methods of
analysis to evaluate the presence, magnitude, extent,
direction, and rate of migration of any releases of any
hazardous waste or hazardous constituents.
49. The RFI Work Plan shall be developed so that,
if followed, ASARCO can elicit data of adequate
technical quality to support the development and
evaluation of corrective measure alternatives during

App. 219
any Corrective Measures Study; and to support a risk
assessment.
50. If additional Areas to be Investigated are found
on the Facility, or significant new information relating
to hazardous waste or hazardous constituent releases
not included in the CC/RA Report is discovered at the
Facility, ASARCO shall include such information in its
next progress report.
51. The RFI Work Plan shall be modified within
sixty (60) days of notification from EPA, to address
newly identified releases, threatened releases, or Areas
to be Investigated.
52. The RFI Work Plan shall include:
a. a Project Management Plan;
b. a Data Collection Quality Assurance Plan;
c. a Data Management Plan for each unit/area or
groups of units/areas as appropriate;
d. a Health and Safety Plan;
e. a Community Relations Plan;
f. a Borehole Abandonment Plan; and
g. a schedule for implementation of all activities
described in the RFI Work Plan, including preparation
and submission of preliminary and final reports to
EPA.
53. The RFI Work Plan and activities conducted
pursuant to the RFI Work Plan are subject to

App. 220
acceptance and approval by EPA. Such shall not be
unreasonably withheld by EPA.
RFI Reports
54. In compliance with the schedule developed in
the RFI Workplan, ASARCO shall prepare an analysis
and summary of the RFI and its results. The objective
is to ensure that the investigative data collected
pursuant to the RFI Work Plan are sufficient in quality
and quantity to describe the nature, extent and rate of
releases of hazardous waste or hazardous constituents,
threat(s) to human health and/or the environment
(including risk assessment analysis), and to support
any Corrective Measures Study.
Data Analysis
55. ASARCO shall analyze all data collected
pursuant to this Part of the Decree and prepare reports
on whether the gathering and analysis of such data
met quality assurance and quality control and other
applicable data gathering and analysis procedures.
a. The reports shall describe the extent of all
releases of hazardous wastes or hazardous constituents
in relation to site or background levels at (i) the source;
(ii) the boundaries of the Area to be Investigated; and
(iii) off-site locations, if any, to which the releases have
migrated. Background groundwater values for all
applicable hazardous constituents described in the RFI
Work Plan shall be obtained from analyses of water
extracted from appropriate upgradient wells.
b. All sampling and analyses shall be conducted
in accordance with the Data Collection Quality

App. 221
Assurance Plan included as part of the approved RFI
Work Plan.
c. All sampling locations, methods and
equipment used shall be documented in a field log and
all locations shall be identified on detailed site maps.
56. Laboratory, Bench-Scale, and Field Pilot-Scale
Studies.
a. With prior EPA approval, ASARCO may
conduct laboratory and/or bench-scale studies and field
and pilot-scale testing to determine the applicability of
a corrective measure technology or technologies to site
conditions.
b. ASARCO shall provide EPA with a work plan
defining proposed laboratory and bench scale studies
and field and pilot-scale testing.
c. ASARCO shall analyze the technologies based
on literature review, vendor contacts, and past
experience, to determine the testing requirements.
Corrective Measures Study (CMS)
57. Unless as part of the RFI Final Report (as
defined in the approved RFI Work Plan) ASARCO
thoroughly supports and documents in writing that the
risk assessment investigations and analyses conducted
during the RFI demonstrate that no Corrective
Measures Study is warranted and EPA accepts such
demonstration, within ninety (90) days following
receipt of notification in writing by EPA of EPA
approval of the RFI Final Report (as defined in the
approved RFI Work Plan), ASARCO shall prepare and

App. 222
submit to EPA a Corrective Measure Study (“CMS”)
Work Plan using as a guideline; then applicable EPA
regulations; the CAP or other applicable guidance then
in effect; or Montana regulations which have been
incorporated into the federally authorized program.
58. EPA will review and comment on an acceptable
CMS Work Plan pursuant to Paragraphs 77-82 (Agency
Review, Acceptance and Approvals) below.
59. ASARCO shall revise and resubmit the CMS
Work Plan within thirty (30) days of receipt of EPA’s
written comments.
60. The CMS shall address the entire Facility,
including areas to which hazardous waste or hazardous
constituents have, or may reasonably be expected to
migrate beyond the Facility boundaries.
61. The CMS shall consist of four tasks:
(1) Identification and Development of Corrective
Measures Alternative(s); (2) Evaluation of
the Corrective Measure Alternative(s);
(3) Recommendation on Corrective Measure(s), and
justification therefor; and (4) Corrective Measure Study
Reports.
62. CMS TASK 1 - Identification and Development
of Corrective Action Alternatives. Based on the results
of the CC/RA, including the RI/FS previously conducted
for the CERCLA program to the degree the information
gathered and analyzed therein is of sufficient quality,
and based on the RFI, including risk assessment work
conducted pursuant to an approved RFI Work Plan,
ASARCO shall identify, screen and develop
alternatives for removal, containment, treatment,

App. 223
and/or other remediation of releases of hazardous
waste or hazardous constituents, at or migrating from
the Facility.
63. CMS TASK 2 - Evaluation of the Corrective
Measure Alternatives. ASARCO shall describe each
corrective measure alternative that passes through the
initial screening in CMS TASK 1 and assess each
remaining corrective measure alternative and its
components. The assessment shall consider technical,
environmental, and human health concerns.
64. CMS TASK 3 - Recommendation of Corrective
Measure(s) and justification therefor. ASARCO shall
justify and recommend corrective measure
alternative(s) using technical, human health,
environmental, and other appropriate criteria.
a. This recommendation shall include summary
tables,
b. as appropriate, designed to allow the
alternative or alternatives to be understood
and compared.
65. ASARCO will propose the corrective measure
alternative or alternatives to be implemented based on
the results of the evaluation discussed immediately
below. At a minimum, the following criteria will be
used to justify the proposal of the final corrective
measure or measures:
a. Target Remedial Objectives - Generally. The
corrective measures must comply with applicable
Federal and/or state statutes and regulations for the
protection of human health.

App. 224
(1) Target remedial objectives shall be
developed using, and ASARCO shall
explicitly identify, all applicable and/or
relevant State and Federal standards for the
protection of human health and the
environment (e.g., Safe Drinking Water Act
(“SDWA”) the Clean Water Act (“CWA”),
National Ambient Air Quality Standards,
federally approved state water quality
standards).
(2) If ASARCO chooses to conduct a risk
assessment, the results of that risk
assessment shall be included.
(3) Corrective Measures required by
regulation shall be implemented. Corrective
Measures otherwise described as preferred
(e.g., in preambles or guidance) by EPA or
the State of Montana, shall be noted.
b. Human Health. Corrective measures which
provide the minimum level of exposure to contaminants
and the maximum reduction in exposure over the
shortest period of time are preferred.
c. Groundwater. ASARCO shall provide
information to support the selection/development of
ground-water protection standards for all of the
hazardous constituents described in the RFI Work Plan
or Final RFI Report as either found in the ground
water during the RFI, or reasonably expected to
migrate to groundwater over time. ASARCO shall
specifically list applicable SDWA standards for such
constituents and describe where and, if they cannot be

App. 225
practicably met, why they may not be met after
implementation of this Part of the Decree is complete.
(1) The applicable ground-water protection
standards list shall consist of all of the
following (others may also be listed):
(a) for any hazardous constituents
described in the RFI Work Plans, the
respective value given in Table 1 at 40
C.F.R. § 264.94, if the background level of
the hazardous constituent is below the
level given in Table 1;
(b) the background level of
constituent in the ground water;

that

(c) an EPA approved risk based level
developed by ASARCO in accordance with
the “Risk Assessment Guidance for
Superfund: Volume 1 - Human Health
Evaluation Manual (Part B, Development
of Risk-Based Preliminary Remediation
Goals) (OSWER Directive 9285.7-01B)”;
and
(d) applicable State standards.
d. Environmental. The Corrective Measure or
Measures posing the least adverse impact (or greatest
improvement) over the shortest period of time on the
environment will be favored.
e. Technical. (NOTE: The HSWA permit
appendices may be useful in developing this portion of
the CMS.)

App. 226
(1) Performance - Corrective Measures which
are most effective at performing their
intended functions and maintaining
performance over extended periods of time
will be given preference;
(2) Reliability - Corrective Measures which
do not require frequent or complex operation
and maintenance activities and that have
proven effective under conditions similar to
those anticipated at the Facility will be given
preference;
(3) Implementability - Corrective Measures
which can be constructed and operated to
reduce levels of hazardous waste or
hazardous constituents to applicable
standards, or less, in the shortest period of
time will be preferred;
(4) Safety - Corrective Measures which pose
the least threats to the safety of area
residents and the environment, as well as
workers during implementation, will be
preferred; and
(5) Other Factors - such other relevant
factors as are appropriate, including
projected costs and other site-specific factors.
66. CMS TASK 4 - reports, including one designated
as the “Draft-Final CMS Report”, shall be submitted
per the approved CMS Work Plan, shall follow the
guidelines in the CAP as appropriate, and shall be
subject to EPA acceptance and approval. Such shall not
be unreasonably withheld by EPA. The Final CMS

App. 227
Report shall not become final until after the completion
of the public comment and modification procedures
described in this Part of the Decree.
Corrective Measures Implementation
67. After the procedures described in Paragraphs
23-69 and 85-88 of this Decree (CC/RA, Interim
Measures, RFI, CMS, Additional Work) have been
completed (except for ongoing requirements
thereunder), and the Draft-Final CMS Report is
complete, EPA shall select the appropriate corrective
measure(s), and notify ASARCO of it’s determination
on the corrective measures to be implemented (“EPA
Decision Document”). The EPA Decision Document
shall be in writing and shall state the basis for the
measure(s) selected, and shall respond to all significant
comments made during the comment period.
68. Within ninety (90) days of receipt of the EPA
Decision Document, ASARCO shall submit to EPA a
Corrective Measures Implementation (“CMI”) Work
Plan using as a guideline: then applicable EPA
regulations; the CAP and/or other applicable guidance
then in effect; or Montana regulations which have been
incorporated into the federally authorized program.
The CMI Work Plan shall be developed to implement
the decisions set forth and supported in the EPA
Decision Document, and shall detail all work and
related requirements and schedules for the timely
implementation and completion of such corrective
measures.
69. EPA shall conduct its review of and comment on
an acceptable CMI Work Plan pursuant to Paragraphs

App. 228
77-82 (Agency Review; Acceptance and Approvals)
below.
70. ASARCO shall revise and resubmit the CMI
Work Plan within thirty (30) days of receipt of EPA’s
written comments.
71. The CMI Work Plan and activities conducted
pursuant to the CMI Work Plan are subject to
acceptance and approval by EPA. Such shall not be
unreasonably withheld by EPA.
72. Upon ASARCO’s conclusion that it has achieved
the requirements specified in the EPA Decision
Document and elsewhere in and through
implementation of this Part of the Decree, ASARCO
shall submit to EPA for review and approval, a draft
Corrective Measure Completion Report (“CMC
Report”). The Draft CMC Report shall provide all
information necessary to support ASARCO’s
conclusions.
73. If the Draft CMC Report is acceptable, EPA
shall make the Draft CMC Report available to the
public for review and comment pursuant to Paragraphs
108-116 (Public Comment) of the Decree.
74. Following review of the Draft CMC Report and
taking into account comments made during the public
comment period; and pursuant to Paragraphs 77-82
(Agency Review; Acceptance and Approvals) below,
EPA will provide its comments on the Draft CMC
Report and/or notify ASARCO of its determination
regarding ASARCO’s conclusions, and EPA’s basis
therefor, in writing.

App. 229
75. ASARCO shall modify and resubmit the Draft
CMC Report within thirty (30) days of receipt of EPA’s
written comments, if necessary.
76. ASARCO’s obligations under this Part of the
Decree shall terminate upon EPA’s written approval of
the Final CMC Report.
Agency Review; Acceptance and Approvals
77. EPA will provide ASARCO with its written
approval, conditional approval, approval with
modification, rejection as not acceptable, disapproval
with comments and/or modifications, or notice of intent
to draft and approve, for any work plan, report (except
progress reports), specification or schedule submitted
pursuant to or required by this Part of the Decree.
78. EPA may reject and not comment on, any
submittal which EPA determines is not acceptable.
Submittal of a document not acceptable is a violation of
this Decree, unless such document is resubmitted prior
to the due date for such submittal, and EPA
determines that the submittal is acceptable.
79. ASARCO shall revise any work plan, report,
specification or schedule in accordance with EPA’s
written comments, and in accordance with the due date
specified herein, or otherwise in writing by EPA.
Revised submittals are subject to EPA approval,
approval with conditions, rejection as not acceptable,
disapproval with comments and/or modifications, or
notice of intent to draft and approve.
80. Any report, work plan, specification or schedule
approved by EPA, including those drafted by EPA,

App. 230
shall be automatically incorporated in this Decree upon
such written approval.
81. Prior to written approval, no report, work plan,
specification or schedule shall be construed as
approved and final. Oral advice, suggestions, or
comments given by EPA will not constitute an official
approval, nor shall any oral approval or oral assurance
of approval be considered binding on either party,
except as otherwise expressly provided for above.
82. Within thirty (30) days of approval, or approval
with modifications of any document, or receipt of a
document drafted by EPA after failure by ASARCO to
draft an approvable document after receipt of
comments from EPA, ASARCO shall commence work
to implement the tasks required by such document in
accordance with the standards, specifications and
schedules set forth in the document approved by EPA.
Submittals
83. ASARCO shall provide draft and final work
plans and reports to EPA in accordance with the
following schedule:
ACTIVITY

DUE DATE

CC/RA Report

120 days after entry of
this Decree

IM Work Plan

60 days after receipt of
EPA request

App. 231
RFI Work Plan

120 days after receipt by
ASARCO of EPA findings
on CC/RA Report unless
IM Work Plan was
required, in which case
210 days after receipt of
EPA findings

RFI Report

Per schedule contained
in EPA-approved RFI
Work Plan as amended
for Additional Work

CMS Work Plan

90 days after receipt of
EPA approval of the RFI
Report

CMS Reports

Per schedule contained
in approved CMS Work
Plan

CMI Work Plan

90 days after receipt of
EPA notification of
selection of corrective
measures
to
be
implemented

CMI Reports

Per schedule contained
in approved CMI Work
Plan

Progress Reports

Monthly, report to be
sent within 20 days after
end of each month.

App. 232
84. Two bound hard copies of all documents
required to be submitted pursuant to this Part of the
Decree shall be hand delivered, sent by certified mail,
return receipt requested, or by overnight express mail
or courier to the EPA Project Manager. In addition,
with the exception of progress reports, ASARCO shall
simultaneously submit a copy of all reports, tables and
spreadsheets, on IBM compatible diskettes. Progress
reports are to be submitted in original hard copy only.
The ASARCO and EPA Project Managers shall
determine what computer software is appropriate prior
to delivery of the first documents.
Additional Work
85. Based upon new information and/or changed
circumstances, EPA may determine or ASARCO may
propose that certain tasks, including investigatory
work, engineering evaluations, or procedure/
methodology modifications, are necessary in addition to
or in lieu of the tasks included in any EPA-approved
work plan.
86. If EPA determines that it is necessary for
ASARCO to perform additional work, EPA shall specify
in writing the technical support and other bases for its
determination. Within ten (10) days of the receipt of
such determination, ASARCO shall have the
opportunity to meet or confer with EPA to discuss the
additional work prior to beginning such work.
87. If required by EPA, ASARCO shall submit for
EPA approval a work plan for the additional work.
Such work plan(s) shall be submitted within sixty (60)
days of receipt of EPA’s determination that additional

App. 233
work is to be performed, or according to an alternative
schedule in the work plan established and justified by
EPA.
88. Upon approval of a work plan modified to reflect
additional work, ASARCO shall implement the work
plan in accordance with the revised schedule and
provisions contained therein.
Proposed Contractor/Consultant
89. All work performed pursuant to this Part of the
Decree shall be under the direction and supervision of
a professional engineer, hydrogeologist, geologist, or
environmental scientist with expertise in hazardous
waste site investigation and remediation. This person
shall have the technical expertise sufficient to
adequately perform and/or direct all aspects of work for
which he or she is responsible.
90. Within fourteen (14) days of the effective date of
this Decree, ASARCO shall notify EPA in writing of the
name, title, and qualifications of the engineer,
hydologist, geologist, or environmental scientist and of
any contractors and/or consultants ASARCO then plans
to use in carrying out the terms of this Part of the
Decree.
91. EPA shall identify whether any contractor
proposed by ASARCO is on the List of Parties Excluded
from Federal Procurement or Non-Procurement
Programs.
92. EPA reserves the right to disapprove ASARCO’s
identified contractor/consultant for reasons that shall
be specified to ASARCO in EPA’s written notice of

App. 234
disapproval. If EPA disapproves of an identified
contractor/consultant, then ASARCO must, within
thirty (30) days of receipt of written notice of
disapproval, notify EPA, in writing, of the name, title,
and qualifications of any replacement.
Quality Assurance
93. All sampling and analytical activities
undertaken pursuant to this Part of the Decree shall
follow EPA-approved quality assurance (QA), quality
control (QC), and chain-of-custody procedures, which
procedures shall be part of the approved Work Plan.
94. In addition, except to the extent alternate
arrangements have been made with and approved by
EPA, ASARCO shall:
a. Follow the EPA guidance for sampling and
analysis contained in the document entitled “Standard
Operating Procedures for Field Samplers” (March
1986);
b. Consult with the EPA Project Manager in
advance regarding which laboratories will be used by
ASARCO and use its best efforts to ensure that EPA
personnel and EPA-authorized representatives have
reasonable access to the laboratories and personnel
used for analyses;
c. Require that laboratories used by ASARCO for
analyses perform such analyses according to EPA
methods as found in “Test Methods for Evaluating
Solid Wastes,” Third Edition (SW-846) or other
methods deemed satisfactory by EPA, which such other
methods will be identified in advance and approved in

App. 235
writing by EPA. If other methods are to be used,
ASARCO shall submit all alternative protocols to EPA
at least forty five (45) days prior to the commencement
of analyses for EPA approval;
d. Require that laboratories used by ASARCO for
analyses have a QA/QC program at least equal to that
which is followed by EPA. As part of such a program,
and upon written request by EPA, such laboratories
shall perform analyses of samples provided by EPA to
demonstrate the quality of the analytical data; and
e. Use EPA guidance to evaluate all data to be
collected during the RFI. This evaluation shall be
provided to EPA as part of the sampling plan contained
in the Work Plan and shall be updated as necessary or
appropriate.
f. Existing data shall be evaluated by EPA for its
adequacy as a basis (partial or whole) for CC/RA and
RFI Report analyses and conclusions, and development
and evaluation of the corrective measures alternatives.
Guidance documents on data quality analysis and data
collection methods shall be used as guidelines to assess
the quality of existing data, with EPA’s best scientific
and engineering judgments used as the determining
factor on data quality.
Financial Assurance
95. During the period that this Part of the Decree is
being implemented, ASARCO shall establish and
maintain financial security as necessary and
appropriate to assure completion of its corrective action
obligations as they are identified through the interim

App. 236
measures, RFI, CMS, additional work, and CMI
processes.
96. Initially and through December 31, 1999, except
as allowed or required pursuant to Paragraphs 97
through 107 below, ASARCO shall establish and
maintain financial security in an amount equal to the
amount it is currently required to demonstrate under
Section XII of the December 1990 CERCLA Consent
Decree.
97. By December 31, 1999, and annually thereafter,
ASARCO shall develop and maintain a single cost
estimate for the remaining work to be performed
pursuant to this Part of the Decree. Annual cost
estimates after 1999, shall include an adjustment for
inflation in accordance with 40 C.F.R. § 264.142(b).
Annual cost estimates shall be transmitted with the
following January monthly report.
98. Beginning on January 1, 2000, and annually
thereafter (except as otherwise allowed or required
pursuant to Paragraph 99 immediately below), at
ASARCO’s election, the company shall use one or more
of the following forms to establish and maintain the
required financial security:
a. A surety bond or fund guaranteeing
performance of the work;
b. One or more irrevocable letters of credit
equaling the total estimated cost of the necessary
assurance;
c. A trust fund;

App. 237
d. A demonstration that ASARCO satisfies the
requirements of 40 C.F.R. § 264.143(f);
e. A guarantee to perform the work by one or
more parent corporations or subsidiaries, or by one or
more unrelated corporations that have a substantial
business relationship with ASARCO, provided that
such guarantor establishes its ability to provide such
security through or more of the mechanisms provided
in subsections a., b., c., or d., of this paragraph, on the
same schedule as otherwise required herein of
ASARCO; or
f. A demonstration by ASARCO that:
(1) It has assets located in the United States
amounting to at least ninety percent (90%) of
total assets or at least six (6) times the sum
of the current cost estimate for work to be
performed under this Decree and any other
environmental obligation and liabilities for
which ASARCO is providing assurance by
means of a financial test; and
(2) It can satisfy any two of the following
three criteria:
(i) A ratio of current assets to current
liabilities that equals 1.25 or greater.
(ii) Tangible net worth (as defined in 40
C.F.R. § 264.141) greater than the sum of
the cost estimate for work to be performed
under this Decree and any other
environmental obligations and liabilities
for which ASARCO is providing assurance

App. 238
by means of a financial test plus $10
million.
(iii) Either of the following alternative (A)
or (B):
(A) (1) Total assets less total liabilities (as
these terms are defined in 40 C.F.R.
§ 264.141) shall be no less than $500
million, with “total liabilities” including
the sum of the current cost estimate for
all work to be performed under this
Decree and any other obligations and
liabilities for which ASARCO is providing
assurance by means of a financial test; or
(2) The ratio of ASARCO’s net income,
plus depreciation, depletion, and
amortization, minus $10 million to total
liabilities (as defined in 40 C.F.R.
§ 264.141 and subparagraph (A) (1) above
is greater than 0.10.
(B) A current bond rating for the
Company’s most recent bond issuance of
AAA, AA, A or BBB as issued by
Standard and Poor’s or Aaa, Aa or Baa as
issued by Moody’s. This bond must be
issued by ASARCO and not a corporate
parent or other affiliate.
Financial calculations for purposes of this
subparagraph f. shall be in accordance with
generally accepted accounting principles on a
consolidated basis, except that LIFO inventories

App. 239
shall be included in “current assets” at their
replacement cost.
99. In any calendar year, if ASARCO can show that
the estimated cost to complete the remaining work has
diminished below the amount calculated at the end of
the prior calendar year (or as previously recalculated
during that calendar year), ASARCO may submit a
proposal for reduction to EPA, and may reduce the
amount of the security upon approval by EPA.
100. In any calendar year, if ASARCO becomes
aware, or should become aware, that the estimated cost
to complete the remaining Work has increased by ten
percent (10%) or more above the amount calculated by
the end of the prior calendar year, such increase shall
be reported in the next monthly report and
documentation of financial security for that increase
shall be provided sixty (60) days following the increase
in the cost estimate with the next due monthly report.
101. Should any change(s) in circumstances occur
which causes, or ASARCO anticipates might
reasonably cause in the short term, the financial
security mechanism then in place to fail to meet the
requirements herein, ASARCO shall immediately
either begin use of a different means for financial
assurance, or upgrade its existing affected
mechanism(s) to bring it into compliance. ASARCO
shall not have more than sixty (60) days from the date
on which ASARCO became aware, or should have
become aware of such change(s), to come into
compliance with this subsection.

App. 240
102. ASARCO may change the form of financial
security provided under this section at any time, upon
notice to and approval by EPA, provided that the new
form of assurance meets the requirements of this
section.
103. ASARCO’s inability to maintain financial
security hereunder at any time during the pendency of
this Decree shall not excuse or be a defense to
allegations of failure to perform any requirements of
this Decree.
104. Unused
105. Unused
106. In the event of a dispute regarding financial
security, ASARCO may only lower the amount of
and/or alter the form of the financial security after, and
in accordance with an effective informal resolution, or
final administrative or judicial decision resolving the
dispute.
107. ASARCO shall be released from financial
assurance requirements under this Part at the time the
Final CMC Report is approved by EPA.
Public Comment
108. Upon receipt by EPA of interim measures
workplans, the Draft CMS Report or Draft CMC Report
from ASARCO, if EPA determines that such Report is
acceptable, EPA shall review that Report and EPA
shall provide any comments regarding its content and
conclusions to ASARCO, in writing.

App. 241
109. Following ASARCO’s receipt of EPA’s
comments, ASARCO shall respond to EPA’s comments
and suggestions.
110. If and when approved, EPA shall make that
approved Draft Report available to the public (the RFI
Final Report will be made available together with the
CMS Final Report) for review and comment for a period
of at least thirty (30) days, but not to exceed sixty (60)
days.
111. The public may, and should be encouraged to,
comment on all aspects of the work to be performed
pursuant to this Part of the Decree at any time during
the implementation hereof. EPA and ASARCO will
endeavor to make all documents available for review by
interested members of the public in a timely manner,
and to be responsive to public interest in this matter.
(The administrative record will be located at the
address noted below.)
112. EPA will endeavor to consider all timely
comments from the public during each phase of activity
under this Part of the Decree. EPA reserves the right,
however, to not respond to comments which are made
after the closure of the comment periods specified
herein, or to comments on matters outside the scope of
this Part of the Decree.
113. Following the public review and comment
periods, EPA shall notify ASARCO in writing of any
additional work to be performed, and/or of any
modifications to the draft documents which are found
to be necessary or appropriate.

App. 242
114. If the corrective measures recommended in the
Draft CMS Final Report are not the corrective
measures selected by EPA, EPA shall inform ASARCO
in writing of the reasons for such decision, and
ASARCO shall modify the CMS for EPA approval and
implement such changes.
115. If, after review of public comments, EPA
disagrees with ASARCO’s conclusions in the Draft
CMC Report, EPA shall inform ASARCO in writing of
the reasons for such decision, and ASARCO shall either
modify the CMC Report for EPA approval or conduct
such work as is necessary to complete the corrective
measures (including the development and
implementation of work plans, if appropriate), as
appropriate.
116. The Administrative Record supporting the
selection of the Corrective Measures shall be available
for public review at EPA Region VIII, Montana Office,
301 South Park, Helena, Montana 59626-0096, from 8
a.m. to 5 p.m., every Business Day.
Off-Site Access
117. To the extent that work required by this Part
of the Decree; or by any approved Work Plan prepared
pursuant hereto, must be done on property not owned
or controlled by ASARCO, ASARCO shall use its best
efforts to obtain site access agreements from the
present owner(s) of such property within thirty (30)
days following transmittal of the Work Plan to EPA.
118. “Best efforts” as used in this Section shall
include, at a minimum, a certified letter (showing
actual receipt) from ASARCO to the present owner(s)

App. 243
of such property requesting the execution of reasonable
access agreements to permit ASARCO, and EPA and
their authorized representatives to obtain access to
such property.
119. Any such access agreement shall be
incorporated by reference into this Decree upon
execution by ASARCO and copies of fully executed
access agreements shall be submitted to EPA with the
next following monthly report.
120. In the event that agreements for access are not
obtained within thirty (30) days of the date of receipt of
ASARCO’s certified letter to the property owner,
ASARCO shall notify EPA in writing within seven (7)
days thereafter regarding both the efforts undertaken
to obtain access and its failure to obtain such
agreements. EPA may, at its discretion, assist
ASARCO in obtaining access.
121. Nothing in this section limits or otherwise
affects EPA’s right to access and entry pursuant to
applicable law, including RCRA and CERCLA.
122. Nothing in this section shall be construed to
limit or otherwise affect ASARCO’s liability and
obligation to perform corrective measures including
corrective measures beyond the facility boundary,
notwithstanding the lack of access.
Sampling and Data/Document Availability
123. Unless notified by EPA in writing, ASARCO
shall submit to EPA the results of sampling and/or
tests or other data generated by, or on behalf of
ASARCO, in the Monthly Reports. In addition,

App. 244
ASARCO shall submit to EPA the results of all
validated and confirmed sampling and/or tests or other
data generated by, or on behalf of ASARCO performed
pursuant to this Part of the Decree, with the RFI
Report, if not before.
124. ASARCO shall notify EPA in writing at least
three (3) Business Days before conducting any well
drilling, equipment installation , or sampling, except,
in the event ASARCO is unable to reach the EPA
Project Manager, or EPA requests a postponement of
the work a longer notice period shall be provided.
ASARCO shall provide a reasonable amount of, or
allow EPA or its authorized representatives to take,
split samples of all samples collected by ASARCO
pursuant to this Part of the Decree.
125. Except as noted below, ASARCO may assert a
business confidentiality claim covering all or part of
any information provided to EPA or its representatives
pursuant to this Part of the Decree. Except under
exigent circumstances, any assertion of confidentiality
shall be substantiated by ASARCO when the assertion
is made, or the right to assert the claim shall be
waived. Information determined to be confidential shall
be disclosed only to the extent permitted by 40 C.F.R.
Part 2. If no confidentiality claim (including
substantiation) accompanies the information when it is
provided, it may be made available to the public
without further notice to ASARCO. Physical or
analytical data either generated and/or submitted
pursuant to this Part of the Decree cannot be claimed
confidential and/or privileged.

App. 245
Record Preservation
126. During the pendency of this Decree and for a
minimum of three (3) years from EPA approval of the
Final CMC Report, ASARCO shall preserve all
submittals and data generated and/or submitted in its
possession or in the possession of its divisions, officers,
directors, employees, agents, contractors, attorneys,
successors and assigns which relate to performance
under this Part of the Decree or to hazardous waste
management and/or disposal at the Facility. For a
period of three (3) years from EPA approval of the
Final CMC Report, ASARCO shall make such records
available to EPA for inspection or copying or shall
provide copies of any such records to EPA. ASARCO
shall notify EPA twenty (20) days prior to the
destruction of any such records, and shall provide EPA
with the opportunity to take possession of any such
records.
Project Managers
127. On or before the effective date of this Decree,
EPA, and ASARCO shall designate Project Managers.
Each Project Manager shall be responsible for
overseeing the implementation of this Part of the
Decree. The EPA Project Manager shall be EPA’s
designated representative at the Facility. To the
maximum extent possible, all communications between
ASARCO and EPA, and all documents, reports,
approvals, and other correspondence concerning the
activities performed pursuant to the terms and
conditions of this Part of the Decree, shall be directed
to the Project Managers.

App. 246
128. The EPA project manager is:
Susan Zazzali, RCRA Project Manager
Montana Office
U.S. EPA Region VIII
301 South Park, Drawer 10096
Helena, Montana 59626
129. The ASARCO project manager is:
Jon Nickel
ASARCO Incorporated
100 Smelter Road, Highway 12
East Helena, MT 59635
130. The parties agree to provide at least seven (7)
days notice prior to changing Project Managers.
131. The absence of the EPA Project Manager from
the site shall not be cause for the stoppage of work.
Notification and Document Certification
132. Unless otherwise specified, reports, notices,
approvals, disapprovals, or other submittals relating to
or required under this Part of the Decree shall be in
writing, shall be certified in accordance with Paragraph
228 and shall be sent to the EPA Project Manager.
Reservation of Rights
133. EPA expressly reserves all rights and defenses
that it may have, including the right both to disapprove
of work performed by ASARCO that is not in
compliance with this Decree and to require that
ASARCO perform tasks in addition to those stated in
the Work Plans required by this Part of the Decree.

App. 247
134. In the event ASARCO fails to adequately
perform work pursuant to this Part of the Decree,
including the submittal of acceptable documents, EPA
reserves the right to perform any portion of the work
required hereunder or any additional site
characterization, or other corrective actions as EPA
deems necessary or appropriate to protect human
health and the environment, including drafting final
work plans and other documents, which become
binding on ASARCO upon execution by EPA.
135. EPA may exercise its authority under CERCLA
to undertake removal actions or remedial actions at
any time.
136. EPA reserves its right to seek reimbursement
from ASARCO under all applicable statutes for such
additional costs incurred by the United States.
137. Notwithstanding compliance with the terms of
this Decree, ASARCO is not released from liability, if
any, for the costs of any response actions taken or
authorized by EPA under any applicable statute,
including CERCLA.
138. EPA reserves the right to initiate any
appropriate action pursuant to section 7003 of RCRA,
42 U.S.C. § 6973, at the East Helena Facility at any
time during the pendency of this Decree.
139. If EPA determines that activities in compliance
or noncompliance with this Part of the Decree have
caused or may cause a release of hazardous waste or
hazardous constituents both within and outside of the
Facility; or have caused or may cause a threat to
human health or the environment; or if EPA

App. 248
determines that ASARCO is not capable of undertaking
any studies or corrective measures required hereunder,
EPA may order ASARCO to stop further
implementation of this Part of the Decree for such
period of time as EPA determines may be needed to
abate any such release or threat and/or to undertake
any action which EPA determines is necessary to abate
such release or threat.
140. No informal advice, guidance, suggestions, or
comments by EPA regarding reports, plans,
specifications, schedules, and any other writings
submitted by ASARCO will be construed as relieving
ASARCO of its obligations to obtain written approval,
if and when required by this Part of the Decree.
Termination and Satisfaction
141. Except for the record preservation provisions,
the requirements of this Part of the Decree shall be
deemed satisfied upon ASARCO’s receipt of written
notice from EPA that the EPA has approved the Final
CMC Report.
Survivability/Permit Integration
142. Subsequent to the entry of this Decree, a RCRA
permit may be issued to the East Helena Facility
incorporating any or all of the requirements of this
Part of the Decree into the permit.
143. No requirements of this Part of the Decree
shall terminate upon the issuance of a RCRA permit
unless the requirements are expressly replaced by
equivalent or more stringent requirements in the
permit.

App. 249
*

*

*

[pp. 84]
XII.

PENALTY FOR PAST VIOLATIONS

179. Within 30 days after the date of entry of this
Decree, ASARCO shall pay to the United States a civil
penalty in the amount of Three Million three Hundred
and Eighty-Six thousand and One Hundred Dollars
($3,386,100), plus interest at the rate established by
the Secretary of the Treasury pursuant to 31 U.S.C.
§ 3717, calculated from the date of lodging of this
Decree until the date of payment.
*

*

*

[pp. 95]
XVIII. EFFECT OF DECREE
209. ASARCO’s payment of all civil penalties due,
and ASARCO’s commitments to pay all stipulated
penalties due and owing under this Decree, and
ASARCO’s commitment to fully and successfully
complete the requirements of this Decree, shall
constitute full satisfaction of the claims for civil
penalties for civil violations alleged in the complaint of
the United States that occurred prior to the date of
lodging of this Decree, except as provided in this
Paragraph. This release includes any alleged civil
violations relating to the management of materials
generated by the smelting of Encycle Materials, but
does not include alleged civil violations relating to
receipt, storage or smelting of the Encycle Materials
themselves. This release also does not include any civil
violations relating to discharges from the Facility to the
East Helena Publicly Owned Treatment Works. This

App. 250
release is conditioned upon the complete and
satisfactory performance by ASARCO of its obligations
under this Decree.
210. a. ASARCO agrees not to assert any claims or
causes of action against the United States, including
any department, agency or instrumentality of the
United States, with respect to the East Helena Facility
or this Decree, including, but not limited to, any direct
or indirect claim for reimbursement from the
Hazardous Substance Superfund (established pursuant
to the Internal Revenue Code, 26 U.S.C. § 9507)
through CERCLA Sections 106(b)(2), 111, 112, 113 or
any other provision of law; any claim against the
United States, including any department, agency or
instrumentality of the United States, under CERCLA
Sections 107 or 113 related to the East Helena Facility,
or this Decree. Nothing in this Decree shall be deemed
to constitute preauthorization of a claim within the
meaning of Section 111 of CERCLA, 42 U.S.C. § 9611,
or 40 C.F.R. § 300.700(d).
b. ASARCO reserves and this Decree is without
prejudice to, claims against the United States, subject
to the provisions of Chapter 171 of Title 28 of the
United States Code, for money damages for injury or
loss of property or personal injury or death caused by
the negligent or wrongful act or omission of any
employee of the United States while acting within the
scope of his office or employment under circumstances
where the United States, if a private person, would be
liable to the claimant in accordance with the law of the
place where the act or omission occurred. However, any
such claim shall not include a claim for any damage

App. 251
caused, in whole or in part, by the act or omission of
any person, including any contractor, who is not a
federal employee as that term is defined in 28 U.S.C.
§ 2671; nor shall any such claim include a claim based
on EPA’s selection of activities to be performed
pursuant to this Decree, or the oversight or approval of
ASARCO’s plans or activities. The foregoing applies
only to claims which are brought pursuant to any
statute other than the CWA, RCRA, or CERCLA and
for which the waiver of sovereign immunity is found in
a statute other than the CWA, RCRA, or CERCLA.
211. In any subsequent administrative or judicial
proceeding initiated by the United States for injunctive
relief, penalties, recovery of response costs, or other
appropriate relief relating to any ASARCO facility,
ASARCO shall not assert, and may not maintain, any
defense or claim based upon the principles of waiver,
res judicata, collateral estoppel, issue preclusion,
claim-splitting, or other defenses based upon any
contention that the claims raised by the United States
in the subsequent proceeding were or should have been
brought in the instant case; provided, however, that
nothing in this Paragraph affects the enforceability of
Paragraph 209. This includes any claims through
which the United States seeks additional relief related
to ASARCO’s environmental management system.
212. This Decree does not limit the United States’
right to obtain penalties or injunctive relief under
RCRA, the CWA, or other federal or State statutes or
regulations except as expressly specified in Paragraph
209 of this Part.

App. 252
213. EPA reserves all of its statutory and regulatory
powers, authorities, rights, remedies, both legal and
equitable, which pertain to ASARCO’s failure to comply
with any of the requirements of this Decree, including
the assessment of penalties under RCRA or the CWA.
214. This Decree shall not be construed as a
covenant not to sue, release, waiver or limitation of any
rights, remedies, powers and/or authorities, civil or
criminal, which EPA has under RCRA, CERCLA, or
any other statutory, regulatory, or common law
authority, except as provided in Paragraph 209 above,
however, EPA agrees that, so long as ASARCO remains
in compliance with Part VII of this Decree, EPA shall
not initiate a separate action under Sections 3008(h)
and 3013 of RCRA, 42 U.S.C. §§ 6928(h) and 6933, for
work to be performed at the Facility.
215. Except as expressly provided in this Decree,
compliance by ASARCO with the terms of this Decree
shall not relieve ASARCO of its obligations to comply
with RCRA or any other applicable local, state or
federal laws and regulations, including, but not limited
to, the CWA and SDWA.
216. By consenting to the entry of this Decree, the
United States does not warrant or aver that ASARCO’s
compliance with this Decree will constitute or result in
compliance with the RCRA, the CWA, ASARCO’s
NPDES permits, or any other federal, State, or local
permit, law, rule or regulation. Notwithstanding EPA’s
review and approval of any plans formulated pursuant
to this Decree, ASARCO shall remain solely
responsible for compliance with RCRA and the CWA,
this Decree, ASARCO’s NPDES permits, and any other

App. 253
applicable federal, State, or local permit, law, rule, or
regulation. Compliance with this Decree shall be no
defense to any action commenced pursuant to said
laws, regulations, or permits, except as specifically
provided in Paragraph 209 of this Part.
Other Claims and Parties
217. Except as expressly provided herein, nothing in
this Decree shall constitute or be construed as a release
from any claim, cause of action or demand in law or
equity, against any person, firm, partnership, or
corporation for any liability it may have arising out of,
or relating in any way to, the generation, storage,
treatment, handling, transportation, release,
management or disposal of any hazardous wastes,
hazardous constituents, hazardous substances,
hazardous materials, pollutants, or contaminants
found at, on, or under, taken to or from, or migrating
to, from or through the Facility.
Other Applicable Law
218. This Decree is not intended to be nor shall it be
construed as a permit. This Decree does not relieve
ASARCO of any obligation to obtain and comply with
any local, state, or Federal permits. ASARCO, therefor,
shall obtain or cause its representatives to obtain all
permits and approvals necessary under applicable
local, state, and Federal laws and regulations and shall
otherwise comply with all applicable local, state, and
Federal requirements. The pendency or outcome of any
proceeding concerning the issuance, reissuance, or
modification of any permit shall neither affect nor

App. 254
postpone ASARCO’s duties and liabilities as set forth
in this Decree.
Indemnification of the United States
219. Neither the United States Government, nor its
agencies, departments, agents, and employees (the
“Government”), shall be held out or construed to be a
party to any contract entered into by ASARCO in
carrying out activities pursuant to this Decree.
220. The Government shall not be liable for any
injury or damages to persons or property resulting from
acts or omissions of ASARCO or its contractor(s) in
implementing the requirements of this Decree, or any
EPA-approved work plans or planning documents
submitted and/or approved pursuant to this Decree.
221. The Government shall not be considered agent,
independent contractor, receiver, trustee and assign, in
carrying out activities required by this Decree.
*

*

*

App. 255

APPENDIX I
LOIS J. SCHIFFER
Assistant Attorney General
Environment and Natural Resources Division
United States Department of Justice
MICHAEL D. GOODSTEIN
Senior Attorney
Environmental Enforcement Section
Environment and Natural Resources Division
United States Department of Justice
P.O. Box 7611
Washington, D.C. 20044-7611
(202) 514-1111
JOHN N. MOSCATO
Trial Attorney
Environmental Enforcement Section
Environment and Natural Resources Division
United States Department of Justice
999 18th Street Suite 945
Denver, Colorado 80202
(303) 312-7346
SHERRY SCHEEL MATTEUCCI
United States Attorney
District of Montana

App. 256
LORRAINE D. GALLINGER
Assistant United States Attorney
District of Montana
P.O. Box 1478
Billings, Montana 59103
(406) 657-6101
Attorneys for the United States
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MONTANA
HELENA DIVISION
Civil Action No. :
_________________________________
UNITED STATES OF AMERICA, )
)
Plaintiff,
)
)
v.
)
)
ASARCO, Incorporated,
)
)
Defendant.
)
_________________________________)
COMPLAINT
The United States of America, by authority of the
Attorney General of the United States and through the
undersigned attorneys, acting at the request of the
United States Environmental Protection Agency
(“EPA”), files this complaint and alleges as follows:

App. 257
NATURE OF THE CASE
1.
This is a civil action against ASARCO,
Incorporated (“ASARCO” or “Defendant”) for injunctive
relief and civil penalties pursuant to Sections 3008(a),
(g) and (h) of the Resource Conservation and Recovery
Act of 1976, as amended by the Solid Waste Disposal
Act Amendments of 1980 and the Hazardous and Solid
Waste Amendments of 1984 (“RCRA”), 42 U.S.C.
§§ 6928(a), (g) and (h), for violations of RCRA at
ASARCO’s East Helena, Montana facility (“the
Facility”), and for injunctive relief and civil penalties
pursuant to Section 309(b) and (d) of the Clean Water
Act (“CWA”), 33 U.S.C. § 1319(b) and (d), for violations
of the CWA at the Facility. The violations which are
the subject of this complaint relate to ASARCO’s
receipt, generation, management, treatment, storage,
and disposal of hazardous wastes at the Facility, and
the discharge of pollutants from a point source at the
Facility to a navigable water of the United States
without authorization under the National Pollutant
Discharge Elimination System (“NPDES”) established
pursuant to Section 301(a) of the CWA, 33 U.S.C.
§ 1311(a).
JURISDICTION AND VENUE
2.
This Court has jurisdiction over the subject
matter of this action pursuant to 28 U.S.C. §§ 1331,
1345, and 1355, Sections 3008(a) and (h) and 3006(g) of
RCRA, 42 U. S.C. §§ 6928 (a) and (h) and 6926(g), and
Section 309(b) of the CWA, 33 U.S.C. § 1319(b).
3.
Venue is proper in this judicial district under
28 U.S.C. §§ 1391(b) and (c), and 1395(a); Sections

App. 258
3008(a) and (h) of RCRA, 42 U.S.C. §§ 6928(a) and (h);
and Section 309(b) of the CWA, 33 U.S.C. § 1319(b).
Defendant ASARCO was and is, at all material times,
doing business in this district. The events giving rise to
the claims alleged herein occurred in this district.
4.
Notice of the commencement of this action
has been given to the State of Montana as required by
Section 3008(a)(2) of RCRA, 42 U.S.C. § 6928(a)(2), and
Section 309(b) of the CWA, 33 U.S.C. § 1319(b).
DEFENDANT
5.
ASARCO is a corporation organized under
the laws of the State of New Jersey doing business in
the State of Montana.
6.
ASARCO is a “person” within the meaning of
Section 1004(15) of RCRA, 42 U.S.C. § 6903(15), 40
C.F.R. § 260.10, Mont. Code Ann. § 75-10-403(12) and
Mont. Admin. R. 17.54.201.
7.
ASARCO is a “person” within the meaning of
Section 502(5) of the CWA, 33 U.S.C. § 1362(5).
8.
At all material times herein, ASARCO was
the owner and operator of the Facility, a primary lead
smelter and associated sulfuric acid manufacturing
plant located just south of the City of East Helena,
Montana. The Facility is a “source” within the meaning
of Section 307(d) of the CWA, 33 U.S.C. § 1317(d), that
recovers base metals from various ores and other
materials, and in an ancillary operation, produces
sulfuric acid.

App. 259
9.
At all relevant times, ASARCO controlled the
day to day business operations of the Facility.
STATUTORY AND REGULATORY FRAMEWORK
10.
RCRA was enacted on October 21, 1976, and
amended thereafter by, among other acts, the
Hazardous and Solid Waste Amendments of 1984
(“HSWA”). 42 U.S.C. §§ 6901 et seq. The statute
established a program for the management of
hazardous wastes to be administered by the
Administrator of EPA. 42 U.S.C. §§ 6921 et seq. The
regulations promulgated by the Administrator are
codified at 40 C.F.R. Parts 260 through 271.
11.
Pursuant to Section 3006 of RCRA, 42 U.S.C.
§ 6926, the Administrator may authorize a state to
administer the RCRA hazardous waste program in lieu
of the federal program when he or she deems the state
program to be substantially equivalent to the federal
program.
12.
The Administrator granted authorization to
the State of Montana to administer its hazardous waste
program in lieu of the federal program on July 25,
1984, and has authorized revisions to that program
since that date.
13.
Pursuant to Sections 3008(a), (g) and (h), and
3006(g) of RCRA, 42 U.S.C. §§ 6928(a), (g) and (h), and
6926(g), the United States may enforce the federally
approved Montana hazardous waste program, as well
as the federal regulations promulgated pursuant to
HSWA, by filing a civil action in United States District
Court for injunctive relief, including, corrective action
and civil penalties.

App. 260
14.
Section 3005 of RCRA, 42 U.S.C. § 6925, and
Mont. Code Ann. § 75-10-406, generally prohibit the
operation of any hazardous waste treatment, storage,
or disposal facility (“TSD facility”) except in accordance
with a permit. Section 3005(e) of RCRA, 42 U.S.C.
§ 6925(e) and Mont. Code Ann. § 75-10-406, further
provide that certain hazardous waste facilities may
obtain “interim status” to continue operating until final
action is taken by EPA or Montana with respect to the
facility’s permit application so long as the facility
satisfies certain conditions. Therefore, a person may
not own or operate a TSD facility unless the person has
obtained a permit for the facility or has interim status
for the facility.
15.
The owner or operator of a facility with
“interim status” must comply with 40 C.F.R. Part 265,
or the equivalent State regulations codified at Mont.
Admin. R. Title 17, Chapter 54, Subchapter 6.
16.
Under Mont. Admin. R. 17.54.303, a “waste”
within the meaning of Montana Admin. R. 17.54.302 is
a “hazardous waste” if it is either listed as a hazardous
waste in Mont. Admin. R. 17.54.330-333 or if it exhibits
one of the characteristics set forth in Mont. Admin. R.
17.54.320-324.
17.
Section 3004(d) through (g) of RCRA, 42
U.S.C. § 6924(d) through (g), generally prohibits
certain hazardous wastes from being disposed on land
unless the Administrator determines that the methods
used for land disposal are protective of human health
and the environment for as long as the waste remains
hazardous. Pursuant to Section 3004(d) through (g) of
RCRA, 42 U.S.C. § 6924(d) through (g), the

App. 261
Administrator has promulgated regulations prohibiting
land disposal of certain hazardous wastes unless the
wastes meet certain treatment standards set forth in
the regulations. The regulations are referred to as
“land disposal restrictions,” and are codified at 40
C.F.R. Part 268 and Mont. Admin. R. 17.54.150.
18.
Pursuant to Section 3008(h) of RCRA, 42
U.S.C. § 6928(h), whenever the Administrator of EPA
determines that there has been a release of a
hazardous waste into the environment from a facility
subject to interim status requirements, the
Administrator may commence a civil action for
appropriate relief, including, an injunction requiring
the defendant to take corrective action necessary to
protect human health or the environment.
19.
Pursuant to Section 3008(a) and (g) of RCRA,
42 U.S.C. 3008(a) and (g), and Public Law 104-134, a
person is subject to civil penalties not to exceed $25,000
per day of noncompliance for each violation of RCRA
which occurred prior to January 30, 1997 and $27,500
per day for each violation which occurred after January
30, 1997.
20.
Section 402 of the CWA, 33 U.S.C. § 1342,
established the NPDES permit program, and
authorizes the Administrator of EPA to issue permits
for the discharge of pollutants from a point source into
navigable water upon condition that such discharge
meet all applicable requirements of, inter alia, Section
301(b) of the CWA, 33 U.S.C. § 1311(b), and any other
conditions EPA determines are necessary to carry out
the CWA.

App. 262
21.
Section 301(a) of the CWA, 33 U.S.C.
§ 1311(a), prohibits the discharge of pollutants into
navigable waters of the United States except in
compliance with, inter alia, the terms and conditions of
a National Pollutant Discharge Elimination System
permit issued pursuant to Section 402 of the CWA, 33
U.S.C. § 1342.
22.
Pursuant to Sections 309(b) and (d) of the
CWA, 33 U.S.C. §§ 1319(b) and (d), and Public Law
104-134, any person who violates Sections 301, 302,
306, 307, 308, 318, or 405 of the CWA, 33 U.S.C.
§§ 1311, 1312, 1316, 1317, 1318, 1328, or 1345, or
violates any permit condition or limitation
implementing any of such sections in a permit issued
under Section 402 of the CWA, 33 U.S.C. § 1342, shall
be subject to injunctive relief, and a civil penalty not to
exceed $25,000 for each day of each such violation
occurring before January 30, 1997 and a civil penalty
of $27,500 for each day of each such violation occurring
after January 30, 1997.
GENERAL ALLEGATIONS
23.
From at least May 1991 to the present,
ASARCO has been an owner and operator, as defined
at 40 C.F.R. § 260.10 and Mont. Admin. R. 17.54.201,
of a facility where ASARCO received, generated,
stored, treated and disposed of hazardous waste as
defined in 40 C.F.R. § 261.3 and Mont. Admin. R.
17.54.303.
24.
Because ASARCO is and has been an owner
and operator of a facility at which ASARCO received,
generated, stored, treated and disposed of hazardous

App. 263
waste, ASARCO is and was subject to the RCRA
hazardous waste program and the Montana authorized
hazardous waste program, codified at Mont. Code Ann.
§ 75-10-401 et seq.
25.
From at least May 1991 to November 1996,
ASARCO generated and mixed wastewater from
various processes in the Facility process wastewater
system and disposed of the process wastewater onto the
ground at the Facility. The process wastewater was a
hazardous waste under Mont. Admin. R. 17.54.303.
26.
In at least January, 1995, ASARCO
generated filter cake at its acid plant and water
treatment plant and disposed of the filter cake onto the
ground at the Facility. The filter cake was a hazardous
waste under Mont. Admin. R. 17.54.303.
27.
From at least January 1992 to June 1997
ASARCO has received spent refractory brick from other
mineral processing facilities, and has generated spent
refractory brick, at the Facility. ASARCO stored,
smelted and disposed of spent refractory brick at the
Facility during this period. Some of the spent
refractory brick was a hazardous waste under Mont.
Admin. R. 17.54.303.
28.
From at least January 1992 to present,
ASARCO has received, stored, treated and disposed of
at the Facility spent carbon from heap leaching
processes. Some of the spent carbon received by
ASARCO at the Facility was and is a hazardous waste
under Mont. Admin. R. 17.54.303.
29.
From at least February 1996 to April 1996,
ASARCO received, stored, treated and/or disposed of

App. 264
spent caustic slag at the Facility. The spent caustic
slag was a hazardous waste under Mont. Admin. R.
17.54.303.
30.
From at least June 1996 to present, ASARCO
has received, generated, stored, treated and disposed of
plant soils at the Facility. Some of these plant soils
were and are hazardous waste under Mont. Admin. R.
17.54.303.
31.
From at least May, 1991 to present, ASARCO
has received, stored, treated and disposed of various
materials from the Encycle/Texas facility in Corpus
Christi, Texas, including, materials described by
ASARCO as “flux substitutes”, “metal bearing
secondary materials”, and “product” (“Encycle
Materials”). Some of the Encycle Materials were and
are hazardous waste under Mont. Admin. R. 17.54.303.
32.
There has been a release of hazardous waste
into the environment from the Facility.
33.
From at least May, 1991 to October, 1994,
ASARCO discharged process wastewaters containing
pollutants from the Facility process wastewater system
to Lower Lake. From October, 1994 to present,
ASARCO discharged process wastewater containing
pollutants from its High Density Sludge Treatment
Facility to Lower Lake. None of these discharges to
Lower Lake were authorized by a permit issued
pursuant to the National Pollutant Discharge
Elimination System.
34.
Lower Lake is hydrologically connected to
Prickly Pear Creek, a water of the United States.
Pollutants discharged by ASARCO into Lower Lake are

App. 265
subsequently discharged from Lower Lake into Prickly
Pear Creek. None of the discharges from Lower Lake to
Prickly Pear Creek were authorized by a permit issued
pursuant to the National Pollutant Discharge
Elimination System.
FIRST CLAIM FOR RELIEF
(Failure to Notify)
35.
Paragraphs 1 through 34, inclusive, are
realleged and incorporated herein by reference.
36.
Section 3010(a) of RCRA, 42 U.S.C. § 6930(a),
requires that any person generating or transporting a
hazardous waste or owning or operating a facility for
treatment, storage, or disposal of a hazardous waste,
file a notification with EPA and the authorized State
stating the location and general description of such
activity and the identified hazardous waste handled by
such person.
37.
ASARCO generated, stored and/or disposed
of hazardous waste, including, process wastewater,
filter cake, spent refractory brick, spent carbon, spent
caustic slag, plant soils and Encycle Materials at the
Facility.
38.
ASARCO never provided notification to EPA
or Montana for these activities as required by Section
3010(a) of RCRA, 42 U.S.C. § 6930(a).
39.
ASARCO is subject to injunctive relief, and is
subject to civil penalties not to exceed $25,000 per day
of noncompliance for each such violation which
occurred prior to January 30, 1997 and $27,500 per day

App. 266
of each violation which occurred after January 30,
1997.
SECOND CLAIM FOR RELIEF
(Failure To Make A Hazardous Waste
Determination)
40.
Plaintiff realleges paragraphs 1 through 34,
inclusive, which are incorporated herein by reference.
41.
A generator of “solid waste” is required to
determine whether the waste is hazardous in
accordance with 40 C.F.R. § 262.11.
42.
A generator of “ waste” is required to
determine whether the waste is hazardous in
accordance with Mont. Admin. R. 17.54.402.
43.
The process wastewater, filter cake, spent
refractory brick, and plant soils are “solid wastes” as
that term is defined in Section 1004(27) of RCRA, 42
U.S.C. § 6903(27), and are “wastes” as that term is
defined in Mont. Code Ann. § 75.10.203(11).
44.
ASARCO, as the generator of solid waste and
waste, including, process wastewater, filter cake, spent
refractory brick, and plant soils, is required to
characterize the waste prior to making any
management decisions concerning the waste pursuant
to 40 C.F.R. § 262.11 and Mont. Admin. R. 17.54.402.
45.
ASARCO failed to accurately characterize
these wastes.
46.
ASARCO is subject to injunctive relief, and is
subject to civil penalties not to exceed $25,000 per day
of noncompliance for each such violation which

App. 267
occurred prior to January 30, 1997 and $27,500 per day
for each such violation which occurred after January
30, 1997.
THIRD CLAIM FOR RELIEF
(Treatment, Storage, Disposal Without a Permit)
47. Paragraphs 1 through 34, inclusive, are
realleged and incorporated herein by reference.
48.
Sections 3005(a) and (e) of RCRA, 42 U.S.C.
§ 6925(a) and (e), and Mont. Code Ann. § 75-10-406
provide that a facility shall not treat, store, or dispose
of hazardous waste without a permit.
49.
ASARCO has treated and/or stored, and/or
disposed of hazardous waste, including process
wastewater, filter cake, spent refractory brick, spent
carbon, spent caustic slag, plant soils, and Encycle
Materials at the Facility.
50.
ASARCO has not received a permit or
obtained interim status for any treatment, storage, or
disposal activity at the Facility.
51.
ASARCO is subject to injunctive relief, and is
subject to civil penalties not to exceed $25,000 per day
of noncompliance for each such violation which
occurred prior to January 30, 1997 and $27,500 per day
for each such violation which occurred after January
30, 1997.
FOURTH CLAIM FOR RELIEF
(Land Disposal Restriction Requirements)
52.
Plaintiff realleges paragraphs 1 through 34,
inclusive, which are incorporated herein by reference.

App. 268
53.
40 C.F.R. § 268.7(a) and Mont. Admin. R.
17.54.150(1) requires that, among other things,
generators must test their hazardous waste to
determine if the waste is restricted from land disposal.
54.
ASARCO violated these provisions by failing
to perform the requisite waste analysis, tracking and
record keeping for hazardous waste, including, but not
limited to, process wastewater, filter cake, spent
refractory brick and plant soils.
55.
Storage and “land disposal” of restricted
hazardous waste is prohibited unless all applicable
storage and treatment standards have been met
pursuant to Section 3004(d)-(g) of RCRA, 42 U.S.C.
§ 6924(d)-(g), 40 C.F.R. §§ 268.50 and 268.40, and
Mont. Admin. R. 17.54.150(1).
56.
ASARCO violated the land disposal
restrictions by storing and disposing of restricted
hazardous waste, including, process wastewater, filter
cake, spent refractory brick, spent carbon, plant soils,
and Encycle Materials without meeting storage and
treatment standards as required by 40 C.F.R. §§ 268.50
and 268.40 and Mont. Admin. R. 17.54.150(1).
57.
ASARCO is subject to injunctive relief, and is
subject to civil penalties not to exceed $25,000 per day
of noncompliance for each such violation which
occurred prior to January 30, 1997 and $27,500 per day
for each such violation which occurred after January
30, 1997.

App. 269
FIFTH CLAIM FOR RELIEF
(Accumulation of Hazardous Wastes)
58.
Plaintiff realleges paragraphs 1 through 34
inclusive, which are incorporated herein by reference.
59.
40 C.F.R. §262.34(a) and Mont. Admin. R.
17.54.421 provide that generators of hazardous waste
may accumulate hazardous waste on site without a
permit or interim status provided that the waste is
accumulated for no more than 90 days and that the
containers in which the waste is being accumulated are
marked with the words “Hazardous Waste.”
60.
ASARCO has generated and accumulated
hazardous waste, including spent refractory brick, at
the Facility for more than 90 days without a permit or
interim status and has failed to mark any containers in
which hazardous waste, including spent refractory
brick, was being accumulated with the words
“Hazardous Waste.”
61.
ASARCO is subject to injunctive relief, and is
subject to civil penalties not to exceed $25,000 per day
of noncompliance for each such violation which
occurred prior to January 30, 1997 and $27,500 per day
for each such violation which occurred after January
30, 1997.
SIXTH CLAIM FOR RELIEF
(Failure To Characterize Waste-Derived Residue)
62.
Plaintiff realleges paragraphs 1 through 34,
inclusive, which are incorporated herein by reference.

App. 270
63.
40 C.F.R. §266.112 and Mont. Admin. R.
17.54.1114 requires owners or operators of industrial
furnaces to determine whether the co-combustion of
hazardous waste has significantly affected the
character of the residues.
64.
ASARCO failed to characterize the slag and
other materials derived from the treatment and/or
disposal of hazardous waste, including spent refractory
brick, spent carbon, spent caustic slag, plant soils and
Encycle Materials, in the smelter in violation of 40
C.F.R. § 266.112 and Mont. Admin. R. 17.54.1114.
65.
ASARCO is subject to injunctive relief, and is
subject to civil penalties not to exceed $25,000 per day
of noncompliance for each violation which occurred
prior to January 30, 1997 and $27,500 per day for each
such violation which occurred after January 30, 1997.
SEVENTH CLAIM FOR RELIEF
(Precious Metals Recovery Regulations)
66.
Plaintiff realleges paragraph 1 through 34
inclusive, which are incorporated herein by reference.
67.
40 C.F.R. § 266.70 and Mont. Admin. R.
17.54.1101(6) require persons who generate, transport
and store, hazardous waste that is reclaimed for
precious metals recovery to comply with certain
recordkeeping, notice and management regulations.
68.
To the extent ASARCO was reclaiming
precious metals from hazardous waste, including, spent
refractory brick and spent carbon, ASARCO failed to
comply with the recordkeeping, notice and
management regulations for precious metals recovery

App. 271
in violation of 40 C.F.R. § 266.70 and Mont. Admin. R.
17.54.1101(6).
69.
ASARCO is subject to injunctive relief, and is
subject to civil penalties not to exceed $25,000 per day
of noncompliance for each violation which occurred
prior to January 30, 1997 and $27,500 per day for each
violation which occurred after January 30, 1997.
EIGHTH CLAIM FOR RELIEF
(Unauthorized Discharges)
70.
Paragraphs realleges paragraphs 1 through
34 inclusive, which are incorporated herein by
reference.
71.
Prickly Pear Creek is a “navigable water”
within the meaning of Section 502(7) of the CWA, 33
U.S.C. § 1362(7).
72.
ASARCO discharged pollutants, as those
terms are defined in Sections 502(6) and 502(12) of the
CWA, 33 U.S.C. §§ 1362(6) and 1362(12), into Lower
Lake at the Facility. Via a hydrological connection
between Lower Lake and Prickly Pear Creek,
pollutants discharged by ASARCO from the Facility
into Lower Lake entered Prickly Pear Creek. Lower
Lake is a “point source” within the meaning of Section
502(14) of the CWA, 33 U.S.C. § 1362(14).
73.
On several occasions beginning in May 1991
through the present, ASARCO discharged quantities of
wastewater containing “pollutants,” within the
meaning of Section 502(6) of the CWA, 33 U.S.C.
§ 1362(6), at the Facility from its process wastewater

App. 272
system and the High Density Sludge Facility to Lower
Lake and from there to Prickly Pear Creek.
74.
Because ASARCO did not have a permit
authorizing its discharge of pollutants to Prickly Pear
Creek, the discharges from Lower Lake to Prickly Pear
Creek occurred in violation of Section 301(a) of the
CWA, 33 U.S.C. § 1311(a).
75.
ASARCO is subject to injunctive relief, and is
subject to the assessment of civil penalties not to
exceed $25,000 for each day of each such violation
which occurred prior to January 20, 1997 and civil
penalties not to exceed, $27,500 per day for each such
violation which occurred after January 30, 1997.
PRAYER FOR RELIEF
WHEREFORE, Plaintiff, the United States of
America, respectfully prays that this Court:
a.
Assess civil penalties not to exceed Twenty
Five Thousand Dollars ($25,000) for each day of each
violation prior to January 30, 1997 and not to exceed
Twenty Seven Thousand and Five Hundred Dollars
($27,500) for each day of each violation after January
30, 1997 of RCRA and the CWA as alleged in this
complaint;
b.
Grant injunctive relief to bring ASARCO into
compliance with RCRA and the CWA at the Facility, to
require ASARCO to conduct corrective action pursuant
to Section 3008(h) of RCRA, 42 U.S.C. § 6928(h), at the
Facility, and to bring ASARCO into compliance with all
applicable environmental laws; and

App. 273
c.
Grant such other and further relief as this
Court may deem just and proper.
DATED this ____ day of January, 1998.
Respectfully submitted,
/s/ Lois J. Schiffer
LOIS J. SCHIFFER
Assistant Attorney General
Environment and Natural Resources Division
United States Department of Justice
/s/ Michael D. Goodstein
MICHAEL D. GOODSTEIN
Environmental Enforcement Section
Environment and Natural Resources Division
United States Department of Justice
P.O. Box 7611
Ben Franklin Station
Washington, D.C. 20044
(202) 514-1111
/s/ John N. Moscato
JOHN N. MOSCATO
Environmental Enforcement Section
Environment and Natural Resources Division
United States Department of Justice
999 18th Street - Suite 945
Denver, CO 80202
(303) 312-7346
SHERRY SCHEEL MATTEUCCI
United States Attorney
District of Montana

App. 274
___________________________
LORRAINE D. GALLINGER
Assistant United States Attorney
P.O. Box 1478
Billings, Montana
(406) 657-6101
OF COUNSEL:
SUZANNE BOHAN, Esq.
CHARLES FIGUR, Esq.
ELYANA SUTIN, Esq.
Office of Enforcement, Compliance and Environmental
Justice
U.S. Environmental Protection Agency – Region VIII
999 18th Street - Suite 500
Denver, Colorado 80202-2466
PETER MOORE, Esq.
Multimedia Enforcement Division (Mail Code 2248-A)
Office of Regulatory Enforcement
U.S. Environmental Protection Agency
401 M Street, S.W.
Washington, D.C. 20460

